<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2001

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                             SECOND SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                    RON PACKARD, California, Chairman
 HAROLD ROGERS, Kentucky             PETER J. VISCLOSKY, Indiana
 JOE KNOLLENBERG, Michigan           CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey ED PASTOR, Arizona
 SONNY CALLAHAN, Alabama             MICHAEL P. FORBES, New York
 TOM LATHAM, Iowa
 ROGER F. WICKER, Mississippi       
                 
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
          Robert Schmidt and Jeanne L. Wilson, Staff Assistants
                                ________
                                 PART 6
                          DEPARTMENT OF ENERGY
                                                                   Page
 Environmental Management and Commercial Waste Management.........    1
 Nuclear Waste Technical Review Board.............................  381
 Atomic Energy Defense Activities.................................  403
 Defense Nuclear Facilities Safety Board..........................  933

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 64-414                     WASHINGTON : 2000




                         COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois        NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky             MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico               JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 RON PACKARD, California             NANCY PELOSI, California
 SONNY CALLAHAN, Alabama             PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York            NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina   JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio               ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma     JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan           ED PASTOR, Arizona
 DAN MILLER, Florida                 CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia              MICHAEL P. FORBES, New York
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi        ROBERT E. ``BUD'' CRAMER, Jr., 
 GEORGE R. NETHERCUTT, Jr.,          Alabama
Washington                           MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,          LUCILLE ROYBAL-ALLARD, California
California                           SAM FARR, California
 TODD TIAHRT, Kansas                 JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee                CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                    ALLEN BOYD, Florida              
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 VIRGIL H. GOODE, Jr., Virginia     
                   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)




 
          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2001

                              ----------                              

                                           Tuesday, March 21, 2000.

                       U.S. DEPARTMENT OF ENERGY

          ENVIRONMENTAL MANAGEMENT AND NUCLEAR WASTE DISPOSAL

                               WITNESSES

DR. CAROLYN L. HUNTOON, ASSISTANT SECRETARY FOR ENVIRONMENTAL 
    MANAGEMENT
DR. IVAN ITKIN, DIRECTOR, OFFICE OF CIVILIAN RADIOACTIVE WASTE 
    MANAGEMENT

                           Opening Statements

    Mr. Packard. Ladies and gentlemen, I will call the meeting 
to order, and this hearing is now in session. Our ranking 
minority member, Mr. Visclosky, will be here in a few minutes--
quite a few minutes, perhaps--because he is being detained. But 
we are very pleased to have Mr. Edwards with us.
    For the benefit of those that are here, we may not have a 
very large attendance of the committee members today. There are 
primaries scheduled in some States and votes are not scheduled 
until about 7:00 tonight, and so many of them will be traveling 
today. We apologize for perhaps short attendance.
    We are particularly pleased to have two people that are 
relatively new in their assignments, but I think are very well 
versed in their particular area. They are experts in the area 
of nuclear waste management and disposal. We are very pleased 
to welcome to our hearing this morning Dr. Carolyn Huntoon, the 
Assistant Secretary for Environmental Management. We will hear 
from her first, and then we will hear from Dr. Ivan Itkin, who 
is the Director of the Office of Civilian Radioactive Waste 
Management--both of them crucial assignments, major concerns 
and problems and issues that are confronting the country and 
this Congress as it relates to the management of nuclear and 
other waste material.
    And so, we particularly welcome you in your new 
assignments, relatively new, Dr. Itkin--I think just a couple 
of months--and Ms. Huntoon a little bit longer. We appreciate 
you both being here. We have had your testimony, your written 
testimony; I have read it and I think other members have. If 
you would like to summarize, we would appreciate that. But if 
you wish to do otherwise, it is your time. And so, just to 
announce that our next hearing will be next Thursday, the day 
after tomorrow, and it is a classified hearing. It will be with 
the members of the subcommittee.
    With that, Dr. Huntoon, we would be very pleased to have 
you present your oral testimony.

                     Opening Remarks of Dr. Huntoon

    Dr. Huntoon. Thank you, Mr. Chairman and members of the 
Committee. It is a pleasure to appear before you today.
    First, I would like to provide just a brief overview of our 
program scope and some accomplishments, and then I will 
summarize some of the initiatives that we have planned to 
improve the program. Since I was sworn in last July, I have 
visited most of our former nuclear weapons production sites 
that we are responsible for cleanup. There is one thing that I 
found out and that is we have a diversity in these facilities 
as well as huge amounts of waste to take care of. We have 
extensive subsurface problems that need remediation and the 
large quantities of nuclear materials left over that we have to 
store and protect.
    Mr. Packard. Could I have you speak a little bit louder, 
please?


                               BACKGROUND


    Dr. Huntoon. In the 10 years since we established EM, the 
Department has made strides in solving some of these problems. 
As a result of characterization and environmental studies begun 
in the early years of the program, we are now in a better 
position to understand the nature and the extent of the 
contamination.
    As a result, we have done some life cycle analysis, and we 
continue to improve our baselines and strategies for improving 
these costs of the program. Accelerating cleanup of Rocky Flats 
shows how we have been able to reduce the cost and schedules 
through improved project baselines, integrating waste and 
material deposition across DOE sites. We have used contractual 
incentives and we have worked closely with our stakeholders and 
the public. At Rocky Flats, the goal for closure by 2006 is 
moving from a vision into a realistic goal.
    Each year we are making progress across the country at our 
various sites. We have finished some remediation work. We have 
demolished unneeded buildings. We have treated and disposed of 
waste and moved highly radioactive, spent nuclear fuel and 
plutonium to safer locations.
    Last year, we opened the Waste Isolation Pilot Project, the 
world's first deep geologic repository for nuclear waste.To 
date, we have made 45 shipments of transuranic waste to WIPP from the 
Rocky Flats, Los Alamos, and Idaho sites. This includes the March 10th 
shipment from Rocky Flats under the new WIPP permit.
    This year, we expect to begin shipping from Hanford and 
Savannah River. In fiscal year 2001 we plan to make 485 
shipments to WIPP. At Rocky Flats last year we removed all of 
the remaining plutonium pits and highly enriched uranium. We 
demolished a former plutonium research facility, the first one 
to be demolished, and we sent 12 shipments of true waste to 
WIPP. We revised our baseline to match the 2006 completion 
goal.
    Last month we signed a contract on a performance-based 
principle to provide financial incentives to the contractor for 
completion of Rocky Flats by 2006. If the contractor makes that 
date, he makes more money. If he misses that date, he will not 
make the fee.
    We also continue to make great strides toward accelerating 
the closure of Fernald and Mound Sites in Ohio. At the Mound 
Site this year we removed the remaining nuclear materials; at 
Fernald we intend to award a new contract that will contain 
incentives for expedited closure similar to the new one that we 
have at Rocky.
    We completed our cleanup work at three more sites in fiscal 
year 1999. We will complete two more sites this year and begin 
to complete an additional three sites in 2001. This will bring 
our total completed sites to 74 leaving 39 to go.

                         FY 2001 BUDGET REQUEST

    In fiscal year 1999, we have vitrified 248 cannisters of 
high-level waste at Savannah River and West Valley and we 
expect to produce 400 more at Savannah River in 2000-2001. We 
are requesting $4.5 billion in the Defense Environment 
Restoration and Waste Management Appropriations, $1.082 billion 
in Defense facility closure projects and $515 million in the 
Defense privatization appropriations.
    In addition to the planned progress I have already 
mentioned, I will highlight a few more items of interest. At 
Richland, we plan to begin moving spent nuclear fuel from wet 
storage pools in the K-Basins near the Columbia River to dry 
storage facilities, further away from the river.
    At Savannah River, we will continue to process spent 
nuclear fuel and plutonium-bearing materials in both the F and 
H chemical processing canyons. They will convert these 
materials into safe forms for long-term storage.
    We will continue to receive shipments from foreign research 
reactors of spent nuclear fuel that contain highly enriched 
uranium, thereby reducing risk in the global proliferation of 
nuclear weapons. By the end of 2001 we will have received one-
third of the total number of planned shipments.

                    HANFORD: PRIVATIZATION APPROACH

    In August of this year, we will determine whether to 
authorize a contract to proceed with the construction of the 
privatized facility to vitrify high-level waste at Hanford, the 
Office of River Protection. Currently these wastes, 
approximately 54 million gallons, are stored in underground 
tanks not too far from the Columbia River. The tanks were 
designed for temporary, not permanent storage. Some of the 
older tanks have leaked in the past and into the ground water 
that eventually flows into the river. Our agreements with the 
State of Washington require us to begin removal and treatment 
of this waste by 2007.
    Under the privatization approach, the contract will finance 
the construction of the facility thereby assuming significant 
risk. The Department will not pay the contractor for cost or 
fee until the vitrified waste is produced according to the 
terms of the contract. The assumption of this financial risk by 
the contractor will provide more incentives for performance by 
the contractor than traditional government contracting 
approaches.
    This approach requires the Department to have sufficient 
funds to cover the cost of the project that the contractor has 
incurred in the event of termination for convenience. I assure 
you that the Department will not authorize construction of this 
facility unless we are convinced that the contractor's proposal 
meets our requirements and is in our best interest.
    We will provide a rigorous review of the contract's 
financial mechanisms, technical approach, work schedule and 
cost information. As required, we will provide Congress with a 
report of our evaluation of the contractor's proposal no less 
than 30 days prior to authorizing the contractor to proceed. If 
the contractor is authorized to proceed, our request for $450 
million in privatization budget authority will enable the 
contractor to begin long-term procurement of items, start 
construction, and provide additional designs so we will have a 
high degree of confidence in the design prior to construction 
initiation.
    At lower levels of funding, the Department would have to 
reevaluate the benefits of the privatization approach and 
probably not be able to meet the legally binding milestones.

                 BROOKHAVEN NATIONAL LABORATORY CLEANUP

    We will continue progress at our smaller sites as well. At 
Brookhaven National Laboratory we will continue to treat 
contaminated groundwater using an innovative technology that 
extracts contaminants within the groundwater wells. We are also 
doing detailed planning and beginning work to decontaminate and 
decommission the graphite research reactor at Brookhaven. The 
responsibility for funding that cleanup shifts from the Office 
of Science to us in fiscal year 2001.
    Despite our progress, a lot of work remains to be done. We 
will be able to complete our job in a reasonable amount of time 
only if we make further improvements. I am working to put in 
place programs that will be able to make these improvements.

                        MANAGEMENT IMPROVEMENTS

    First, I have reorganized our headquarters office to 
improve our focus on accomplishing work at the sites and 
improving accountability to our managers. Together with the 
Secretary's prior reorganization, which made the field managers 
at five of the largest sites report directly to me as Assistant 
Secretary for Environmental Management, the new organization 
ensures the field and headquartered managers are directly 
accountable to me for work at our sites.
    I have also created the Office of Integration and 
Disposition, which reports to me, to resolve issues that 
involve multiple sites and to integrate the operations across 
the sites.
    To reduce our cost and schedules, we also need new 
technologies. Our previous science and technology investments 
are beginning to pay off; we now have deployed over 500 new 
technologies in the field to deal with our problems across the 
complex. I plan to continue these necessary investments.
    For technical and cost reasons, many of our sites cannot be 
cleaned up to background levels. Some residual contamination 
will remain or have to be maintained for many years. I created 
an Office of Long-term Stewardship toensure that mechanisms are 
in place at these sites, such as land use restriction, physical 
barriers or monitoring equipment. This program should provide us with 
confidence for the public and our regulators that we are not just 
finishing and leaving the sites untended.
    Improved programs and project management are essential. I 
established the Office of Project Management within EM to set 
our own project management policy procedures and to conduct 
reviews of our projects.
    Finally, my philosophy is to do our work safely or not do 
it at all. The safety of our workers is our highest priority. I 
intend to ensure that all EM personnel understand and meet 
their safety and security responsibilities.

                           Concluding remarks

    In conclusion, cleaning up the legacy of environmental 
contamination from nuclear weapons production will fulfill a 
legal and moral obligation that we owe to the States and the 
communities that contributed to the national defense effort 
that won both the Second World War and the Cold War. This is an 
important part of our work, and I am enthusiastic about it. 
Thank you for your continued support.
    [The prepared statement of Dr. Huntoon follows:]
    Offset Folios 12 to 59 Insert here

<SKIP PAGES = 048>

    Mr. Packard. Thank you, Dr. Huntoon. We have had 
Congressman Visclosky arrive, and we appreciate him being here. 
Do you have any opening comments?
    Mr. Visclosky. No.
    Mr. Packard. We are also very pleased to welcome Roger 
Wicker from Mississippi.
    With that, Dr. Itkin, we will proceed with your oral 
testimony.

                      Opening Remarks of Dr. Itkin

    Dr. Itkin. Thank you, Mr. Chairman.
    Mr. Chairman and members of the committee, I am Ivan Itkin, 
Director of the Office of Civilian Radioactive Waste 
Management. I appreciate the opportunity to present our fiscal 
year 2001 budget request and to discuss our scientific and 
technical activities at the Yucca Mountain site in Nevada. With 
your permission, I will submit my written statement for the 
record.

                         FY 2001 Budget request

    Our budget request of $437.5 million supports our Nation's 
policy for the long-term management of spent nuclear fuel and 
high-level radioactive waste. We are nearing the completion of 
scientific and engineering work that will be the foundation for 
a Presidential recommendation on whether or not to proceed with 
a permanent geologic repository at Yucca Mountain. This 
decision should occur in 2001. It must be based on sound 
science and must include the documentation required by the 
Nuclear Waste Policy Act.

                               Background

    Let me restate the importance of geological disposal. It is 
the cornerstone of our national policy for radioactive waste 
management. A permanent geologic repository will address the 
management of commercial spent nuclear fuel, but it is also 
essential to achieve our nonproliferation goals, to dispose of 
materials from dismantled nuclear weapons and nuclear-powered 
naval vessels and to manage waste from the cleanup of former 
weapons production sites.
    The Civilian Radioactive Waste Management program has made 
significant accomplishments under this Administration. During 
the last five years, program scientists and engineers have been 
examining Yucca Mountain. We completed a cross-drift tunnel 
above and through the rock formation that may house a 
repository. For almost two years, scientists and engineers have 
been examining that formation. We continue to conduct the 
world's largest thermal test of a geologic formation. We 
believe that we are close to a decision on whether we can 
recommend this site for further development as a repository.

                SUMMARY OF FY 2001 APPROPRIATION REQUEST

    Let me now summarize the program's fiscal year 2001 budget 
request. Our current request is 25 percent greater than the 
fiscal year 2000 funding. We plan to devote $358.3 million, 
over 80 percent of the fiscal year 2001 budget request, to the 
Yucca Mountain Project. These funds will be principally devoted 
to completing remaining work.
    We will also address some work that was deferred because of 
past funding shortfalls.
    With the full support of the fiscal year 2001 budget, the 
program will transition from the scientific site 
characterization phase and will proceed to the license 
application phase, should the President and Congress approve 
the site.
    If a decision is made to proceed, we plan to resume 
transportation planning activities. We are requesting $3.8 
million for the Waste Acceptance, Storage, and Transportation 
Project. These planning activities are the start of a long-term 
effort to implement a national transportation program.
    The remainder of the program's request is devoted to 
supporting a quality assurance program in accordance with 
Nuclear Regulatory Commission regulations and various program 
management and integration activities.

                          PERFORMANCE MEASURES

    By fully funding the fiscal year 2001 budget request, 
Congress will enable the program to meet the most critical 
performance measure, that is, to begin waste emplacement by 
2010. This has been the Department's stated goal since 1989. We 
remain on track to meet this goal.

                           FY 2001 ACTIVITIES

    Now, let me speak briefly on how the program will apply the 
funding requested in our fiscal year 2001 request. My written 
testimony provides greater details. I would like to point out 
some of the highlights.

                             YUCCA MOUNTAIN

    In the 1998 Viability Assessment, the program identified 
the progress to date, the remaining work, and the cost for the 
remaining work.
    In fiscal year 2001, we expect to close out the remaining 
uncertainties that the assessment identified. We will address 
aspects of design and engineering work suggested by the Nuclear 
Waste Technical Review Board and build upon the quality 
assurance program to meet the expectations of the 
NuclearRegulatory Commission.
    A key task we have set for ourselves, before a 
recommendation, is the completion of the Site Recommendation 
Consideration Report. This report, with supporting documents, 
will be made available to the State of Nevada, the Nuclear 
Regulatory Commission and stakeholders to elicit their views.
    In fiscal year 2001, we will continue to support external 
oversight by the State of Nevada by again requesting the 
restoration of funding, and we will again fund payments-equal-
to-taxes as required by the Nuclear Waste Policy Act.
    We will continue to fund a cooperative agreement with the 
university and community college system of Nevada. This 
agreement provides an independently derived body of scientific 
and engineering data concerning the study of Yucca Mountain.

                           CONCLUDING REMARKS

    Mr. Chairman and members of the Committee, as I said in my 
opening remarks, we have made significant progress. We are on 
track to make a decision on site recommendation in 2001 and a 
subsequent license application in 2002, with the overall goal 
of beginning emplacement by 2010.
    When we set out to characterize the Yucca Mountain site 
through an ambitious scientific program, we knew that we would 
be faced with challenges. I believe that by the end of 2001, we 
will have met those challenges. While there will likely be 
additional issues that we will have to address if we proceed to 
licensing, the Program is well positioned to move forward.
    The funding we have requested is needed to enable us to 
complete, on schedule, the activities that are necessary for 
informed policy decisions. Now, when we are so close, we should 
not allow resource considerations to undermine the public 
confidence in our decision-making process and delay this 
program.
    I urge you to favorably consider our appropriation request. 
Thank you. I would be pleased to answer any questions that you 
may have.
    [The prepared statement of Dr. Itkin follows:]
     Offset Folios 66 to 85 Insert here

<SKIP PAGES = 020>

                           FUNDING SHORTFALLS

    Mr. Packard. Thank you very much, Dr. Itkin. We have also 
had arrive Congressman Hal Rogers from Kentucky. We welcome him 
to the committee.
    I will ask my standard question, but only after I make a 
comment or two. Our most optimistic projection for budget 
numbers for this subcommittee will probably be somewhere around 
level funding from last year. If that ultimately is the case, 
we will have no additional moneys and, thus, cannot give your 
programs the increases that you have projected and stated in 
your testimony--25 percent and about 8 percent, as I recall. If 
we are looking at relatively level funding from last year's 
bill, how will that affect your programs, and what priorities 
would have to be sacrificed from your point of view?
    Dr. Huntoon, first.
    Dr. Huntoon. Mr. Chairman, if we do not receive the 
increase that we have asked for, I think what would happen is 
that we would stretch out some projects, and ultimately, it 
would end up costing more.
    Mr. Packard. We understand that.
    Dr. Huntoon. I think we would keep as a priority the high-
risk things that we said we need to do and want to do and 
protect people in the environment. We would have to examine 
some of our approaches to some of our contracting to see if 
they are still viable depending on the funding level. I think 
the important thing is that we don't jeopardize some of the 
outyear agreements that we have made if we can keep from it by 
not starting projects when we said we were going to start them.
    So I think that would be the big thing. We would not 
recommend anything that would be high-risk involvement, but 
also understand that we would have to move schedules back.

                        IMPACT OF LEVEL FUNDING

    Mr. Packard. Dr. Itkin.
    Dr. Itkin. Let me be rather blunt. If we did not receive 
our request of $437.5 million, the overall quality of our 
science and engineering work for site recommendation would be 
jeopardized, potentially delaying site recommendation. I don't 
think we would be able to provide the quality that would be 
necessary to recommend the site to the Secretary and the 
President.
    In addition, with flat funding, we would have to delay our 
license application. That would further delay the emplacement 
of the waste. So it is very clear this is a critical year for 
this activity. These are major milestones that we have not 
faced in the past that we are coming upon. If the Congress has 
the will to provide us the resources, we can give the 
information to the Secretary and the President to make a 
decision in 2001.
    Mr. Packard. Thank you. I won't pursue it further.
    Mr. Visclosky.
    Mr. Visclosky. Mr. Chairman, I don't have any questions 
right now, but Mr. Forbes' plane was delayed, and he has a 
number of questions if I could have those submitted for the 
record.
    Mr. Packard. Of course. There will be several questions 
when we complete the hearing this morning. Several questions 
that we will submit for your response for the record. And if 
you would do that we would appreciate it.

                      CLEANUP AT PADUCAH, KENTUCKY

    Mr. Packard. Mr. Rogers. I am sure Mr. Rogers has some 
questions about Paducah.
    Mr. Rogers. I do. Thank you, Mr. Chairman.
    Good morning to you. Dr. Huntoon, you can imagine my 
concern as a Kentuckian, and I am sure you are concerned, as 
well, about the Paducah situation. I want to give you the 
opportunity to discuss in greater detail some of the budget 
proposals under your jurisdiction.
    Relating to the cleanup at Paducah, the environmental 
management account shows $78 million for activities at the 
site, which represents a $23.8 million increase from last year, 
one of the most critical areas to address this year.
    What specifically do you intend to accomplish if we are 
able to meet your request?
    Dr. Huntoon. Well, Congressman, you are quite right. I am 
concerned with the Paducah problems. I have been there several 
times in the past few months, meeting with our people and 
talking to the workers there. I believe, with the increased 
funding, we can accelerate the work that we are doing, 
particularly in subsurface water work.
    But we also, along with the supplemental request will begin 
and complete the removal of Drum Mountain, which is a big waste 
pile there, if you recall. The supplemental money will allow us 
to begin cleanup, with completion expected in 2001. After it is 
dismantled, it needs to be compacted or hauled off and disposed 
of. We have developed a scoping schedule for the barrel grounds 
that we have to get under way, so we can start assessing what 
needs to be done there. We have worked closely with the 
Department of EPA in Kentucky and the State to prioritize the 
task that we will go through in the cleanup. We are in 
agreement on that.
    We are trying to look also at the use of the personnel that 
are trained down there, that know the site and know the jobs 
that need to be done, and to make sure that we take advantage 
of the work force as they are available.

                        CLEAN-UP COST AT PADUCAH

    Mr. Rogers. Last year before the Senate subcommittee, you 
testified that the cleanup would cost about $700 million. It is 
my understanding that GAO, though, will release a report in 
April that puts the figure at more than a billion dollars.
    Which one of those figures do you agree with?
    Dr. Huntoon. I am not sure, because I haven't seen the GAO 
report, but I believe that the GAO is including the DUF-6 cost 
of processing and disposing of that. That was not included in 
the environmental management projections for like-cycle costs.
    Mr. Rogers. So you think the GAO figure of a billion 
dollars is probably pretty accurate?
    Dr. Huntoon. Well, if you include the other excess 
materials that the Office of Nuclear Energy and the Department 
are dealing with, I believe that is correct. I haven't seen the 
report.

         COST OF CLEANUP AT THE THREE GASEOUS DIFFUSION PLANTS

    Mr. Rogers. In 1998 the Department estimated the cleanup of 
the three gaseous diffusion plants--Oak Ridge, Portsmouth and 
Paducah--would total $10.7 billion.
    Has that figure changed?
    Ms. Huntoon. I think that is about right for the 
completion, out through the total completion of the sites, as 
well as the remediation work that needs to be done.

                                PADUCAH

    Mr. Rogers. Of course, the problem at Paducah is massive 
and shocking, and it seems we find out more dire things almost 
every day.
    But to give the members of the subcommittee a little bit of 
a feel for it, there is an estimated 10 billion gallons of 
polluted groundwater from site runoff at that plant. Private 
wells, residential well water is polluted. There are 65 
thousand tons of tainted scrap metal--including at Drum 
Mountain where radioactively infected containers are piled 70 
feet. There are 50,000 barrels of various wastes scattered 
throughout the complex and the landfills; and we seem to 
discover something new almost every day.

                          GROUND WATER PLUMES

    You acknowledge in your testimony the discovery of 
contaminated underground plumes of water. Underground tracts of 
water flow that extends for at least 2 miles from the Paducah 
site. Can you confirm for the committee whether or not any of 
those plumes, by the way, have reached the Ohio River?
    Dr. Huntoon. I believe that we cannot confirm that, but the 
calculations and the samples that we can take that are closest 
to the river indicate that one may have reached the river. And 
I don't have a drawing with me, but if you could see a drawing 
of where the plumes are and where the sampling wells are, you 
would understand what I mean. It is the sampling well that is 
closest to the river that indicated there was contamination 
there.
    Mr. Rogers. In the river?
    Dr. Huntoon. No, at the last sampling site.
    So the amount of distance is not that great between the 
samplings.
    Mr. Rogers. Could we say here, unscientifically, there is a 
possibility that the river is contaminated?
    Dr. Huntoon. Well, that contamination from the site has 
gone to the river and one of the plumes. You could 
unscientifically, I think, say that.
    Mr. Rogers. What I am saying is, you can unscientifically 
suppose that there is already some radioactivity that could be 
in the river already?
    Dr. Huntoon. That is right.
    Mr. Rogers. Now, what are the health implications of that?
    Dr. Huntoon. Well, I am going to make a statement, and I 
think Dr. Michaels is here, who is the person responsible for 
the health and safety and has been examining that, but the 
amount that would have gone into the river would be greatly 
diluted once it reached the river. And that is why, by sampling 
the river, you cannot detect anything in it. So from that 
viewpoint, I didn't want to say the river was contaminated, 
because you cannot detect levels in the river.
    Mr. Rogers. Could any of these plumes actually in some 
fashion go under the river or cross the river into Illinois, or 
the drinking water of Illinois?
    Dr. Huntoon. That has been proposed. I don't believe that 
has ever been proven or sampled to detect contamination, but I 
think it is one of the working hypotheses.
    Mr. Rogers. Have we sampled on the other side of the river?
    Dr. Huntoon. I believe so. But I will have to check that 
for you.
    Mr. Rogers. Does anyone here know?
    Dr. Huntoon. I will have to check that.
    Mr. Rogers. Will you let us know that?
    Dr. Huntoon. Yes.
    [The information follows:]
                       paducah groundwater plumes
    There are no groundwater wells located on the Illinois side of the 
river to monitor the groundwater plumes. DOE has not sampled the 
groundwater on the Illinois side of the river. Given the geology of the 
area, to reach the other side of the river, there would have to be 
contamination in the deep aquifer, which serves as the source of 
drinking water for the region. However, the groundwater contamination 
is restricted to the upper regional gravel aquifer. The contamination 
in the upper aquifer is restricted from migration vertically to this 
lower aquifer by a 100 foot thick layer of impermeable clay. Because of 
the wide separation between the contamination groundwater and the 
deeper aquifer, groundwater is not monitored in the deeper aquifer.
    The site has previously detected and communicated publicly the 
potential that very low levels of contamination may have reached the 
river either through surface runoff or through groundwater discharges 
to Little Bayou Creek. Water samples collected downstream from the 
discharge point of Little Bayou Creek into the Ohio River have not 
revealed contamination. In addition, data collected from a large 
monitoring well network in and around the site confirm decreasing 
contaminant levels near the river. These levels are near or below the 
drinking water standards.2

                           PADUCAH: LANDFILLS

    Mr. Rogers. Regarding excavations, your current cleanup 
plan requires that 4 of the 16 burial grounds will be excavated 
and yet there continue to be allegations of serious misuse of 
these landfills, specifically, that items stored in these areas 
were neither authorized nor suitable--most recently the 
discovery of 1,600 tons of nuclear weapons parts.
    Are you certain now of the contents in the remaining 12 
landfills?
    Dr. Huntoon. Congressman, I am not certain of them. I 
believe studies have been conducted and records are being 
examined to try to make sure that we are certain, but I can't 
tell you today that I am certain of that.
    Mr. Rogers. So there has not been a complete analysis and 
inventory?
    Dr. Huntoon. It is ongoing, but I don't know the answer to 
that.
    Mr. Rogers. I know there was one report that some of the 
Kentucky State Fish and Wildlife officials, who are in charge 
of the outdoors there, report that for many years many of their 
employees would routinely pick up gloves, goggles, coats, 
boots, whatever from the landfills that border the wildlife 
refuge, thinking they were merely surplus items that were 
tossed away, when in fact they were contaminated, just thrown 
into the dump. What kind of monitoring was there of this 
contractor that would do such a thing?
    Dr. Huntoon. Well, I can't answer that. I would say 
obviously not enough, or there was something wrong with the way 
the stuff was disposed of.
    Mr. Rogers. You can say that again. I mean, that is 
probably the understatement of the year.
    Dr. Huntoon. Yes, sir.
    Mr. Rogers. Are you checking into what was the oversight of 
the contractor here?
    Dr. Huntoon. I believe that is part of what is going on 
right now with the investigation after the discovery of the 
material in the landfills that we didn't know was there.
    Mr. Rogers. It would not take--I mean, Mr. Magoo would have 
found out that the contractor was doing crazy things there. And 
yet, this went on for years, undetected, I gather.
    Dr. Huntoon. I gather that also.
    Mr. Rogers. Is there any evidence that the Department knew 
of this some time ago?
    Dr. Huntoon. There is no evidence that I am aware of that 
the Department knew.
    Mr. Rogers. Well, have we looked into the potential impact 
on future contamination surrounding these landfills where 
things were just tossed, willy-nilly, in.
    Dr. Huntoon. I think the plan that I mentioned, that the 
State and EPA and the DOE people locally have come up with, 
does a survey of the entire site to include what we think is 
there and expect to be there; and they have made their plan 
accordingly. They are doing some other excavating, including 
other wells. I believe they are taking the full amount into 
consideration.

                   NUCLEAR WEAPON PARTS IN LANDFILLS

    Mr. Rogers. I mentioned a moment ago in a question a fact 
that maybe I should confirm with you. Is it true that you have 
discovered 1,600 tons of nuclear weapons parts in these 
landfills?
    Dr. Huntoon. Congressman, I am aware that they discovered 
nuclear weapons parts in the landfills relatively recently. I 
don't know if it was 1,600 tons. I don't doubt that might be 
the number, but I personally don't know the 1,600 ton number.

                    PADUCAH: OVERSIGHT INVESTIGATION

    Mr. Rogers. Does this pose any sort of danger?
    Dr. Huntoon. I believe it is not considered to be a danger. 
But I believe that the work was done to look into where they 
came from and for what reason they were there.
    Mr. Rogers. Have any of the investigations been referred to 
the criminal prosecutors here?
    Dr. Huntoon. Not to my knowledge. If possible, I would like 
to ask Dr. Michaels to answer your question on this.
    Mr. Packard. Would you state your name and position for the 
record?
    Dr. Michaels. Thank you, Mr. Chairman my name is Dr. David 
Michaels. I am Assistant Secretary of Energy for Environment, 
Safety, and Health.
    Mr. Packard. Any answers that you might be able to 
contribute will help.
    Dr. Michaels. It is my office that conducted the oversight 
investigation of the Paducah site, and so, in fact, I probably 
might be better able to answer some of these than Dr. Huntoon.
    We have been working closely with the criminal 
investigators who are connected with the EPA and the Justice 
Department in investigating a number of these allegations and 
concerns that have been raised at the Paducah site.
    Mr. Rogers. Any results?
    Dr. Michaels. No. We don't know if there are. We are 
assisting Justice and the EPA, but they would make decisions 
about criminal investigations, and I couldn't report on that.
    Mr. Rogers. And who is the chief investigator--not the 
criminal investigator, but the investigator for the 
Department.?
    Dr. Michaels. For our group, David Stadler, who is the 
Deputy Assistant Secretary for Oversight is responsible for 
that investigation, and Pat Worthington is the person who 
actually headed the team. They were in Paducah for 42 days with 
a staff of about 25 people. They are now actually currently in 
the Portsmouth plants in Piketon, Ohio, continuing with the 
same direction investigations.

                        Portsmouth and Oak Ridge

    Mr. Rogers. Have we discovered anything at Portsmouth or 
Oak Ridge of the magnitude of Paducah?
    Dr. Michaels. We are still in the preliminary stage. We 
certainly, I think, are uncovering some issues. The off-site 
contamination issues at Paducah are fortunately unique. We 
don't see the same thing at Portsmouth. The 2-mile plume, we 
don't see problems like that at Portsmouth, I am very pleased 
to say. We are looking very hard to determine whether or not 
there is classified burial or storage at Portsmouth. Obviously 
that is a concern to us.

                                Paducah

    Mr. Rogers. How long have the problems existed at Paducah?
    Dr. Michaels. I would say the problems have existed at 
Paducah since the beginning of the Paducah plant. They 
obviously developed over time, but in our historical 
investigation we found issues in terms of lax radiological 
control dating back to the early operations of the plant.
    The classified, I can't give you dates on the classified 
materials and when they were introduced, but it is our 
understanding that one of the plants was constructed in the 
early 1950s. There was a large work force that was involved in 
the construction of the plants; not as many people were needed 
in the operation of the plant, so the plant management looked 
for additional work. They looked for DOE work, referred to as 
``work for others,'' included direct work for the weapons 
production unit in Albuquerque; and additional activity started 
coming to the plants, which is done under the rubric of 
classified information.
    So we are just trying to get some information on that, 
including melting of metals from nuclear weapons parts. I think 
that was the beginning of some of the problems that we are 
seeing here. That was started in the 1950s.
    Mr. Rogers. And yet the Department has allowed this to take 
place, either knowingly or unknowingly, for that period of 
time. If you knew it, you are in trouble; if you didn't know 
it, we want to know why.
    Dr. Michaels. I would agree with that statement, sir, 
that--I think some of the activities were known only to the 
people who had access to classified information. Others 
certainly were known by everybody in the Department that had 
oversight for the Paducah plant.
    Mr. Rogers. These are not incidental, coincidental, small 
violations. These are gross, even a nonscientist would know 
that. I mean, Drum Mountain, 70 feet high of contaminated 
barrels of material. It wouldn't take a rocket scientist to 
know that that was not a good idea, yet the Department allowed 
it to happen. How can you explain that?
    Dr. Michaels. Sir, I would agree that, in fact, those 
should have been obvious to the Department and to its 
contractors. I think the operations of the Department of Energy 
and its predecessors, entities throughout the 1950s, 1960s and 
more recent times were filled with examples like that.
    I wish I could tell you that Paducah was a unique location 
and toxic waste was dealt with very well elsewhere, but 
obviously this committee knows well that during those years 
when it operated, and subsequently, what we now would look at 
as proper disposal of extremely dangerous waste was not being 
well managed. That is why unfortunately Dr. Huntoon's budget is 
so large. It is dealing with issues like this in facilities 
throughout the country; and Paducah is just, unfortunately, one 
of them, rather than the exception.
    Mr. Rogers. This has been going on for 38 years, I gather.
    Dr. Michaels. Approximately, yes.
    Mr. Rogers. It took a whistleblower lawsuit to bring it 
out. The Department didn't discover it, right?
    Dr. Michaels. Correct.
    Mr. Rogers. The contractor didn't report it, right?
    Dr. Michaels. Actually, some of this material was certainly 
well known. The underground plume is something that has been 
followed. We certainly are aware of it. I think some of the 
issues came out in the lawsuit, but certainly others have 
been--the Department has certainly been aware of them.
    Mr. Rogers. I am sorry.
    Dr. Michaels. Some of these issues that we are talking 
about, the underground plume, Drum Mountain, and the 
contamination, the Department is aware of them and has been 
aware of them for a long time.
    Mr. Rogers. And you were aware of Drum Mountain and did 
nothing about it?
    Dr. Michaels. It is hard not to be aware of Drum Mountain. 
I think Dr. Huntoon can probably address this more easily than 
I. There is a priority system of dealing with waste removal and 
cleanup across the complex. That wasn't given as high a 
priority as we now think it should be.

                   Paducah--Worker Health and Safety

    Mr. Rogers. Were you aware of the health problems of the 
workers at the Paducah plant over the years?
    Dr. Michaels. Personally, no. We started a formal worker 
surveillance project 2 years ago at that site to begin 
gathering information about that. That is providing us with 
some of the information we have. But my office had no knowledge 
of the worker health problems before that. It was not a plant 
that had ever been studied.
    Mr. Rogers. Well, you spent $400 million over the 
lastdecade on Paducah cleanup. We don't have much to show for it, do 
we?

                     Paducah: Cleanup Achievements

    Dr. Huntoon. Well, there has been money spent over the past 
number of years. What we do have to show for it were: the 
identification of the contaminations in the ground, the work on 
the movement of the plume, and the cleanup of some very hot 
spots and removal of waste from the site.
    The work that Dr. Michaels was referring to and I mentioned 
a little bit earlier has all been agreed upon as a schedule for 
the amount of money we had to spend on it with the State and 
the EPA; it is a tri-party agreement. So a lot of the 
prioritizations of dealing with the plumes, the underground 
plumes, as opposed to Barrel Mountain and all, were agreed-upon 
priorities with the State and EPA. So that is one reason that 
it isn't obvious sometimes why some things were taken care of 
first. But they did examine the risk and the priorities and 
came up with the work plan that we did pursue.

                          Contaminated Plumes

    Mr. Rogers. One final question, then I will yield.
    This plume of radioactive underground water that extends at 
least 2 miles from the site, are there people that live within 
that 2-mile radius of the plant, who are dependent upon 
underground water for drinking and other uses?
    Dr. Huntoon. I do not believe there are people that are 
living there. The people that have the water in that area have 
been supplied with water.
    Mr. Rogers. I mean, before you discovered the plume, were 
they using that water?
    Dr. Huntoon. I don't know the answer to that.
    Do you know the answer to that?
    I will have to find that out and provide an answer to you 
for the record.
    [The information follows:]

                           Contaminated Plume

    Yes, prior to discovering the plume, people were using 
water from that area. In July 1988, groundwater samples 
collected from eight residential wells north of the Paducah 
Gaseous Diffusion Plant indicated trichloroethylene and 
technetium contamination. Initial response actions consisted of 
providing bottled water to off-site users whose wells were 
determined to be contaminated. In July 1993, a Water Policy was 
developed to provide municipal water for 100 residences and 
businesses located around the plant boundaries within the 
designated Water Policy area. Construction of the water line 
extension was completed in August 1994. The Department 
continues to pay the water bill for affected residences and 
businesses. In July 1993 and in June 1995, the Department also 
installed groundwater pump and treatment systems to 
hydraulically contain the plumes from further migration.

    Mr. Rogers. You don't know the answer to that?
    Dr. Huntoon. I don't know, before they discovered the 
plume, if people were using water that was contaminated. I 
don't know the answer to that.
    Mr. Rogers. That would have been the first question I would 
have asked the investigators, has anybody been using this 
water?
    Dr. Michaels. I would assume that once we discovered the 
problem is when we provided free water service for all the 
public in the water-contaminated area.
    Mr. Rogers. When was that?
    Dr. Michaels. I don't know the answer to that.
    Mr. Rogers. In the last 6 months?
    Dr. Michaels. No. This plume has been followed for a number 
of years by the EPA and the State of Kentucky. And at some 
point after it was discovered, new water systems were brought 
in. I can't give you a date now of when that occurred.
    Mr. Rogers. Thank you. I will have other questions.
    Mr. Packard. We will return to some of these questions 
second round.
    We will go now to Mr. Edwards from Texas.

                             Yucca Mountain

    Mr. Edwards. Thank you, Mr. Chairman. I will try to be 
fairly brief because having a wife that was born and raised in 
Paducah, I have a personal interest, from that and from a 
policy standpoint. As we begin to make decisions about Yucca 
Mountain, it doesn't engender great confidence in the 
stewardship of the agency, through numerous administrations of 
both parties, to be a good steward of such critical material.
    I appreciate Mr. Rogers' line of questions and I will enjoy 
very much hearing the continuation of those in a minute. Dr. 
Itkin, could I ask you: We have Senate bill 1287 up this year 
that sets some requirements. I think the Department of Energy 
will make a final decision on the Yucca Mountain by December 
31st of 2001.
    Could you give me in your agency's views, any concerns if 
you have them, about this legislation? And especially in light 
of the Chairman's comment that we might not have enough money 
to fund your fully requested budget, does the combination of 
level funding plus the passage of this bill set an arbitrary 
deadline without providing the funding to make a decision, 
especially in light of what has happened in Paducah? I am not 
sure I want to force a decision if we don't make it right. We 
have got to get this right at Yucca.
    Any views on Senate bill 1287 that the members of this 
committee and the House are going to have to vote on this week 
on the floor?
    Dr. Itkin. Congressman, the Administration has addressed 
Senate Bill 1287 as it was going through the Senate. The 
President has taken a very strong position relative to certain 
provisions of the legislation. Particularly, the Administration 
is very much concerned about S.1287 interfering with EPA's 
authority to set radiation protection standards. The President 
has expressed that that particular provision is very offensive 
to him and he would veto the legislation.
    The Secretary had taken some interest in a provision of 
S.1287, the take-title provision which was originally in 
S.1287. Prior to final passage in the Senate, this provision 
was removed. The Secretary's concern, as is the Department's 
and the Administration's concern, is that because there are 
inabilities to remove fuel from existing utilities, the 
utilities are expressing some concern that relief ought to be 
provided for them.
    It looks like the relief that is presented in the contract 
is monetary relief. We are concerned,obviously, that without 
the take title provision, additional expenses from the Nuclear Waste 
Fund that were not there to begin with might be incurred.
    Consequently, because there are provisions that the 
President feels are offensive and because there are provisions 
that have been removed in the Senate, it is my belief that the 
Administration will veto this legislation.

                             Level Funding

    Mr. Edwards. Aside from the concerns you expressed, if we 
have level funding because of budget committee restraints on 
our subcommittee's budget allocation, if you don't get the 
increased funding to study Yucca Mountain that you have 
requested this year, will you be prepared to make a fully 
informed decision by December 31st--a recommendation to the 
President by December 31st of 2001?
    Dr. Itkin. I think that decision could be compromised. The 
Congress has seen fit to reduce our budget request over the 
past 3 years by some $108 million. We have tried to stay on the 
path. We tried to meet milestones. We have done it in a way to 
defer those things that were not immediately necessary. As a 
consequence, we are now in a situation where we have to deal 
with that particular deficiency.
    So if we don't get the additional money that we have asked 
for, it is clear that we will have to compromise what we 
expected to be the scientific basis of making such a 
determination. I can't tell you precisely whether that would 
prevent us from making a satisfactory determination next year, 
but it certainly does not make it any better.
    What I can tell you is that if we don't get the additional 
money we requested, and in order to make up for past 
deficiencies, we will have to defer license application. Since 
license application will determine construction authorization 
and will determine waste emplacement, we are deferring, in 
series, the additional time required to receive spent fuel. If 
we delay the date for receiving spent fuel, there is an 
additional cost. We will ultimately be paying rent to the 
utilities for occupying their sites.
    Mr. Edwards. I understand.
    Thank you, Mr. Chairman. I will defer any further questions 
for the second round.

                       Viability Assessment Costs

    Mr. Packard. Let me pursue that same line of questioning a 
little bit in my first question. In 1998, December, there was 
an assessment made as to the estimated costs of the Yucca 
Mountain site all the way through design, license, 
construction, operation, monitoring, and decommissioning and 
closing of the site. That could take several decades, and that 
was at $18.7 billion.
    Has that estimate changed since December of 1998?
    Dr. Itkin. Well, it hasn't in the sense that the $18.7 
billion does not include the licensing costs. If you were to 
add the licensing costs associated with the science and 
engineering, you can raise that number to about almost $20 
billion.
    Now, we continue to make scientific refinements in our 
program. As we make these refinements, we try to improve our 
engineering and design. A refined design will be a more 
expensive design than we had used for the Viability Assessment. 
Consequently, we suspect that there probably will be an 
increase in the life cycle costs associated with these changes 
relative to what we presented in 1998.
    I will say, though, I don't have the specific numbers now. 
The next time we issue a report on our total system life cycle 
costs, we will have a new figure. It is my sense that we will 
still have adequate money in our Nuclear Waste Fund to cover 
these additional costs.

                       Nuclear Waste Fund Balance

    Mr. Packard. That leads me to the next question as to how 
much money, funding, do we have deposited in the nuclear waste 
fund at the present time here. Do you know?
    Dr. Itkin. I think it is about $9 billion.

                          Yucca Mountain Costs

    Mr. Packard. Close to $9 billion. And how much have we 
spent so far on the repository?
    Mr. Itkin. Well, I think we spent about--roughly $4 billion 
on the repository. We have spent approximately $5.3 billion for 
the entire program, which obviously includes more than just the 
repository, because we are responsible for waste acceptance, 
transportation and storage. We have spent some $5.3 billion.

                            Outyear Funding

    Mr. Packard. There are peaks and nonpeak areas in the 
construction program. Is there a way that those can be smoothed 
over so that there are not some years where you have very high 
requirements and other years where it is not nearly so high?
    Have you evaluated if that can be balanced from one year to 
another?
    Dr. Itkin. Mr. Chairman, it is a very good question, and we 
are concerned about that issue. We understand the constraints 
imposed on the Congress and the Administration in trying to 
deal with annual budgets.
    Our office is beginning to look into what we call a modular 
design of surface and subsurface facilities, which would be a 
way of incrementally building the repository such that we would 
not have these cost spikes over a period of years. This 
probably would be a better way of approaching it considering 
the funding constraints that were imposed upon us.
    On the other hand, I must point out to the Committee that 
such a program plan will probably increase the total cost of 
the program. Modular construction will probably be more 
expensive, I don't know exactly how much, but it will be more 
expensive. We are addressing it and think it may be an 
appropriate way to design the project.
    Mr. Packard. I am sure you realize that it is difficult for 
the Congress, with a rather structured budgeting process and 
often very little opportunity to fund peak years. So if there 
are ways to mitigate that process of peak years versus nonpeak 
years, it certainly would help us in funding.
    One last question on this whole area of the repository at 
Yucca Mountain. There are milestones that are outlined in the 
process over the next several years. You have mentioneda couple 
or three of them in your oral testimony and in your written testimony 
as well.
    Would you briefly identify what you consider to be the most 
important milestones that need to be met and approximately the 
dates or the deadlines that are established in meeting those 
milestones?
    Dr. Itkin. In this particular year, the year 2000, we are 
focused on a major report which is the Site Recommendation 
Consideration Report. It is basically the technical basis from 
which we will provide the Secretary and the President 
information with which to make a decision on this issue as to 
whether to proceed or not to proceed with respect to Yucca 
Mountain.
    From that point forward, we will continue to refine the 
science. We are not going to waste any time. In other words, as 
we move along and we keep our scientists active and we keep on 
iterating and enhancing designs, we will use the Site 
Recommendation Consideration Report so that we can have a site 
recommendation that is based on the best available science.
    Mr. Packard. You consider that to be the next major 
milestone?
    Dr. Itkin. Yes.
    Mr. Packard. Beyond that, what would be the next one?
    Dr. Itkin. If the political will exists, Mr. Chairman, and 
the President and the Congress agree that Yucca Mountain goes 
forward, our next critical step is to get together a license 
application to go before the Nuclear Regulatory Commission.
    Mr. Packard. And assuming that the license application 
would be approved then, you would begin construction at what 
time?
    Dr. Itkin. We would begin construction in fiscal year 2005. 
We are trying to hold to--what I would call the most important 
milestone, which is to begin receiving spent fuel and high-
level radioactive waste in the year 2010.
    Mr. Packard. Okay. Thank you very much. Mr. Visclosky? No 
further questions? Mr. Rogers.

                           Paducah: Landfills

    Mr. Rogers. Thank you, Mr. Chairman. Let me get you back to 
Paducah. Are we certain of the contents in the remaining 12 
landfills?
    Dr. Huntoon. Congressman, I am not sure that they have 
finished that. I know that they are using surveillance, aerial 
surveillance to interpret photos to try to understand that 
better, and I can get you the status of that. I am not sure 
what it is today. I have not seen a report. I know it has not 
been completed, but I know it is an ongoing effort.
    Mr. Rogers. As I understand it, your current cleanup plan 
requires that four of the 16 burial grounds will be excavated; 
is that correct?
    Dr. Huntoon. I believe that is correct.
    Mr. Rogers. And yet there continue to be allegations of 
serious misuse of these landfills, that items were stored in 
these areas that were neither authorized nor suitable, most 
recently, as I said, the discovery of 1,600 tons of nuclear 
weapons parts.
    What are we doing to shut down the further contamination in 
these landfills?
    Dr. Huntoon. Well, none are being used today so that stops 
it from increasing. You know I believe that with the discovery 
of the--the new discovery of this classified waste and all, 
that as soon as the reports are made, I know that the group 
that looks at this, the regulators and the DOE people planning 
the work, will have to reassess the priorities and work toward 
that. They have not redone their work plan. They are still 
working on the one that you mentioned.

                        Paducah Cleanup Schedule

    Mr. Rogers. Now, you have listed an ambitious timetable for 
completing cleanup at the site, 2010. But that was done before 
you discovered these beryllium levels lately, and these stored 
nuclear weapons components. Will that change your anticipated 
schedule of cleanup?
    Dr. Huntoon. I believe that to remove the nuclear weapons 
parts that were found in the pits, in the landfills and all, 
would either extend our time or we would need more resources to 
meet the goals that we had set of 2010.
    Mr. Rogers. Oh, you are going to need more money?
    Dr. Huntoon. I do not know that for sure, but I would 
imagine. Do you know about the beryllium?
    Dr. Michaels. No.
    Dr. Huntoon. I can't answer the question on beryllium. I 
will have to get back to you on that.
    [The information follows:]
                        PADUCAH CLEANUP SCHEDULE
    The Classified Burial Ground contains a variety of hazardous 
materials, including beryllium, as well as low levels of radioactivity, 
and the final remedy must address all contaminants. Environmental 
monitoring data collected to date from surrounding locations do not 
suggest that the landfill is leaching hazardous constituents of major 
concern. Additional samples recently collected have not yet been 
validated by the analytical laboratory. The Department is reviewing all 
available information and coordinating with senior managers from the 
Environmental Protection Agency Region IV and the Commonwealth of 
Kentucky to determine the appropriate action for the Classified Burial 
Ground, with a decision expected by May 2000. The current Paducah Life 
Cycle Baseline assumes the Classified Burial Ground will be capped in 
place and monitored under the EM long-term stewardship program, at a 
cost of $2.3 million. The current estimated cost for total excavation 
of the burial ground, which would have to be done with safeguards and 
security protections, is approximately $81 million to ensure completion 
by 2010.

                     Paducah: DUF6 Nuclear Cleanup

    Mr. Rogers. An additional $17.8 million is listed for 
Paducah cleanup under the nuclear cleanup account at the Energy 
Department, triple the amount 2 years ago. I realize these 
programs are not under your immediate jurisdiction, but could 
you explain the aspects of this separate cleanup account?
    Dr. Huntoon. I cannot. It is the DUF6, I believe. Is that 
the portion?
    Mr. Rogers. The what?
    Dr. Huntoon. I think you are referring to the depleted 
uranium hexafluoride that is stored there, and I believe that 
there is work toward--the Department over in the Office of 
Nuclear Energy is working toward a proposal we will be putting 
on the street for someone to bid on a plant to process that. 
That proposal should be out maybe in the fall sometime.
    Mr. Rogers. Now, are the nuclear energy efforts duplicative 
of the other work that is going on?
    Dr. Huntoon. No. No, sir. That processing, that DUF6 is a 
separate undertaking.

                       Combining Cleanup Efforts

    Mr. Rogers. Would it make sense to combine these two 
efforts into one? One agency?
    Dr. Huntoon. Well, would it make sense? It might for 
management purposes. The reason it was being reprocessed, I 
believe, was that there could be some recycling of the 
materials that would be reprocessed out of this DUF6. I don't 
know where that stands to date, but that was the reason they 
were stored in canisters and set aside for reprocessing to try 
to reclaim some money out of that.
    Mr. Rogers. Are there discussions under way within the 
Department on merging these two different cleanup programs?
    Dr. Huntoon. I have been in none of those discussions, 
Congressman. There may have been at other levels. I am speaking 
of in the controller's office. But I have not been in those 
discussions personally.

                            Paducah's Future

    Mr. Rogers. Can we expect more news out of this Paducah 
mess?
    Dr. Huntoon. I certainly hope not.
    Mr. Rogers. I do, too.
    Dr. Huntoon. I did not expect, as I know you did not, the 
news that we got this past year. I know there is increased 
attention to it. I know that we have recently hired a new 
manager at Paducah that took over the 1st of March. I know 
there is a lot of oversight now, and I am hoping there are no 
more surprises. I don't know if Dr. Michaels wants to comment 
on surprises at Paducah or not.
    Dr. Michaels. Let me just add that while our oversight 
investigations have been completed, and we have published two 
reports, we continue a number of additional investigations. One 
is dose reconstruction so we can begin to determine how much 
exposure different workers had in the past and we also have 
what we call the mass flow project, which looks at the flow of 
uranium and contaminants throughout the complex, and that is 
focusing very much on Paducah and the other gaseous diffusion 
plants. We still are continuing to look at Paducah and so as we 
gather information, we certainly will be getting it to you 
promptly.

                       PADUCAH RADIOACTIVE PLUME

    Mr. Rogers. This radioactive plume that we have talked 
about, how fast is that plume expanding?
    Dr. Huntoon. The data that we have on the plumes, and there 
are actually three different plumes, indicate that they are not 
moving at a rapid rate. They do need to be dealt with. We are 
undertaking, as I am sure you know, a lot of remedial action 
with those plumes as far as pumping and treating and looking at 
some new technology that has not been used before at any of our 
sites. We are trying it down there to try to stop these plumes.
    We had a special workforce go in, experts from across the 
sites and look at all the data from Paducah subsurface 
information we had. They recommend several avenues to pursue to 
try to stop these plumes and get rid of them. One of the 
recommendations, of course, is to get at the source of one of 
the plumes that we have, and we are working toward accelerating 
the implementation of that recommendation to try to eliminate 
the source of the problem.
    Mr. Rogers. So the source of one of the plumes at least has 
not been removed yet?
    Dr. Huntoon. Well, it is in the ground. The source is in 
the ground, but it was under a facility that was used for 
cleaning parts, and had a lot of trichloroethane. That was in 
the ground and that is causing one of the biggest plumes. It is 
my understanding that the source is under a building. They may 
have to go in under the building to get that source out. But it 
leaked into the ground over many, many years of cleaning parts 
in that facility. That one source is not radioactive, but it is 
a chemical we need to get out of the ground.
    Mr. Rogers. Well, is the plume--there are three plumes you 
say. Are they all radioactive type plumes?
    Dr. Huntoon. There are radioactive parts in each of the 
plumes, but the biggest--the one that has the trichloroethane 
is not radioactive. It is a major portion of one of the plumes.
    Mr. Rogers. Is that a carcinogen?
    Dr. Huntoon. I believe so.
    Dr. Michaels. Yes, it is considered a carcinogen based on 
animal studies. We certainly treat it as that.

                        Worker Health and Safety

    Mr. Rogers. You are aware of the elevated levels of cancer 
in the workers at the plant and other abnormal health 
conditions that have existed for some time, are you not?
    Dr. Michaels. I certainly am familiar with the reports of 
leukemia clusters. It has never formally been studied by the 
Centers for Disease Control, but we certainly have been 
following the reports.

                      Paducah: Contaminated Plumes

    Mr. Rogers. Well, how soon can we get at the sources of 
these plumes and get them shut down?
    Dr. Huntoon. That is one of the things that this group is 
prioritizing and looking at the data at Paducah, the group from 
Kentucky EPA and DOE. And of course we balance their priorities 
against the resources that are available.
    But it will take several years to deal with these plumes. 
These are not fast things. We have plumes, Congressman, all 
over the complex. Some of them are worse than these plumes and 
some of them we do not have the capability of treating yet. The 
ground under each one of our sites is different. The zones, the 
vadose zone they refer to, is under the subsurface water.
    So we have put a group in place at the INEEL laboratory 
that is focusing on our subsurface problems across the complex 
and trying to make sure that we use the resources and the 
technology at one place that is applicable to other sites to 
make sure that we study those and use them.
    We have models of all of these plumes and that is how we 
are projecting where they are going to be moving and which ones 
need to be treated first, et cetera. So there is quite a bit of 
investment and undertaking going on in groundwater for all of 
the environmental management projects. But they are not simple 
and there is no one solution to them.

                           Paducah Contractor

    Mr. Rogers. Now, is the same contractor that has been there 
all the while still there operating the plant?
    Dr. Huntoon. No. No.
    Mr. Rogers. So, the contractor who assumedly was there when 
these problems took place no longer operates the plant?
    Dr. Huntoon. That is correct.
    Mr. Rogers. And what will happen to those people?
    Dr. Huntoon. The contractor that was operating the plant?
    Mr. Rogers. Yes.
    Dr. Huntoon. Well, I assume that after the Justice 
Department does their investigation, then if there is anything 
to be done, we will find out at that time.
    Mr. Rogers. Did they tell you why they were doing this when 
you discovered it? Did you ask them what happened? Why did you 
not know that you were so openly violating nature, not to 
mention U.S. regulations?
    Dr. Huntoon. I did not talk to any of them. I did talk to 
some of the workers when I was down there, and I found this out 
at other sites around the complex too, which in the year 2000 
is a little bit astonishing, but when a lot of these things 
were buried and when a lot of the contaminants were allowed to 
get into the ground, people did not realize what they were 
doing. I am not speaking now for the entire 50 years of this 
undertaking, but every one of our sites, as I mentioned, Los 
Alamos is terribly contaminated in the ground because some of 
the brightest minds in the world that put the bomb together 
went out and put stuff in the ground and left it.
    It is that way all across the complex. So that does not 
account for recent years after laws were in place and questions 
were asked, but in the early years, people did things and these 
workers down at Paducah told me: They should ask me where the 
stuff is buried, because I buried it there. They told me to get 
rid of it, and I went and buried it in the ground. We can look 
back at it and know that it is wrong now. At that time I don't 
think people thought they were doing things that were wrong.
    Mr. Rogers. Well, we have got a hellacious situation, and 
we are looking to you to fix it up.
    Dr. Huntoon. We are going to try.
    Mr. Rogers. Thank you. Thank you, Mr. Chairman.
    Mr. Packard. Thank you, ``Mr. Kentucky.'' I appreciate very 
much your personal interest in this. It is a very serious 
problem.
    Mr. Edwards?

                   Paducah: Management and Oversight

    Mr. Edwards. Thank you, Mr. Chairman. Dr. Huntoon, I know 
this Committee and other Committees in Congress and the House 
and Senate will be studying this issue for a long time with a 
lot of detailed questions. Let me just ask, I was just 
flabbergasted at the inability of the management and oversight 
process to pick up these problems over numerous administrations 
and several decades. Based on what you know today, what was 
wrong with our management and oversight process so that this 
does not happen time and time again in the future? How could 
this level of problem occur in Paducah without the Department 
of Energy that the American people have faith in for our 
stewardship or give you our trust for stewardship over our 
safety and our family's safety? How could the process of 
oversight have been so poor that this magnitude of problem 
could have occurred without us knowing about it?
    Dr. Huntoon. Well, Congressman, I mentioned a while ago, 
when the problems that we found at Paducah, and as Dr. Michaels 
mentioned, we think that some of them had their initiation back 
in the `50s when the plant was first built. And just as I 
mentioned the problems that we have at Oak Ridge, at Los 
Alamos, at Portsmouth, Savannah River, Idaho, we have these 
programs all over the complex because people did not realize in 
the beginning that when they put things in the ground or let 
things leak that it was a big problem, that it was wrong, that 
it would contaminate, that we did not know how to deal with the 
contamination. And as you know, we can't get rid of the 
radioactivity without removing it.
    Mr. Packard. Will the gentleman yield?
    Mr. Edwards. Certainly, Mr. Chairman.

                    Contamination Across the Complex

    Mr. Packard. You have really tweaked my concerns. You have 
indicated and this is the second time that you have confirmed, 
that it is all over the complex. Are we going to have a Paducah 
in Los Alamos? Are we going to have another Paducah in Idaho? 
Are we just seeing the beginning of these horrendous Paducah 
problems?
    Dr. Huntoon. Mr. Chairman, the problems at Paducah are 
horrendous, and what I was trying to indicate is that the 
problems at Paducah have been illuminated, have been 
investigated, and we have put a lot of focus on that, the media 
and oversight as well as the Department.
    I would not say that we are going to find Paducahs every 
place. The extent of that is certainly shocking. But we do have 
contamination in the ground, in the groundwater, in the 
subsurface water and we have large pits out in Idaho that we 
have been putting--acres of pits that we have been putting 
contaminated materials in for years. We have both Oak Ridge and 
Los Alamos that have tremendously contaminated ground areas and 
groundwater and burial grounds and so on. We are working on 
those. We think we have identified them all. We are working at 
cleaning them up and making them stable and dealing with the 
groundwater problems. But I was told that we have 1.7 trillion 
gallons of contaminated groundwater in the United States 
because of radioactivity in the ground that has seeped from 
either leakage or was placed there as part of a dump process.
    So it is there. I don't know that we have identified all of 
it, and if I told you I did, you would find out something new 
tomorrow perhaps. But we have been looking. We have regulators 
at each our sites with our DOE people. We are examining the 
findings and continue to try to make sure that we, when we find 
a new discovery at one of the sites, we go to the other sites 
and look to make sure that the same thing didn't occur.

                   Paducah: Management and Oversight

    But in answer to Congressman Edwards' question about how 
could this have happened, I think you have to go back in time 
as to how the organization was at that time. So many of these 
places were under Defense Department, military secure work. The 
attention was not paid to cleaning up anything or to worrying 
about the contamination.
    The environmental management organization was formed 10 
years ago. Actually we just celebrated our 10th anniversary and 
that was the first time in the Department that all of the areas 
were put together and tried to catalog exactly where we were: 
with our contamination, with our problems, with our wastes we 
needed to deal with, with excess materials and with the 
buildings that we needed to deactivate and decommission.
    So we are trying to deal with this issue. We are trying to 
identify them. I believe we are doing a pretty good job. I am 
not going to say that we are not going to be surprised again, 
but we have made an effort not to be.
    Mr. Edwards. I appreciate the Chairman's question. I guess 
after 10 years of having an environmental management office, 
the question that is begged again is why did it take, as Mr. 
Rogers said, a whistleblower to bring to the attention of the 
agency and the country the kind of gross abuses? I hope some 
people spend the rest of their lives in prison because of this. 
For the future protection of families in this country, I hope 
we can figure out what is wrong with the process. I grant, say 
prior to 10 years ago, maybe we did not have an environmental 
management office at DOE. But for10 years we have, and yet 
despite that it took a whistleblower to really bring this to the 
attention of the agency and the country. And I am concerned about that.

          NUCLEAR NONPROLIFERATION IN THE FORMER SOVIET UNION

    Just quickly if I could, Dr. Huntoon, let me shift gears 
briefly and ask you if you could summarize for the subcommittee 
just in general terms where are we in terms of nuclear 
nonproliferation efforts in the former Soviet Union? If we have 
problems like this in Paducah, it scares me to think what 
problems we might have in the former Soviet states, and I know 
your department has responsibility in trying to assist in that 
effort. Where are we in summary terms?
    Dr. Huntoon. As far as the environmental areas in the 
former Soviet Union, I believe that----
    Mr. Edwards. I was thinking more in terms of helping them 
control any nuclear grade material so it does not get out into 
the hands of terrorists around the world.
    Dr. Huntoon. Actually, Congressman, I am not the person 
involved in that. That would be another group.
    Mr. Edwards. Okay. Let me defer that for the appropriate 
people. Thank you.
    Mr. Chairman, thank you very much.

                   RECOMPETITION OF THE M&O CONTRACT

    Mr. Packard. Thank you. We would normally go to you, Mr. 
Latham. We will give you a little bit more time. Let me proceed 
with a couple of questions that I have and, again, this hearing 
is interesting because it is taking on kind of two different 
tracks which I really appreciate. I am going to come back to 
you, Dr. Itkin, on the Yucca Mountain issue. That, of course, 
is a very important matter to us.
    We have had contracts with different private sector 
companies. And now it is proposed that we recompete those 
contracts. Will that recompetition process delay us in meeting 
our deadlines? Will it increase the cost? Would you review the 
status of that recompetition process?
    Dr. Itkin. Following Congress and the Administration's 
desire to provide for regular recompetition, we have a 
contractor, an M&O, whose contract is expiring after 10 years. 
We looked it over in terms of whether we were going to 
recompete the contract although it has been 10 years, and it is 
appropriate to allow others to consider following on.
    There is no bias against the current contractor, but it was 
appropriate to do that. We had extensive discussions with the 
current contractor and other team participants to make sure 
that during this period of recompetition, major milestones 
would not be jeopardized. They would maintain focus on the 
issues that we would consider this a milestone year and we had 
assurances from the prime contractor that he would not allow 
performance to become a problem.
    We are attempting to deal with the transition period. The 
current contractor's contract will expire in February 2001. We 
hope to have at least by November the new contractor or the 
existing one. If there is a new contractor, we hope to have 
them work in tandem with the old contractor for a minimum of 3 
months, maybe even longer than that. We have asked the Congress 
for $13.7 million for this transition period in order to ensure 
that we will not have any significant delay.
    Mr. Packard. So you feel that you will be able to meet the 
milestones, the programmatic milestones in this process?
    Dr. Itkin. That is correct. We do not see this as being a 
problem in addressing all of the concerns that we have now.

                           OVERSIGHT FUNDING

    Mr. Packard. The State and local governing agencies have, 
in the past, been receiving monitoring monies. I believe that 
it is essential that the citizens of Nevada have adequate funds 
for oversight purposes of the Yucca Mountain project. But there 
have been examples of abuse of the use of those monies. What 
has been done to correct that?
    Dr. Itkin. I am glad you asked that question. We agree with 
your position that the State of Nevada and the affected units 
of local government should receive financial resources to be 
able to follow us and look over our shoulder.
    We have communicated to them what is available for them to 
spend and what is an appropriate expenditure on their part. We 
require them to submit program plans for their use of the 
funds. We review those program plans, and we then communicate 
with them what we believe can be covered and what is an 
appropriate expenditure.
    We then have an independent auditing firm audit what they 
have spent to make sure it conforms with current law.
    We require the recipients to sign a certification that to 
the best of their knowledge they have carried out the 
expenditures according to law.

                NUCLEAR WASTE AND DEFENSE CONTRIBUTIONS

    Mr. Packard. For your information, I have personally met 
with the governor of Nevada, and he has given us assurances 
that those abuses will not be repeated.
    The defense contribution to the Nuclear Waste Fund is 
significantly behind schedule. And the budget request does not 
adequately pay off the outstanding balance. What funding level 
would be necessary for the defense nuclear waste fund 
appropriations to reduce that outstanding balance to zero?
    Dr. Itkin. Well, let me try to put it in a proper 
perspective. Right now the defense part of the program should 
account for about 25 percent of the total needs. That means in 
total about $11 billion over the extent of the program.
    So far, as of this year, the defense appropriation is about 
$1.5 billion behind in what is due. We will not accept DOE 
waste or spent fuel from the Naval Reactors Program until we 
are paid in full. I told Admiral Bowman and others that they 
are seriously in arrears.
    Mr. Packard. What was their response?
    Dr. Itkin. The Admiral said that he would do what he could 
to try to see that that was attended to. He recognized the 
problems with the program.
    Mr. Packard. Is that included in the DOD's budget request?
    Dr. Itkin. Right now, this year, the Defense Nuclear Waste 
Disposal appropriation is at $112 million, which, if we get the 
contribution from the Nuclear Waste Fund, will meet our needs. 
But, ultimately, the Defense Nuclear Waste Disposal 
appropriation will have to be increased if they are to pay what 
is due to the program before we will accept DOE waste. The 
longer that goes unpaid, it makes it more difficult to come up 
with theadditional resources in the lesser years.
    Mr. Packard. Okay. Thank you.
    Mr. Visclosky?

             DEFENSE CONTRIBUTION TO THE NUCLEAR WASTE FUND

    Mr. Visclosky. Dr. Itkin, you mentioned in your last answer 
that the Department of Defense was behind by $1.5 billion. How 
much of the $11 billion have they actually paid?
    Dr. Itkin. So far in total, the defense appropriation fees 
amount to $1.1 billion.
    Mr. Visclosky. So they are $9.8 billion down? When was the 
$11 billion to have been paid? By the completion of the 
project?
    Dr. Itkin. By the completion of the project.

                           RUSSIAN FEDERATION

    Mr. Visclosky. On the waste management program with the 
Russian Federation, the administration has a number of new 
initiatives. I count at least nine budgetary items amounting to 
$100 million. How much of that is within your office's 
jurisdiction?
    Dr. Itkin. We are cooperating on this program with others 
in the Department. We are not funding the Russian program. The 
Nuclear Waste Fund is very restrictive with regard to where we 
can spend the money. It was not designed for international 
programs. But, we have a certain expertise that we are 
developing to deal with the issue of nonproliferation, so we 
are working jointly with the National Nuclear Security 
Administration to work and try to find a way of dealing with 
Russian spent nuclear fuel and defense weapons-grade materials 
that may be excessive and need to be handled appropriately.
    The Department has requested approximately $5 million to 
work on geologic repository research as a potential mechanism 
for dealing with nonproliferation. And are working now with 
MINATOM, and the Russian government in order to participate in 
their activities associated with management of their spent 
fuel. We are, obviously, the leader in geologic disposal of 
waste, and we wish to provide our knowledge and expertise to 
other nations, because obviously this is an important global 
consideration.
    Mr. Visclosky. Your testimony mentions that you will 
comanage the initiative. Will your management costs be part of 
the $5 million, or is that a separate item in your budget?
    Dr. Itkin. Or, as I know, almost all of it will come out of 
the $5 million. We have put in approximately $600,000 for our 
international efforts that will come out of our budget.
    Mr. Visclosky. So it would be a total of $5.6 million?
    Dr. Itkin. The $600,000 is not part of that $5 million. We 
are working with other nations that have generated spent fuel. 
In countries in the Pacific Rim and Europe, for example, there 
is an international effort to deal with spent nuclear fuel and 
we are working with them. To the extent that we have 
cooperative programs, that is where the $600,000 is to be 
applied. It is not necessarily directed exclusively to the 
Russian initiative.
    Mr. Visclosky. How much of the $600,000 is going to be 
directed to the Russian initiative?
    Dr. Itkin. My Deputy says it is less than 10 percent, a 
very small amount.
    Mr. Visclosky. Which would be $500,000?
    Dr. Itkin. Of the $600,000, maybe $60,000. Basically for 
sending our lead people on this activity abroad to Russia and 
to work with the Russian Federation in dealing with that 
problem.

                              COMANAGEMENT

    Mr. Visclosky. And in your testimony, again, you mention 
that the program will be comanaged along with the Office of 
Nonproliferation and National Security. How will the 
comanagement work so that we do not have any duplicative 
efforts and cost duplications? Who is going to specifically do 
what parts with the $5 million bucks?
    Mr. Packard. Please state your name.
    Mr. Barrett. I am Lake Barrett, I am the Deputy Director of 
the Office of Civilian Radioactive Waste Management. To 
specifically answer that question, what we would do, working in 
concert with the NNSA, Sandy Spector and the nonproliferation 
people, we would work that together. It would be their funds. 
We would be responsible for management of our laboratory 
scientists who will be interacting with the Russian National 
Academy, as well as with MINATOM on specific scientific work. 
We would manage and be accountable for how the NN funds were 
spent. An example would be radionuclide transport. They have 
done work at Grasnyorsk 26 where they put a lot of heat into 
mountains. We would calibrate our models with them. We have 
proposals from the Russians that we are looking at. As I noted, 
we would be responsible for the management of those mutually 
advantageous scientific work on geologic repository here or in 
Russia.
    Mr. Visclosky. In the budget submission, and I have the 
yellow book here, the first item was $38 million to prevent the 
further accumulation of separated civilian plutonium. Is that 
the program that we are talking about here? Where would your $5 
million---- Mr. Barrett. In the $100 million initiative of the 
Administration, all of which is found in the NN budget request, 
there was a $5 million line item that is for spent fuel and 
nuclear waste collaboration. It is the $5 million amount we are 
referring to.
    Mr. Visclosky. Okay. Got you. Just wanted to make sure I 
knew where it was. So we are talking about $5 million plus 
$60,000 over and above the $5 million?
    Mr. Barrett. We are developing the framework to manage this 
work. We are developing a bilateral agreement with the Russian 
Federation. We have bilateral agreements with eight other 
countries: Japan, England, Switzerland, Sweden, and other 
countries that work in high level waste management, and we are 
now developing such a bilateral agreement with Russia. We are 
in the final negotiation process and hope that will be done 
this summer. We are also working with the American National 
Academy of Sciences and the Russian National Academy of 
Sciences for joint scientific programs that would be mutually 
beneficial and that would further the world's nonproliferation 
efforts for the ultimate disposition of weapons-type materials.

                           RUSSIAN INSTITUTES

    Mr. Visclosky. You mentioned the Russian Academy. Any other 
institutes in Russia that will be participating in the program?
    Mr. Barrett. The Russian National Academy and some of the 
Russian institutes similar to our American laboratories, a lot 
of those independent institutes are involved. It is the 
consortium of some of the best and brightest in some of the 
Russian institutes and some of the closed cities.
    Mr. Visclosky. If you could, for the record, enumerate 
those, that would be great.
    Mr. Barrett. Yes, I would be pleased to.
    [The information follows:]

                           Russian Institutes

    The specific institutes in Russia to be involved have not 
yet been identified; however, it is anticipated that Minatom 
and the Russian Academy of Sciences will be involved. 
Discussions have been held with representatives from the 
following organizations: VNIPIpromtechnologii; V.G. Khlopin 
Radium Institute; the Nuclear Safety Institute; and the 
Institute of Geological Sciences. Although these organizations 
may be involved in collaborative work, no decisions have been 
made on the specific work or the organizations to be involved.

    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Packard. Thank you. We are pleased that Mr. Latham from 
Iowa has joined us.

                    INSPECTOR GENERAL RECOMMENDATION

    Mr. Latham. Thank you, Mr. Chairman. And welcome. Last year 
I asked about the Inspector General's report published in 
September of 1998 that recommended that the DOE improve its 
management of low-level and low-level mixed radioactive waste 
disposal. What specific steps have you taken to implement the 
recommendations of the Inspector General?
    Dr. Huntoon. Congressman, we have released I think about a 
month ago a record of decision for the disposition of the mixed 
low level and low level waste. This was done after much 
discussion, taking into account some of the criticism on the 
measurement, and also letting the various states have an 
opportunity to comment on it. We did issue the record of 
decision, and are working toward the Inspector General's 
recommendation right now.
    Mr. Latham. Well, specifically, the report recommended that 
a cost-benefit analysis be completed before constructing any 
additional on-site disposal facilities, and I understand that 
you recently decided to build a new on-site disposal cell at 
Oak Ridge, Tennessee. Did you follow the recommendations of the 
Inspector General and complete a cost-benefit analysis, 
including any evaluation of using existing offsite commercial 
disposal facilities before deciding to build the new facility?
    Dr. Huntoon. Yes, sir, the cost analysis was done, and the 
benefit of not having to transport the waste was taken into 
account. That is one reason we made the decision to build this 
cell on site.
    Mr. Latham. Could you provide us with that?
    Dr. Huntoon. Yes.
    [The information follows:]
    Offset Folios 141 to 146 Insert here

<SKIP PAGES = 006>

    Mr. Latham. Okay. I mean, because you did it, it may not 
show that it actually had a cost benefit.
    Dr. Huntoon. I understand, we will provide it.

                             ONSITE STORAGE

    Mr. Latham. I think everyone is aware that a lot of 
utilities are running out of on-site storage space for spent 
fuel rods and other wastes. What is the situation? I mean, how 
much are they scrambling to find space, and what is the cost?
    Dr. Itkin. Well, we do not know what the cost is going to 
be. We have contracts with the utilities to take their spent 
fuel. In January of 1998, we were unable to accept their spent 
fuel because we did not have a place to store the fuel. There 
are apparent remedies, however, in the contract. Discussions 
are ongoing between the Department's contracting officer and 
some utilities to deal with how we are going to accommodate 
this delay.
    We believe that there will probably be some financial 
relief provided to the utilities, but I cannot tell you at this 
time, Congressman, how much that is going to be.
    Mr. Latham. And that would come from the Department?
    Dr. Itkin. We do not know if that money will come out of 
the judgment fund or whether it will come out of the Nuclear 
Waste Fund. That is something that the Department's General 
Counsel is wrestling with right now.
    Mr. Latham. When would you expect any kind of a decision?
    Dr. Itkin. One moment, please. I am advised by those who 
have had more tenure and experience in this position that it is 
a long process, and I should not speculate on when we might 
expect a resolution.

                         PRIVATIZATION CONTRACT

    Mr. Latham. Obviously, you are just a kid around there.
    On behalf of my colleague, Mr. Nethercutt, this year the 
Department has requested $450 million out of the privatization 
account to Office of River Protection at the Hanford site to 
move forward with construction of verification facilities 
pending the approval of a contract with BNFL. Will you be able 
to meet the requirements of the triparty agreement with the 
$450 million request? And also, are you aware of the scoring 
disparity between the OMB and CBO on this account?
    Dr. Huntoon. Yes, sir, the first question, will the $450 
million allow us to meet our triparty agreement milestones, and 
the answer is yes. If the contractor does come in with a 
proposal that is due in April that we can accept, then we will 
negotiate and get it signed. Right now, August is the date for 
that.
    And that is the schedule we are moving on. So the answer is 
yes, if the proposal is an acceptable proposal.

                          SCORING DIFFERENCES

    Mr. Latham. How about the scoring differences?
    Dr. Huntoon. The scoring differences that I am also aware 
of, I know that our CFO has been talking with the Congressional 
Budget Office on the scoring. As you know, the OMB scored it 
one way and the CBO scored it more as a lease agreement, I 
believe. And so we are trying to talk through that with both 
parties, and I think there are meetings that have already 
occurred, and there will be more that will occur to try to 
resolve the difference in scoring.
    Mr. Latham. What is the difference? Why are they scored 
differently?
    Dr. Huntoon. It has to do with the assumption on what kind 
of contract it is. The fact that it is a privatization 
contract, the contractor will own the facility and own the 
process. DOE does not pay them until they deliver a product and 
we will not take the facility over at any time. They are going 
to operate it so the OMB scored it in that light. I believe the 
CBO scored it more toward a lease agreement.
    Mr. Latham. Which do you agree with?
    Dr. Huntoon. Well, for the reasonableness of dealing with 
this situation in our financial concerns, to score it as OMB 
did would help us out because with the CBO scoring, it is going 
to increase the amount of budget outlays several hundred 
thousand dollars in the next few years, which we did not plan 
on in the budget.
    Mr. Latham. Okay. Thank you, Mr. Chairman.
    Mr. Packard. Thank you. Mr. Visclosky.
    Mr. Visclosky. I am fine, Mr. Chairman.

                           CONTRACTOR TRAVEL

    Mr. Packard. There are many questions that we still have. 
Most of them we will probably submit to you for you and your 
staff to respond to for the record. We had a major concern 
about excessive travel by contractors last year, and we put 
some language in the bill that actually cut the budget 
significantly in that area. Would you respond perhaps, for the 
record, how much has been spent for contractor travel in each 
of your areas for the last 3 years, or actually for the 1999-
2000, and for what you are projecting for the 2001 budget year.
    But let me ask you, have you seen a decrease in that area? 
Have you made progress in tidying it up and making certain that 
it has been professional and that is absolutely required? Are 
you using other methods of communicating without having to 
travel?
    Dr. Huntoon. In the environmental management area, we have 
been. We continue to use more video conferencing. There is an 
increase in it and it is working quite effectively for quite a 
few meetings.
    I think in every area except for one of our sites, the 
reduction in the contractor travel has been integrated into the 
plans. We are managing within that and there does not appear to 
be a problem. Savannah River is different. They have appealed 
to us for some help, and we are looking at that because they 
have a program that they are doing with the nonproliferation 
organization on work in Russia and their contractor has the 
increased expense of foreign travel in that program. So we are 
looking to try to see if there is some relief there. But the 
other sites are able to manage with reductions.
    [The information follows:]

                           Contractor Travel

    In keeping with the guidance in the FY 2000 Energy and 
Water Development conference report, Environmental Management 
spending for contractor travel is declining between FY 1999 and 
FY 2001. FY 1999 actual spending totaled approximately $30.3 
million, end-of-year FY 2000 spending is projected to total 
$25.8 million, and FY 2001 spending is estimated to be $24.5 
million.

                              TRAVEL COSTS

    Mr. Packard. Thank you. Dr. Itkin, with this new initiative 
for Russia, will that increase your travel costs? Are you able 
to live within or have you been able to conform to what the 
committee requested last year?
    Dr. Itkin. I don't think that the international initiative 
will have much impact on our travel costs. Our travel costs, I 
think, are quite reasonable. We use video conferencing as a 
means of keeping abreast with the Yucca Mountain site. We use 
that extensively. In so doing, the amount of travel is limited. 
It is also more convenient to do video conferencing.
    [The information follows:]

                           Contractor Travel

    TRW, Inc., is the management and operating (M&O) contractor 
for our Program. TRW has reported actual expenditures of 
$784,000 for travel in FY 1999. The travel ceilings for FY 2000 
and FY 2001 are $983,000. As of February 28, 2000, actual costs 
for TRW were $246,000. TRW employees made 103 trips to the 
Washington, D.C., area in FY 1999. As of the end of February, 
2000, they had made 57 trips. We expect a slightly higher total 
by the end of FY 2000 as a result of moving the M&O finance 
organization from Vienna to Las Vegas.

                             PRIVATIZATION

    Mr. Packard. I appreciate your efforts in that area.
    Dr. Huntoon, is there a lessening of commitment to 
privatization than there was in years previous?
    Dr. Huntoon. No, sir, I do not believe there is. We did not 
bring forward any new privatization projects this yearbecause 
of our funding challenges and as well as there were not any on the 
horizon that fit in the privatization category. I think that we have to 
be very careful that we do not privatize something that has a lot of 
unknowns, R&D risk there that would get us into a bad situation by 
trying to do a fixed price contract--if we could find one that would 
accept risk to the magnitude that would be necessary when there were a 
lot of unknowns. So we keep looking for those opportunities when we 
have something very well defined that we could put into the 
privatization category, and we will be continuing that because that is 
an avenue that we can use. But I think it is very specific.
    Mr. Packard. Well, I have one or two questions that I will 
ask you to submit for the record on Moab, Utah, several on 
Idaho, and several on Hanford, rather than taking time in the 
hearing, and some other areas, too, such as Oak Ridge and a 
variety of other places. There are many, many questions, but 
rather than prolong the hearing, I think I will ask you to 
respond to them for the record.
    Do you have further questions? Well, let's conclude then 
with that, and I want to thank you very much for your 
testimony, for the answers you have given us, and we will 
adjourn this hearing. Thank you.
    [The questions and answers for the record follow:]
    Offset Folios 155 to 446 Insert here

<SKIP PAGES = 292>

                                          Thursday, March 23, 2000.

                       U.S. DEPARTMENT OF ENERGY

                    ATOMIC ENERGY DEFENSE ACTIVITIES

                               WITNESSES

BRIGADIER GENERAL THOMAS F. GIOCONDA, USAF, ACTING DEPUTY ADMINISTRATOR 
    FOR DEFENSE PROGRAMS, NATIONAL NUCLEAR SECURITY ADMINISTRATION
ROSE GOTTEMOELLER, DEPUTY ADMINISTRATOR FOR DEFENSE NUCLEAR 
    NONPROLIFERATION (ACTING), NATIONAL NUCLEAR SECURITY ADMINISTRATION
EUGENE E. HABIGER, GENERAL, USAF (RETIRED), DIRECTOR, OFFICE OF 
    SECURITY AND EMERGENCY OPERATION, U.S. DEPARTMENT OF ENERGY

                           Opening Statement

    Mr. Packard. Ladies and gentlemen, we would like to call 
this hearing to order.
    I appreciate Mr. Visclosky being here, and Mr. Knollenberg; 
and there will be others. If there is anyone here who does not 
have a Department of Energy Q clearance, obviously we would 
like to have you leave. This is a closed hearing so that we can 
discuss defense issues that are classified.
    General, if you would verify that the personnel are 
approved to be here with you?
    General Gioconda. Yes, sir, I looked around the room.
    Mr. Packard. Obviously, for members of the committee and 
any staff who are here, we need to remind you that there will 
be classified information discussed in this hearing, and 
therefore, it should not be discussed outside of this room.
    We would appreciate compliance with all of the classified 
requirements of this hearing.
    We are very, very pleased to have with us General Thomas 
Gioconda, who is the acting Deputy Administrator for the 
Defense Programs, as one of our lead-off witnesses this 
morning. We are very pleased to see a familiar face, Rose 
Gottemoeller, acting Deputy Administrator for the Defense 
Nuclear Nonproliferation program, and General Eugene Habiger, 
who is the Director of Security and Emergency Operations.
    Each of you, of course, has had a very interesting year in 
making some changes in the way that we operate at our defense 
labs and our weapons labs and our security systems, and we are 
very interested in hearing your testimony.
    I have read your written testimony; it will be, of course, 
submitted for the record intact. If you have--if you would like 
to summarize your testimony in your oral comments, it might 
allow us to have more time for questions and answers.
    I have an 11:30 meeting of the subcommittee chairmen. It 
has been called, and we may or may not be done by then, but if 
we are, there will be no problem. I will remain and continue 
the hearing until it is finished, and hopefully they can do 
without me if we are not done. I don't want to hasten the 
hearing. I want to make sure that we have the opportunity to 
have all the questions and have all of your responses that are 
necessary.
    I might mention up front that there will be many questions 
that we will not be able to have time to discuss here, but if 
you would be willing to respond, you or your staff respond, to 
any questions that we would submit to you for the record, we 
would appreciate that very much.
    With those brief remarks, Mr. Visclosky, do you have any 
opening comments?
    Mr. Knollenberg? Okay. Thank you. Let's then go right to 
the witnesses, and again, General, we are very pleased to have 
you as our leadoff witness, and then Ms. Gottemoellerwill 
follow with General--is it Habiger?
    General Habiger. Habiger, but I respond to anything, Mr. 
Chairman.
    Mr. Packard. I have had to do that myself occasionally. We 
are grateful to have you all here.

                            Opening Remarks

    General Gioconda. Good morning, Mr. Chairman and members of 
the subcommittee. I have a few brief remarks about the fiscal 
year 2001 budget of $4.6 billion for the Stockpile Stewardship 
Program and the fiscal year 2000 supplemental request of $55 
million.
    I am pleased to report to you today that the Stockpile 
Stewardship Program is working to ensure the safety and 
reliability of America's nuclear deterrent. Our nuclear 
deterrent remains a cornerstone of this Nation's defense. The 
highly trained men and women working in our production plants 
and weapons laboratories do possess the critical nuclear 
weapons skills needed to support the stockpile at this time.

                      FY 2000 SUPPLEMENTAL REQUEST

    Your ongoing support for the Stewardship Program is 
absolutely essential for its continued success, and I 
appreciate the Committee's support for our fiscal year 2000 
supplemental. Once approved by the Congress, our supplemental 
will provide funds needed by the production sites to cover 
workload costs and stabilize our highly skilled workforce.
    Before I get into the details of the fiscal year 2001 
request, I would like to draw your attention to two 
developments impacting the stewardship program.

                        30 DAY STOCKPILE REVIEW

    First, as many of you are aware, at the Secretary's 
direction, we undertook a comprehensive internal review of the 
Stockpile Stewardship Program in November. This detailed review 
was led by Under Secretary Dr. Ernest Moniz. The review 
concluded that the program was on track in developing the 
science, technology and production capabilities needed to 
support the stockpile.
    Several of the findings will help to shape future decisions 
in the program. In this effort, we must continue to prioritize 
investments, schedules, and resources. The program faces 
challenges and there are 15 specific actions that emerged from 
the report's findings. We are aggressively working these action 
items to further strengthen the program.
    Key among these is the need for DOE and DOD to refine their 
process for determining the scheduling of stockpile 
refurbishments over the next several decades to take into 
consideration military, human, and budgetary needs. We are 
working with the DOD right now to address this issue.
    Second, we have a new business strategy for the Stockpile 
Stewardship Program. We have transitioned from the old paradigm 
of design, test, and produce to an environment of maintaining 
the safety, security, and reliability of our current weapons 
with advanced science and manufacturing techniques.
    We needed a new business strategy to support our new 
business approach. We feel that this is a superior approach, as 
it provides more visibility into our program, and quite 
frankly, gives us a better means to integrate and balance the 
competing needs of the program; I hope you see it the same way.

                        DIRECTED STOCKPILE WORK

    One major element of this new approach is Directed 
Stockpile Work. That encompasses all activities that directly 
support the specific weapons in the stockpile, as directed by 
the President's Nuclear Weapons Stockpile Plan. It covers all 
the activities that support the day-to-day needs of the 
stockpile, and this work occurs across the entire complex.

                               CAMPAIGNS

    Next, we have an area called Campaigns that is the 
technically and challenging research and development programs 
designed to provide us with the critical science and 
engineering capabilities needed for the certification of 
nuclear weapons stockpile over the long-term. Campaigns have 
definitive milestones, work plans and specific end-dates. There 
are currently 17 Campaigns, which are also conducted throughout 
the complex.

                             INFRASTRUCTURE

    Finally, there is the infrastructure. Our facilities must 
be in a safe, secure, and reliable operating condition to 
support our work. This category also includes our new 
construction, our transportation system for moving components 
and weapons, safely and securely through the complex, and our 
Federal staffing that provides the needed oversight of the 
program.

                         FY 2001 BUDGET REQUEST

    Our overall budget request of $4.6 billion compares to our 
fiscal year 2000 appropriation of about $4.3 billion, which 
provides us about a 6 percent increase in funding for 2001. The 
major reason for the increase is that a significant fraction of 
the Nation's nuclear arsenal, the W80 and the W76, are 
scheduled for refurbishment over the next decade. This 
represents over 50 percent of America's stockpile. Work 
associated with these two systems will constitute the majority 
of the Directed Stockpile workload.
    We must meet the schedules for these activities, which 
includes the development of scientific capabilities required to 
certify without nuclear testing.
    We are working with the DOD to identify and assess the 
final technical drivers and schedules for weapons component 
replacement or certifiable modifications.
    We are making significant security improvements in our 
transportation system used to transport components, materials, 
and actual weapons within the complex.

                     NEW CONSTRUCTION PILOT PROGRAM

    We are requesting a few new construction items in fiscal 
year 2001 budget. The Preliminary Project Design and 
Engineering pilot program is a new initiative with about $15 
million to fund preliminary design before setting a 
hardbaseline and asking for construction approval. Several candidate 
projects are proposed. We believe this will provide an improvement in 
our project management system.

                   FY 2001 NEW CONSTRUCTION PROJECTS

    We also have three other new projects; one at Pantex, the 
Weapons Evaluation and Testing Laboratory; a new storage 
facility for Highly Enriched Uranium at Oak Ridge, Y-12; and 
the Distributive Information Systems Laboratory at Sandia. In 
total, however, our construction request is down from fiscal 
year 2000.

                       NATIONAL IGNITION FACILITY

    While I am on the topic of construction, let me say a word 
about the National Ignition Facility. As many of you know, the 
project has encountered significant technical issues in 
assembling and installing the laser infrastructure. Let me 
emphasize that the problems with NIF are not scientific. A new 
baseline will be submitted to Congress by June 1st, 2000, as 
required. The previous funding plan for NIF has been included 
in this budget which accounts for the overall construction 
decrease.

                       RETAINING SKILLED WORKERS

    I would like to point out one last, but important, area of 
growth, even though it represents only one-tenth of one percent 
of my budget. We are funding a plan that will focus on building 
and sustaining a talented, diverse work force of Federal R&D 
technical managers as recommended by the Chiles Commission 
report.
    The plan will include innovative recruitment strategies, 
retentive incentives, and comprehensive training and 
development programs for new and current employees. We have 
also included resources to reengineer our organization to place 
employees closer to where their work is accomplished and 
streamline some of our burdensome administrative functions.

                     NUCLEAR WEAPON SAFETY DEVICES

    Our budget also supports our plans to manufacture the parts 
that are needed to meet the day-to-day needs of the stockpile. 
I brought along several examples of the fine work done, by our 
Kansas City Plant, if you have a chance to look at these. There 
are two safety devices I would like you to take a look at: a 
Trajectory Sensing Signal Generator, which is the larger one, 
and the small one is a Strong Link Switch. Both of these are 
designed to prevent detonation in the highly unlikely event 
that a weapon is involved in an accident.
    Components of these types are used widely in a number of 
weapons in the inventory. These unclassified parts are composed 
of hundreds of components and require careful manufacturing to 
meet the strict specifications. That is why it is so important 
so we don't lose our critical work force for the supplemental 
that you funded.
    The other item that I brought this morning is a common 
radar, which is used on the B-83. We plan to incorporate this 
same radar in the B-61. This component is made up of 13,000 
parts, with more than 4,000 solder joints for just one weapon.
    These are but a few examples of the 6,000 parts that make 
up a nuclear weapon and these parts must be expertly managed, 
studied, and produced.

                  STEWARDSHIP PROGRAM ACCOMPLISHMENTS

    Our 2001 budget will allow us to build upon a significant 
list of accomplishments that the Stewardship Program has 
compiled over the last years. I would like to bring a few to 
your attention that you will see in the budget.
    First and most important, we have completed three annual 
certifications and expect the fourth shortly. Through the 
continuing success of the Stockpile Stewardship Program, we 
have been able to support both the Secretary of Energy and the 
Secretary of Defense in certifying to the President that the 
nuclear weapons stockpile is safe and secure and there is no 
requirement for underground testing. I understand that the 
Secretary of Defense signed that fourth certification 
yesterday, and we should get it today in the DOE; and Secretary 
Richardson is prepared to sign that certification.
    Last month, we announced the first-ever three-dimensional 
simulation of a nuclear weapons explosion, using our ASCI Blue 
Pacific supercomputer at Lawrence Livermore National 
Laboratory. To get a sense of the complexity of this 
calculation, it took our Blue Pacific machine some 20 days to 
run the calculation. It would take an average desktop machine 
over 30 years to do the same thing.
    This is important because, as our weapons get older, the 
problems are expected to get harder, and we must have ready 
more sophisticated tools and people to allow our assessment of 
the weapons to continue. Our ASCI program is key to that.
    As you may recall, in 1996, we began to establish a limited 
capability to produce plutonium pits at Los Alamos, which was 
necessary with the closure of Rocky Flats. We have now 
fabricated four development pits. While many scientific and 
production steps are needed to verify the quality of the pits 
produced, this is a very positive sign and we plan to have 
certifiable pit by 2001.
    The Department also plans to undertake a preconceptual 
study of pit production facilities during 2001. This study will 
build on earlier work done by DOE. Based on our ongoing pit-
aging studies from the Campaigns I mentioned, we believe that 
we have at least a 15-year lead time for the construction of 
pit manufacturing facilities. Our overall course of action on 
pit manufacturing has been approved by the Nuclear Weapons 
Council and will continue to be reviewed by them since it is so 
central to the program.

                            Tritium Program

    Our tritium program is making progress. We have signed a 
35-year, $1.5 billion agreement with the Tennessee Valley 
Authority for the irradiation of tritium. With the agreement in 
place, we have three reactors, Watts Bar and both Sequoyah 
units, available forproduction of tritium. We expect to break 
ground at Savannah River this year for the Tritium Extraction Facility. 
This facility will begin to deliver tritium gas to the stockpile by 
2006.
    With the success of the Commercial Light Water Reactor 
program and other competing financial demands from other parts 
of stockpile stewardship, DOE has been forced to redefine the 
work associated with the Accelerator Production of Tritium 
program. We will continue limited engineering development 
demonstration activities at Los Alamos National Lab, as well as 
work with other parts of the DOE to develop a joint program for 
the several uses that APT technology promises.
    We are also accomplishing our life extension requirement 
for the W87 involving Y-12 and Pantex, and have produced the 
first new neutron generators at Sandia since the Pinellas plant 
closed in the early 1990s.
    Mr. Chairman, over the last 5 years, the Stewardship 
Program has made significant scientific and technical strides 
that many of our critics and even some of our supporters 
doubted we could achieve. These accomplishments increase our 
confidence that the men and women of the stockpile stewardship 
team will be able to meet the scientific and engineering 
challenges of the Stewardship Program in the years and the 
decades ahead.

                           CONCLUDING REMARKS

    The challenges that are key in your markup are: meeting the 
requirements for nuclear deterrence, our primary job; 
attracting and retaining a preeminent nuclear team as many 
people are reaching retirement age; certifying new pits; 
producing tritium; and implementing new security standards that 
are necessary in the world in which we live.
    Our ability to meet these and other challenges is dependent 
on your continued support of our budget for this vital national 
security program and our aggressive Federal management.
    Thank you, sir.
    Mr. Packard. Thank you, General.
    [The prepared statement of General Gioconda follows:]
    Offset Folios 460 to 485 Insert here

<SKIP PAGES = 026>

    Mr. Packard. Ms. Gottemoeller, we would like to hear from 
you now.

                  Opening Remarks of Ms. Gottemoeller

    Ms. Gottemoeller. Thank you very much, Mr. Chairman, and 
members of the subcommittee. It is my very great pleasure to 
have the opportunity to appear before you today and present 
this summary of the Department's fiscal year 2001 budget for 
the Office of the Deputy Administrator for Defense Nuclear 
Nonproliferation. I look forward to working with you, Chairman 
Packard, and with the rest of the members of the subcommittee 
as we address some of the many serious challenges facing our 
Nation today.
    As you know, my office has undergone a number of 
organizational changes over the course of the past year. 
Specifically, Title 32 of the National Defense Authorization 
Act for fiscal year 2000 calls for the creation of a new 
National Nuclear Security Administration, or NNSA. In the NNSA, 
my office, the Office of Nonproliferation and National 
Security, has been redesignated as the Office of Defense 
Nuclear Nonproliferation. In addition, the Department's Office 
of Fissile Materials Disposition was incorporated into this new 
office, and implementation of the new arrangements is going 
well. I think in the implementation of this new organization, 
we will be able better to respond to proliferation challenges 
around the world.
    I will leave it to my colleague, Gene Habiger, to speak 
about the many changes that have occurred in the security 
organization over the past year.

                         FY 2001 Budget Request

    Moving on to our fiscal year 2001 budget request, our 
request for this year is $906 million. This figure incorporates 
both the former Office of Nonproliferation and National 
Security, for which we are asking $683 million, on a comparable 
basis, an increase of $136 million, or 21 percent, above the 
fiscal year 2000 appropriation; and the Office of Fissile 
Materials Disposition, for which we are requesting $223 
million, on a comparable basis, an increase of $22 million, or 
a 10 percent increase, above the fiscal year 2000 
appropriation.

               Russian Long-Term Nonproliferation Program

    I would like to, if I may, turn first to a major priority 
for the Department of Energy in the coming year, which is a 
proposed $100 million long-term nonproliferation program with 
Russia, developed by Secretary Richardson as a key part of the 
President's fiscal year 2001 budget request for the Expanded 
Threat Reduction Initiative. The proposed $100 million 
initiative should be viewed in the context of our broader 
effort in Russia to end the production of fissile materials and 
reduce existing stockpiles, an effort that includes the 
Plutonium Disposition program, the Highly Enriched Uranium 
(HEU) Purchase Agreement, and the Plutonium Production Reactor 
Agreement.
    There are essentially two parts to the new initiative. The 
first involves the nuclear fuel cycle, for which we areasking 
$70 million; the second covers Russian nuclear infrastructure, for 
which we are requesting $30 million.

    Russian Moratorium On Plutonium Separation From Civil Spent Fuel

    I will turn first to the fuel cycle aspect of the 
initiative. We are proposing with the Russians a moratorium on 
the further accumulation of separated civil plutonium from 
spent fuel.
    Each year, Russia produces approximately 2 metric tons of 
separated civil plutonium at its Mayak reprocessing plant, 
adding 2 metric tons per year to their growing stockpile of 
more than 30 metric tons of this material. In the context of 
our efforts to dispose of plutonium in our Plutonium 
Disposition program, at the rate we foresee to be approximately 
2 metric tons per year, it makes eminent sense for us to try to 
plug this hole in production of further weapons' usable 
material on the Russian side.
    To support this moratorium, it will be necessary to assist 
Russia in designing, licensing, and constructing a dry storage 
facility for spent reactor fuel, fuel that would otherwise have 
been reprocessed. Funds will support the development of 
technically sound, environmentally safe and secure approaches 
to spent fuel packaging and storage.

                    Proliferation Resistant Reactors

    The second program area under the initiative involves 
collaborative research to enhance the proliferation resistancy 
of nuclear reactors and fuel cycles. Major research and 
development investments in this area are conditioned on Russia 
fulfilling its commitments to curtail nuclear cooperation with 
Iran.

                Russian Nuclear Infrastructure Proposal

    As far as our proposal with regard to the Russian nuclear 
infrastructure for $30 million, this request will support new 
initiatives to address nonproliferation dangers associated with 
the nuclear infrastructure. We will expand efforts to 
consolidate nuclear weapons material in fewer sites and fewer 
buildings and improve materials protection and control at 
highly sensitive Russian Navy sites. New funds will also 
further advance national security goals by helping to 
accelerate the closure of the nuclear warhead assembly and 
disassembly lines at the Avangard plant and at Penza-19.

              Materials Protection, Control And Accounting

    Moving on to the Materials Protection, Control and 
Accounting program, this is a good example of the success we 
have achieved so far in our threat reduction efforts in Russia. 
The program is progressing well. We have improved the security 
of 450 metric tons of fissile material at more than 30 sites in 
Russia.

                    General Accounting Office Report

    I would like to take note of the recent GAO report that 
criticized the Department for having completed security 
upgrades for only 7 percent of the material considered at risk. 
The GAO's assertion is simply not accurate. In fact, we have 
completed rapid security upgrades for 450 metric tons of highly 
enriched uranium and plutonium, or approximately 70 percent of 
the estimated stock of at-risk material. These upgrades include 
``quick fixes,'' such as fortifying entrance and exit points, 
placing 1-ton concrete blocks out on storage areas and even 
just bricking up windows to secure that site against terrorists 
or outside attack. The 7 percent figure cited by the GAO refers 
only to those sites where we have completed all upgrades.
    While the emphasis in our first year of operation was on 
the ``quick fix,'' today we are implementing a strategic plan 
with an eye toward increasing efficiencies, reducing costs, and 
promoting sustainable operations. A key part of this strategy 
is our effort to consolidate and convert highly enriched 
uranium into nonweapons-usable forms. We recently completed a 
model project to consolidate and convert more than 200 
kilograms of highly enriched uranium and plan to convert an 
additional 600 kilograms of this material. Over the next 2 
years, our goal is to convert 8 to 10 additional metric tons of 
highly enriched uranium.

                  Access To Russian Weapon Facilities

    Our strategic plan addresses two additional issues raised 
in the GAO report that I would like to comment on: access to 
facilities and taxation by the Russian Government. Secretary 
Richardson recently established a special task force to help us 
better understand Russia's requirements for approving visits by 
DOE personnel and to share ideas on ways to better facilitate 
access. I should stress this is not a complex-wide problem, the 
access problem. In fact, I would argue at the present time we 
have more access to sites than we have money to perform 
upgrades. At major defense sites, such as Mayak, Krasnoyarsk-45 
and Sverdlovsk-44, we have gained considerable access and are 
moving quickly to upgrade security.
    I would like to underscore that sites that fail to grant 
access are simply not given contracts for MPC&A work. That is a 
position that has worked quite well actually in pushing open 
doors at many of these facilities.

                             Russian Taxes

    Russian taxation of our MPC&A cooperation is another area 
where we are making good progress. New Russian legislation and 
implementing regulations are now on the books which exempt the 
entire MPC&A program and all other DOE cooperative programs 
with Russia from direct Russian taxes. I am pleased to report 
that the MPC&A program was one of the first to be registered as 
tax exempt.
    The GAO report correctly indicates that approximately $1 
million in taxes were included in a contract for MPC&A work by 
a Russian institute. But we have not paid that, and we are 
working on ways to avoid ever paying. In the meantime, I have 
instructed the program to review all existing contracts to 
ensure that DOE it is taking full advantage of its tax-exempt 
status, and I have issued guidance to DOE labs on this matter.
    On the arms control and nonproliferation front, our budget 
this year for 2001 is $123 million, representing an increase of 
$6.7 million, or approximately 5 percent, abovecomparable funds 
appropriated in fiscal year 2000. Activities covered by this budget 
line include a number of critical nonproliferation programs in Russia 
and the Newly Independent States, but also technical, analytical, and 
operational support for the major pillars of the larger 
nonproliferation regime, that is, treaties and agreements, export 
controls, international nuclear safeguards, and work in regions of 
proliferation concern. Our activities in these areas highlight the 
breadth and depth of the Department's contribution to U.S. arms control 
and nonproliferation priorities.

                       Nuclear Cities Initiative

    Knowing your interest in the Russia problem, Mr. Chairman, 
let me turn to our flagship ``brain drain'' prevention 
programs, the Nuclear Cities Initiative for which we are 
requesting $17.5 million, and the Initiatives for Proliferation 
Prevention, for which we are requesting $22.5 million.
    The Nuclear Cities Initiative program is on track. Since 
April of 1999, when my office was first authorized to spend 
funds, we have commissioned an open computing system in Sarov. 
I recall that in July of this year--or last year, rather--you 
saw an empty building at the site. It is now fully stocked with 
equipment and computers, and we have contracts ongoing there 
that employ approximately 100 people; an international business 
development center in Zheleznogorsk, with similar centers to 
open soon in Snezhinsk; and Sarov is already providing support 
to the business community in Zheleznogorsk. And we signed an 
agreement in December 1999 with the European Bank for 
Reconstruction and Development to open small business loan 
centers in the three cities, providing access to millions of 
dollars in potential financing. The first loan was recently 
approved for a small, five-person company in Zheleznogorsk, and 
we expect the loans for Snezhinsk and Sarov to be granted this 
spring.
    In answer to concerns expressed on Capitol Hill about how 
we are planning for accomplishments, metrics, and goals under 
this program, we have initiated high-level strategic planning 
efforts with the Ministry of Atomic Energy to establish goals, 
costs, and time lines for work force reductions and facility 
closures in each of the three cities.
    The Sarov strategic plan was completed in September, 
identifying, among other things, the reduction of as many as 
6,000 employees at the Institute for Experimental Physics, a 
nuclear weapons design institute; and also we have agreed to 
accelerated shutdown of warhead assembly and disassembly at the 
Avangard plant. Weapons assembly will halt by the end of 2000; 
weapons disassembly will halt by the end of 2004 if we keep up 
our pace of work with the plant.
    A commercial agreement for the production of kidney 
dialysis equipment was recently completed--very recently 
completed in fact; the contract was just signed yesterday in 
Moscow. It will link Avangard, the weapons assembly plant, with 
a German-American medical equipment company, the Lawrence 
Livermore National Laboratory; and we hope that similar private 
industry partnerships will be under development in the other 
closed cities. In fact, we have recently signed agreements with 
the community in Snezhinsk, and the strategic plan is on its 
way to completion.
    I am proud that the NCI is working to create jobs for the 
research employees there. The kidney dialysis program could 
create more than 100 jobs and has the potential to bring major 
investments to Sarov.

                Initiatives for Proliferation Prevention

    Like NCI, the IPP program works to secure weapons of mass 
destruction expertise and know-how. Since the program's 
inception in 1994, more than 6,000 weapons scientists in Russia 
and the Newly Independent States have been supported through 
400 nonmilitary projects. Major corporations, including United 
Technologies, DuPont and American Home Products, are 
participants in this program. To date, U.S. industry has 
contributed $64 million to the IPP program, eclipsing the $38 
million provided by the Department of Energy for cost-shared 
projects.
    And I would like to underscore, Mr. Chairman, this is a 
great increase over the amounts I was able to report to you at 
this time last year. That amount of industry contribution last 
year was approximately $32 million. So we have doubled the 
amount in the past year. Six commercial projects have already 
been launched, with full graduation from U.S. Government 
financing, and another 13 are poised for full commercialization 
by the end of 2001.
    We have done a lot to respond to the recommendations of the 
GAO regarding the IPP program in the past year, especially with 
regard to commercialization. We have revamped the U.S. industry 
coalition, helping to promote genuine commercial potential 
among the projects in these cities. Other GAO recommendations, 
such as avoidance absolutely of the payment of taxes, has also 
been taken into account with use of the Civilian Research and 
Development Foundation to pay individuals on a grant-making 
basis in Russia.
    So we have taken considerable steps to respond to the 
recommendations of the GAO, and I have actually been very 
pleased at the management improvements that have been made in 
the program as a result of this work in the past year.

                     Fissile Materials Disposition

    Let me turn briefly now to fissile materials disposition. 
As I mentioned at the outset, the transfer of the Office of 
Fissile Materials Disposition to the Office of Defense Nuclear 
Nonproliferation is now complete, and it has gone extremely 
well. Laura Holgate, who has served very ably as the director 
of that office, is now associate Deputy Administrator for 
Fissile Materials Disposition and also the Secretary's 
SpecialNegotiator for Plutonium Disposition. Ms. Holgate is here with 
me today, and I am very pleased to have her as a colleague.
    There is a strong synergy between the fissile materials 
disposition and my office's broader mission to demilitarize 
large stocks of U.S. and Russian fissile materials surplus to 
national security requirements.
    On the domestic front, the Office of Fissile Materials 
Disposition made significant progress this part year. We 
transferred substantial quantities of surplus U.S. highly 
enriched uranium to the U.S. Enrichment Corporation for down-
blending and peaceful use as commercial fuel. We entered into 
contracts with the private sector for the design of two key 
plutonium disposition facilities, a plutonium pit dissassembly 
and conversion plant, and a mixed oxide fuel fabrication plant.
    In January 2000, the Department issued a record of decision 
codifying the decision to construct and operate three new 
plutonium disposition facilities at the Savannah River site in 
South Carolina. This decision calls for the immobilization of 
17 metric tons of plutonium, and the use of up to 33 metric 
tons of plutonium as mixed oxide fuel for irradiation in 
existing power reactors.
    Mr. Packard. Would you complete that section? Then when you 
get to Highly Enriched Uranium transparency, we will probably 
suspend until we go and cast our votes, and then we will come 
back.
    Ms. Gottemoeller. That is fine. I wish to make one more 
point on the international front.
    We have continued our negotiations with Russia on bilateral 
plutonium disposition, and I am pleased to report that U.S. and 
Russian negotiators are very close to a final document. Both 
sides are pushing hard to have the agreement completed this 
spring.
    Mr. Packard. And that will complete your statement then?
    Ms. Gottemoeller. I will submit the rest of it for the 
record, Mr. Chairman, as you have to go and vote. And we can 
turn to Mr. Habiger when you return.
    Mr. Packard. That will be just fine. We will suspend. If 
you could return, I think it is only one vote and I believe it 
is on the rule
    [Recess.]

                            Hearing Resumes

    Mr. Packard. Ladies and gentlemen, I talked to Bill Young, 
the chairman of the full committee, and he does expect me to be 
at that 11:30 meeting, so we would like to try to conclude the 
meeting. It may curtail our Q&A session, but we will submit the 
questions that we would like to have in response. We appreciate 
that.
    Ms. Gottemoeller. I am finished, Mr. Chairman. I will 
submit the rest of my statement for the record.
    Mr. Packard. I appreciate that very much.
    [The prepared statement of Ms. Gottemoeller follows:]
    Offset Folios 499 to 511 Insert here

<SKIP PAGES = 013>

              Oral Statement of General Eugene E. Habiger

    Mr. Packard. And General Habiger.
    General Habiger. Thank you, Mr. Chairman. And, again, it is 
our pleasure to be here before this committee.
    Last year, as you conducted your hearings for fiscal year 
2000 budget, our organization was not even a gleam in anyone's 
eyes, and here we are a brand-new organization, and I would 
say, sir, a full up round.

                         FY 2001 BUDGET REQUEST

    For fiscal year 2001, we are submitting a budget of $340.4 
million. That is broken out in Security Affairs, $60.2 million; 
Cyber-Security, $30.3 million; Emergency Operations $93.6 
million; Critical Infrastructure Protection, $13.0 million; 
Program Direction, $89.4 million; Security Investigations, 
$33.0 million; and Declassification, $20.9 million.
    I have with me today, sir, and with your indulgence, I 
would like to briefly introduce the members of my team. We have 
had, in my view, a great success over the past 9 months, and 
the reason for that success is a lot of hard work by a lot of 
people, but especially the team.

                SECURITY AND EMERGENCY OPERATIONS STAFF

    Behind me is Joe Mahaley. He is a Naval Academy graduate; 
but other than that, he is certainly doing great things in 
security.
    Next to him is John Gilligan. John Gilligan is our Cyber 
Security director. I have known John for many years. He came to 
the department from the Department of the Air Force where he 
was in charge of their cyber program there. He has done some 
extraordinary things since coming to ourorganization.
    Next to John Gilligan is ``Boomer'' McBroom, Major General 
in the United States Air Force (Retired). Boomer was wing 
commander of the F-15 wing at Langley that first took the F-15s 
to Saudi Arabia in August of 1990. Boomer is in charge of our 
emergency operations and emergency response, and he is doing 
some innovative things to get that organization up to a new 
level of performance.
    And last but not least, Nancy Holmes, the lady there in the 
blue blouse. Nancy has been with the Department of Energy for 
almost 40 years, sir, and, she is our budget expert.
    Mr. Packard. She came aboard very young.
    General Habiger. Sir, Nancy has been instrumental in 
developing--as you are aware, we are going to submit to you in 
the very near future a budget amendment for 2001. We requested 
of the Secretary last summer that he break out all of the 
security dollars in the Department of Energy. As you recall, 
those security dollars were embedded in overhead accounts.
    We have broken them out, and this could not have been done 
without Nancy. This budget amendment will break out those 
dollars and we will have oversight that we have never had 
before.

                           CONCLUDING REMARKS

    Mr. Chairman, we have made significant strides. We have new 
policies in place. We have new procedures in place. We have no-
notice sting operations that we are conducting in the field. 
And there is no question in my mind that the culture in the 
Department of Energy, when it comes to security, is changing.
    I am here happy to answer any questions you may have and I 
appreciate the opportunity.
    [The prepared statement of General Habiger follows:]
    [The prepared statement of Ms. Gottemoeller follows:]
    Offset Folios 515 to 522 Insert here

<SKIP PAGES = 008>

    Mr. Packard. Thank you very much, General. We appreciate 
your testimony and your being here, as well as your entire 
staff.
    In reading your testimony, it is obvious that you made some 
significant progress in an area that was certainly lacking in 
some areas that needed to be corrected.
    I am going to go directly to you, Mr. Visclosky, for 
questions. And I mentioned just before you arrived that I will 
need to be at that 11:30 meeting, so if we could wrap it up by 
then, fine. If not, I will turn it over to one of you.

                        CORE CONVERSION PROJECT

    Mr. Visclosky. Okay.
    Ms. Gottemoeller, there was a recent article about the 
reactor conversion program--one in the Washington Post on 
February 13th, and then in Arms Control--that it might be more 
cost-effective to simply provide conventional power plants as 
opposed to conversion, and that we are now working on a cost 
estimate of that. The estimate printed here was $230 million, 
compared to the $300 million for the conversion.
    What is the status of that? Is that report true?
    Ms. Gottemoeller. Mr. Visclosky, we are working with the 
Russians now to examine the core conversion project overall. As 
you will recall, the plan had been to convert the plutonium 
production reactors at Tomsk and Krasnoyarsk to high-enriched 
uranium cores and then, we hoped, low-enriched uranium cores. 
However, the Russians in the past 6 weeks have come to us 
saying that they are beginning to see that it is more cost-
effective to move to a fossil alternative.
    And we believe it would be more efficacious to address the 
entire solution of this problem, because converting the reactor 
cores would provide a short-term solution for the next 10 to 15 
years, permitting those old reactors to continue to operate. 
However, it would not provide a long-term energy solution for 
the two communities, Tomsk and Krasnoyarsk.
    So we were willing to look with the Russians at what the 
near-term options might be for fossile alternatives, but we 
have been very, very clear with them that the estimate must 
come in at less than the $300 million that had been estimated 
for the core conversion project. And it must be on a time line 
that would be no worse than the time line for the core 
conversion program.
    So we have been very clear with them that those were the 
baseline requirements as far as we are concerned.
    They have offered us--that $230 million estimate is the 
estimate that they have offered to us. We are now in the 
course--in fact, there was just a team of technical experts in 
Moscow this week to check basically on whether that estimate 
makes any sense or not.
    So over the next few months we will continue to work 
closely with them. But I did want to emphasize for this 
subcommittee that the cost estimates and the time lines mustat 
least match or better the estimates for the core conversion project.
    But in a strategic sense, if we can shut down those 
reactors and basically get a long-term energy solution for 
those cities, it is a better outcome, I believe, for the 
project overall.
    Mr. Visclosky. I am sorry, what is a better outcome?
    Ms. Gottemoeller. To actually replace the plutonium 
production reactors and shut down those reactors and have then 
a long-term solution for the energy requirements of those two 
communities. Because the core conversion project would 
essentially supply them with energy for the next 10 to 15 
years. If we came up with a longer-term fossil fuel option, 
then we see it as a more positive outcome.

                         HEU PROLIFERATION RISK

    Mr. Visclosky. In the same article, two scientists--and I 
note that it is only two of them--indicated that the HEU might 
increase proliferation risk.
    Would you have a response to that?
    Ms. Gottemoeller. We have, for reasons of--there are good 
arguments made about the difficulties for the proliferation 
regime that would emerge from HEU cores. It is true that you 
are halting the production of plutonium in that case, but there 
are then requirements for Materials Protection, Control and 
Accounting because you are then moving HEU around their system. 
You have to transport fuel rods, you have to ensure you are 
handling them properly at the sites, because highly enriched 
uranium is also directly weapons-usable.
    For that reason we have, as I mentioned a moment ago, 
looked also at a low-enriched uranium option would not pose 
those kinds of proliferation risks. And as quickly as our 
technical experts could develop the projects, we have been 
moving in that direction.
    Highly enriched uranium fuel was looked upon as a near-term 
technically available option, but we were also exploring the 
low-enriched uranium option because of that very proliferation 
concern.

                    GENERAL ACCOUNTING OFFICE REPORT

    Mr. Visclosky. In your testimony--and you alluded to it in 
your oral testimony as well--you disagreed with the General 
Accounting Office report on the 7 percent estimate. But I was 
struck, when you indicate a ``quick fix'' as far as fortifying 
entrances and exits, that is a first phase. I wouldn't read it 
otherwise, and you are then proceeding to the next level.
    The question I would have, though, is to the extent that we 
have had the first phase completed on 70 percent of the 
material, is there a cost estimate as to what this is going to 
cost us? Because my recollection, and I don't have the figure 
in front of me, is about $480 million.
    Ms. Gottemoeller. Yes, we have spent $481.2 million up to 
this point.
    Mr. Visclosky. Seven percent done with phase one and we 
have spent $481 million? Is there a 5-year projected budget as 
to what this is going to cost us?
    Ms. Gottemoeller. That was, sir, one of the recommendations 
of the GAO, which we do agree with quite strongly, and that is 
that we need to take stock currently of the program and develop 
a new strategic plan. Which is now--it has just been received 
in draft by my office, and by May we will have it available to 
basically to give to a wider audience, including to this 
committee and others on Capitol Hill.
    This program has advanced rapidly in recent years, and 
there are several dynamics that are moving very rapidly. One is 
that we are finding new sites. As the Russians are giving us 
more access, they are basically opening new doors for us, and 
we are finding a number of new sites. And so one might say, 
that means the program is going to expand exponentially.
    I don't want to leave with you that impression because, at 
the same time, the Russians have agreed with us that they need 
to consolidate materials, that they want to deal with their 
security problems by moving nuclear material into fewer sites, 
into fewer facilities, and actually derating some facilities as 
being able to store nuclear materials. So that, over time, it 
will mean an essential shrinkage in the number of sites that we 
would be working at.
    But for that reason, you can see there are quite a few 
dynamics in the program, and it is a bit of a complex 
situation.
    But, nevertheless, we feel that we can produce a very good 
strategic plan that will give you a full picture of the program 
over the next 10 years, and we will have that available in 
early May.
    Mr. Visclosky. Okay.
    And, Mr. Chairman, if I could just pursue one other line of 
questioning, and then I would be happy to defer. I would want 
to thank you and your staff, with the chairman present. You 
have been very responsive. You have spent innumerable hours in 
my office trying to bring me up to date on some of these 
Russian programs and answer some questions.
    Ms. Gottemoeller. It was our pleasure, sir.

                  INTERNATIONAL NUCLEAR SAFETY PROGRAM

    Mr. Visclosky. I wouldn't go that far, but you were there.
    On the International Nuclear Safety and Cooperation 
program--and I understand there are several levels to this--you 
have the simulators, and you also then have the design; and 
then we also have the improved safety. And you have $20 million 
in the budget. I think this is a good program. I did go through 
the report to Congress, theMarch 1999 report, reactor by 
reactor, and was struck by a number of things.
    I guess one is that there is a difference, reactor to 
reactor, as to what we are doing. Some include operational 
safety, maintenance, safety systems, safety evaluation, 
regulatories. Others would include perhaps one or two 
categories. In none or all of these, whether they are inside or 
outside the former Soviet republics or Eastern Europe, are we 
completely done with any of these.
    On another document that you were kind enough to leave, 
some of these would indicate that we will be done by the end of 
this year. Is there enough money in your budget for this 
program to do this?
    Ms. Gottemoeller. Well, sir, we did take a hit in this 
budget in the past year from $34 million to $15 million. That 
has had an effect on our schedule, and we are concerned that if 
we continue, as we consider it, at a rather low level of 
activity in the program, it will have the effect of essentially 
stretching the program out. So we are concerned about that.
    Mr. Visclosky. And so $20 million is not what you could 
utilize for this program?
    Ms. Gottemoeller. Sir, we can----
    Mr. Visclosky. I am just saying, that is your budget 
request.
    Ms. Gottemoeller. We can certainly make good progress. We 
would make faster progress, as we had planned to make, if we 
had a larger budget. There is no question about it.
    Mr. Visclosky. And the final question on that, and I was 
just comparing safety schedules for the reactors on--I don't 
know quite how to describe it, page 14 of the National Nuclear 
Security Administration office briefing document. But there 
were a whole series, one, two, three, four, five, six, seven, 
eight, nine, ten, eleven--ten reactors in just Russia and the 
Ukraine, eleven if you count Kazakhstan, that are not included 
on this briefing sheet that was given to me earlier in March. 
Why?
    Ms. Gottemoeller. The sites we are working at, sir, we 
consider to be essentially prototype sites for other reactors 
around the world. So we feel that if we are putting in safety 
parameter display systems and the other safety systems at 
particular models or types of the reactors involved, then that 
serves as a prototype or model for other similar reactors 
throughout the world.
    And so that has been our plan, as we have had limited 
resources to work with throughout.
    We believe that it is important to get the technologies to 
the countries, get them trained on the technologies, so that 
they understand what the various models are, and how different 
models differ in terms of how they operate, and what kinds of 
safety problems they present. And then we hope that they will 
take those lessons and apply them at additional reactors in 
their countries.
    Mr. Visclosky. Thank you.
    Thank you, Mr. Chairman.

                     PLUTONIUM DISPOSITION FUNDING

    Mr. Packard. Thank you.
    Before I go to Joe, let me ask a question that is much more 
general, but it does encompass many of the questions I would 
have if we had the time to pursue them.
    Much of your work, Mrs. Gottemoeller, is relating to 
Russian programs. Your new long-term nonproliferation program 
and, of course, your Materials Protection, Control and 
Accounting program, your Nuclear Cities Initiative, and a 
variety of others.
    In the Fissile Materials Disposition Program, I noticed in 
that area that there is $200 million that has not yet been 
spent that was funded back in the 1999 fiscal year budget. How 
much cost-sharing are we getting from Russia on many of these 
programs? Or is it almost entirely American money? What kind of 
monitoring system do we have in place to determine that the 
money is going where it is intended to go and being spent where 
it is intended to be spent?
    Here is $200 million that has yet not been spent, and I 
would be interested to know if some of that money is going 
elsewhere, or into other Russian programs that are totally 
unrelated to its purpose. Do we have a monitoring system that 
determines if the money is being well spent, and if it is being 
spent, where it is designed to go?
    If you could just respond to that--the general process.

                     RUSSIAN PLUTONIUM DISPOSITION

    Ms. Gottemoeller. Sir, the $200 million that we have in 
place has served as the vital underpinning for our diplomatic 
efforts with the Russians. We have been negotiating for the 
past year and a half with them. It has been an important factor 
in getting them to come to the table and deal with us 
seriously.
    They can see that we are serious about plutonium 
disposition, and they know that the resources will be 
available. We have begun to do planning work with them, and I 
have been witness to some of that planning work, thanks to Ms. 
Holgate hosting me in Dimitrovgrad, along with Secretary 
Richardson, in September. And that work is under way in terms 
of planning for particular MOX fuel technologies, and I know 
that the contracting work has been very carefully handled.
    All of the money that flows through our nonproliferation 
programs and through the contracts on a task-by-task basis so 
that until we have proof that the task has been completed and 
been completed to our standards and requirements, we do not pay 
out money under any of these programs. And it goes for the 
Plutonium Disposition program, as well, which up to this point 
has been strictly, as I said, preparatory work.
    Because, again, we are keeping the Russians' feet to the 
fire and getting them to complete this negotiation; and we have 
told them that we would not begin actual construction on our 
own Plutonium Disposition programs here--or projects, rather, 
here in the United States, nor would we give them any money to 
begin spending until they complete the agreement.
    As I said we are well, I think, entrained now on our 
diplomatic efforts and believe that the agreement will be ready 
to be signed this spring.

                          RUSSIAN COST SHARING

    Mr. Packard. Is there cost-sharing by any of these programs 
by Russian money?
    Ms. Gottemoeller. Yes, sir, absolutely, there is. And I am 
sure, if you would like, Ms. Holgate would give you specific 
examples.
    Mr. Packard. Just for the record, would you provide for us 
for the record how much money on each of the Russian programs 
is coming out of Russian money and how much is coming out of 
the American taxpayer?
    Ms. Gottemoeller. Yes, we can provide specific examples 
throughout the Russian programs.
    [The information follows:]
    Offset Folios 534 to 537 Insert here

<SKIP PAGES = 004>

    Mr. Packard. Now we will go to Mr. Knollenberg.

                       LONG-TERM RUSSIAN PROGRAM

    Mr. Knollenberg. Thank you, Mr. Chairman. Welcome, 
everybody. Thank you for testifying.
    Let me go directly, Mrs. Gottemoeller, to you relative to 
the new program--the $100 million, $70 million of which goes to 
nonproliferation, $30 million to the Russian side, to begin a 
brand-new program, and combined with the fact--my understanding 
is that the $30 million is conditioned upon the Russians' 
agreeing to curtail operations with Iran; is that right?

                       RUSSIAN-IRANIAN RELATIONS

    Ms. Gottemoeller. Sir, the actual linkage is on the 
research programs for proliferation-resistant reactor research 
and also for our proposal to work with them on research on 
geologic repository technologies. That is a $5 million amount, 
and $20 million amount for the proliferation-resistant research 
reactor programs.
    These programs are so strongly linked to the Iran situation 
because we know they are programs for which there is a profound 
interest among Russian institutes and Russian researchers, and 
we feel that this is a good way to get some very strong grass-
roots pressure on the Russian establishment in terms of this 
cooperation of concern with Iran. So that is the reason why we 
have linked the research programs in the way we have.
    Mr. Knollenberg. Let me just ask you this: Is there an 
assurance that somehow this money is going for real 
nonproliferation, and it won't be going for or being 
misdirected in some fashion? My concern is that when you bring 
in Iran--and I know conditions are beginning to change a little 
bit, at least between the U.S. and Iran, but my concern is that 
Russia is working with Iran. And is any of this connected to 
North Korea or Pakistan? Is there a chance that their 
involvement might embrace those two countries in some fashion 
via the moneys going into this program?
    Ms. Gottemoeller. Sir, our concern has been directly with 
what we have seen as a very visible cooperation between Russia 
and Iran. That is in areas of nuclear technology that could 
contribute to a nuclear weapons program. So it has been quite 
explicitly linked to the Iranian cooperation.

                   RUSSIAN COOPERATION WITH THE U.S.

    Ms. Knollenberg. So you feel confident with the cooperation 
you are going to be getting?
    It is a new program, and I know you can't see into the 
future.
    Ms. Gottemoeller. We do in that we are very firm and have 
been very firm with the Russians that unless we see the results 
we need and their shutting down this cooperation, we will 
simply not proceed with the cooperation.
    But in terms of the way the research would be conducted, we 
already have under way discussions with the Russian side, 
again, in the interest of showing the institutes the range of 
projects and getting them interested in the whole effort.
    But we have had a very careful planning program going on 
that would result in the same kind of contracting arrangements. 
If we did proceed forward, we would know where the money was 
going, we would know how the money was going to be spent. So I 
feel confident in that regard.

                      NN PROGRAM DIRECTION REQUEST

    Mr. Knollenberg. On page 12 of your testimony you note that 
there is a 48 percent increase in the program direction account 
that is being requested in this budget, $14 million of which I 
presume is going to be used to hire 56 new FTEs.
    How many of the 56 are going to be scientists or engineers?
    Ms. Gottemoeller. Sir, we have been very eager to move the 
management of these programs to be a federalized work force. At 
the present time, we are dependent not only for technical help, 
but also for simply making sure that the programs are moving 
forward in implementation on contractors. And that have been a 
matter of grave concern for us. So we have been very eager to 
establish a new management team that would be in the federal 
employ.
    Mr. Knollenberg. Would they be stationed in Russia or 
Ukraine?
    Ms. Gottemoeller. Some of them would be. In fact, one of 
the things we have done in the past year in cooperation with 
Ambassador Collins in our embassy in Moscowhas been to 
establish a larger Moscow program. So some of the programs, like the 
MPC&A program and the NCI program, will have a Federal officer under 
the proposal that we have made to you, working at our embassy in Moscow 
and helping to manage the programs on the ground in Russia.

                       NATIONAL IGNITION FACILITY

    Mr. Knollenberg. Let me turn to General Gioconda.
    Last summer Secretary Richardson assured the nation that 
NIF would be brought in on time and on budget. Soon after that, 
of course, we learned a little differently, that there are 
substantial problems with that project, including huge overruns 
and, we have been told, some misrepresentation of credentials 
by the NIF management.
    Back in November, the President's Review Council committee 
projected that they may be 12 to 18 months behind schedule and 
have a cost growth of 30 percent over what was previously 
believed to be the case. And now they are saying it could even 
rise to as much as $2 billion.
    Could you give us any idea about what is the final cost on 
this project? If this is extensive and something that you have 
to research, you can submit it, obviously. You can submit it 
for the record. But what I am interested in is, give us a 
profile of the funding over the next several years so that we 
know what is coming.
    General Gioconda. Sir, you present three problems that the 
Secretary was faced with when he heard about this problem in 
August. In fact, when I took over as acting is when the first 
problem came on my desk.
    The Secretary, as a matter of integrity, believes that when 
he made that speech, there were people that knew, and didn't 
get him up to speed. And so he took that very personally. He is 
looking into that matter.
    And why that is so important is because the second problem 
is management. If you can't trust the management, you can't 
trust the operation, the figures, or what is going on. So we 
have gone through and basically replaced a lot of the managers.
    The gentleman you mentioned that was misrepresenting his 
credentials, he is gone. He was the head project manager of 
that place. He has left DOE employment at the lab.
    Mr. Knollenberg. How was he misrepresenting his 
credentials?
    General Gioconda. He didn't have a Ph.D. and he was 
referred to as a doctor for a long time. What happened is, he 
didn't complete his dissertation is the way I understand it. 
And so he has left our employment and the management team.
    Also the way the program was managed, it was such a large 
program, it is clear that the people who were in the management 
chain had other duties and they needed to focus more on a 
program this big. The problem with NIF is not scientific. The 
lab believed that they kept the science program on track, doing 
very well, that they could put all the parts and pieces 
together in program integration.
    They are world class in science, but they are not world-
class contract integrators, and that took a while to find out.
    Now we have the management team in place. Now we're 
focusing on how to get ahead. And what we have outlined, I 
directed a series of options that we are reviewing right now 
that go from ``not a nickel more,'' up to ``get the program 
back on track.'' We are looking into the--pros and cons of each 
of these options.
    I have already briefed the Deputy Secretary and the Under 
Secretary, and I was to brief the Secretary this week for him 
to choose an option; but as you know, he had a Presidential 
mission to perform on the energy crisis, so I am on the docket 
to do it next week.
    So until the Secretary selects one of those options--then I 
will know the cost path, the glide path, and the end game. That 
is where we are at.

                   CYBER SECURITY AT THE WEAPONS LAB

    Mr. Knollenberg. Mr. Chairman, if I could ask one more 
quick question--I appreciate the time here.
    I think this might be a question for General Habiger. It 
has to do with cyber security. We have heard about--I know the 
division is seeking $340 million this year--that is a $56 
million increase--and I can understand the concern for 
security. Apparently, the largest portion of that is in cyber 
security, and they are looking for new hires, 29, I believe it 
is.
    We have all read about the hackers and what they have done 
and the attacks that they have been able to accomplish in 
shutting down some of the Nation's largest Internet companies. 
We also know, of course, the details behind the case of Dr. Wen 
Ho Lee.
    But what I would like to know is how really prepared you 
are. I know that it has been probably a bit of a struggle to 
come to grips with everything that has been put on your lap. 
But if they can get into Amazon.com, CNN and E*Trade, is it 
possible that they could get into our nuclear weapons secrets?
    General Habiger. No.
    Mr. Knollenbert. Good. Tell me how.
    General Habiger. Our nuclear weapons secrets are a separate 
system that hackers just can't get into, period.
    Now, I will also tell you that Brookhaven, one of our 
national laboratories on Long Island, was probably the 
prototype for the denial-of-service attack. This occurred last 
summer, and they shut us down up there, and we have learned a 
lot from that attack.
    But, sir, our nuclear weapons secrets are on systems 
thathackers just are not going to get into. We found the hard way that 
our most vulnerable systems are unclassified systems. Now there is a 
lot of valuable data on those systems like our Thomas Jefferson 
Laboratory in Newport News, Virginia. They go through terabytes of data 
almost every day, and if someone were to get in there and pollute that 
data, you would have a lot of experimentation work that would be lost.
    That is the area that we found we have had the majority of 
our problems with. And I can assure you sir, that the added 
moneys we have requested for cyber security will be well spent.
    Mr. Knollenberg. Thank you, General.
    Mr. Packard. Thank you, Mr. Knollenberg.
    Mr. Edwards.

                       RUSSIAN NUCLEAR MATERIALS

    Mr. Edwards. Thank you, Mr. Chairman. I will be brief in 
respect of the scheduling here.
    I want to thank all of you for your career commitment to 
these terribly important areas. I know in this country you get 
a lot more public credit for responding compassionately to 
tragedies, rather than preventing them, and you spend your 
whole lives hoping you will never be in the news. And I 
appreciate that.
    Could I ask Ms. Gottemoeller, is there any evidence to 
suggest that any bomb grade nuclear material has actually left 
the former Soviet Union, or is the accounting system such that 
maybe there are certain quantities of that material we cannot 
account for or they cannot account for?

              NUCLEAR MATERIAL ACCOUNTING SYSTEM IN RUSSIA

    Ms. Gottemoeller. Sir, as you are aware, over the past 
decade there have been several highly publicized events; and I 
just received a briefing on this yesterday, regarding the 
recent appearance of 100 grams of highly enriched uranium at 
Ruse, Bulgaria. So we know that there have been events that 
have occurred. We know that certain Russian facilities have 
been involved, starting in 1992 with the Luch facility, for 
example. That is why we have found in many of these facilities 
that the directors have had the fear of God put in them, and 
they are very interested in having physical security upgrades 
at their sites. Because they, I think, in some cases have 
experienced insider, or possibly outsider events or incidents, 
and in other cases know of them. So we do know of some events.
    I was interested in this briefing I saw yesterday that 
there had actually been no recorded events between 1995 and 
1999 of weapons-usable material appearing on the market, so to 
speak, outside of the former Soviet Union. And I chose to see 
in that some positive results from our work. But we do continue 
to see incidents.
    Mr. Edwards. Is there a considerable amount of material 
that cannot be accounted for? It doesn't necessarily mean it is 
in the wrong hands or outside the country, but cannot be 
accounted for? And if so, how much, by estimate?
    Ms. Gottemoeller. Mr. Edwards, there is a very different 
safety and nuclear accounting culture in existence in the 
former Soviet Union today. And I use ``former Soviet Union'' 
advisedly because in the Soviet system, they accounted for 
material in a much different way, basically depending on the 
physical security--gates, guns, and guards--and not being so 
worried about precisely accounting for every pellet, every fuel 
rod, every piece of nuclear material.
    So we have a lot of work to do with that. That is why the 
program also is focused on accountancy of nuclear materials 
because we are retraining our Russian counterparts on material 
accountancy.
    As to an estimate of the bulk of the material or the total 
amount that still needs to be put under world-class accountancy 
schemes, I am afraid, sir, I would find it difficult to provide 
that amount to you at this table, but we will see what we can 
provide for the record.
    Mr. Edwards. The laymen's summary of that answer would be 
that there is a lot of material that cannot be accounted for 
through their accounting system?
    Ms. Gottemoeller. Absolutely. I can agree with that, sir. 
And what we are trying to do is train them up in world-class 
accountancy procedures and give them the tools by which they 
can perform the accountancy that needs to be done.

                 SEPARATED PLUTONIUM STORAGE IN RUSSIA

    Mr. Edwards. One last question, again, recognizing the time 
situation here, what will Russia do with the 2 additional 
metric tons of plutonium they are producing a year, or what are 
they doing with that now and what will they do with it if we do 
not fund the joint effort to try to have a secure site for it?
    Ms. Gottemoeller. Sir, it goes into the plutonium 
warehouses at Mayak, which I have visited; and one of the 
materials protection projects I am most proud of is at Mayak. 
Those materials go basically into buckets that are dropped into 
the floor at the plutonium warehouses--15 metric tons in the 
two warehouses--that we have been working at. Those buckets, 
even for someone like me, one can reach down and lift them and 
carry them out. There were wooden doors and wooden windows. No 
bars, no security. So we have been putting 1-ton blocks down 
over the Russian flooring to provide added security. But that 
is the kind of storage there has been for that material coming 
out of the Mayak RT-1 plant.

                    NUCLEAR WEAPONS SAFETY IN RUSSIA

    Mr. Edwards. Maybe in less than a minute, General Gioconda, 
can you tell me if we are having to spend, in a healthy economy 
and a healthy national situation in the United States, billions 
of dollars trying to check the safety of our nuclear missiles 
without testing, what is Russia doing in this area?
    They don't have the resources we have. What is happeningto 
the--what kind of testing are they doing similar to ours?
    Maybe the bottom line of the question is, are their nuclear 
missiles perhaps becoming unsafe because they cannot afford to 
do the kind of testing that you tell us is necessary to 
safeguard our nuclear stockpile?
    General Gioconda. Sir, I am not the expert on that, but I 
can tell you that they have a fundamentally different approach. 
They treat their nuclear weapons more as a munition and they 
have a different type of stockpile than we do. There are 
several comparisons that would be useful, if you were 
interested. We can bring material to you from our Intelligence 
Department over at DOE that will show you the differences, why 
they rely on certain things, and what their critical decision 
nodes are.
    But obviously they are concerned, too, in keeping their 
stockpile healthy without underground testing, and they are 
going through some of the same discussions that we are going 
through. And in the partnership that we have with them, we are 
understanding more and more that they have some of the same 
concerns that we do.
    Mr. Edwards. In layman's summary, again, I am sorry to do 
this on such a complicated and important issue, but in layman's 
summary, if you were in charge of their program today, based on 
the money they are putting into it, is it safe to say you 
wouldn't be terribly comfortable about the quality of their 
control systems?
    General Gioconda. As a layman, I would defect.
    Mr. Edwards. If they are doing it much more cheaply and it 
is safe, then we ought to save billions of dollars. But it 
sounds to me like we ought to have some concerns.
    General Gioconda. The good thing to recognize is that the 
American stockpile has a good pedigree that is allowing us to 
get ahead of this. The stockpile that we have is safe, secure, 
and reliable. That is not in question; we have certified it and 
have for three years. What we are worried about is the aging 
factor, and that is what we are working on.
    They are trying to turn over their stockpile every 10 years 
because they are concerned that their aging factors have more 
unknowns than we do.
    Mr. Edwards. Thank you very much.

             RECOMPETING WEAPON PRODUCTION PLANT CONTRACTS

    Mr. Packard. I think it is obvious from not only your 
testimony, but from my trip over there last year, that it is 
night and day between how we handle our nuclear materials and 
how they do, and how they have in the past, and how they intend 
to do it in the future. And that is perhaps why we are so 
deeply involved, because we could recognize the danger that 
they have not yet recognized.
    General Gioconda, I have one question and then I am going 
to leave.
    And I will turn it over to you, Mr. Visclosky, and you can 
carry on as long as you and the rest of the committee would 
like to.
    Next year you will be competing the contracts for all three 
of the weapons production plants. I would like for you to 
briefly discuss the status of this effort, and are you 
concerned about programmatic activities that might be affected 
by it, particularly adversely affected by it, and then in what 
way will the new contracts differ from the previous contracts?
    General Gioconda. Sir, as you know--and I am glad we are in 
closed session because of the contract sensitivity here.
    We have released the request for proposal (RFP) for Pantex, 
and are pleased to announce that there are four companies that 
have submitted bids. We will be going through the selection 
process for Pantex soon.
    Yesterday we issued the RFP for Y-12, and we are going to 
go through that same process. And in about a month we are going 
to go forward with the RFP for Kansas City.
    The Secretary's view of this is that they are up for 
renewal, and it is important to have an open competition so we 
can make sure that we have the best world-class companies 
working on our program.
    You could look at it from both sides. Will this detract us 
from our work? I think not. Actually, you get more focus 
because the people there that are in the contract want to hold 
on to the contract, and the people that are competing are 
bringing in some bright ideas on how to run the complex.
    So, yes, it will be a hard time, a hard time for the 
Federal staff to make sure it is open-and-above-board 
competition.
    But would I like to go on slower? Yes, it would be nice. 
But the Secretary believes and I support him--that this 
competition, a healthy competition, will allow the complex to 
be the complex that you expect.
    Mr. Packard. Thank you.
    I would like officially then to turn the meeting over to 
Mr. Visclosky, and he can conclude at any time he wishes; and I 
probably will not be able to return. Thank you all very, very 
much. I am sorry I have to leave.

                DEFENSE PROGRAMS RECAPITALIZATION BUDGET

    Mr. Visclosky [presiding]. Following on the Chairman's 
questions, if we could stay on the plans as far as the 
recapitalization budget, is there enough money in our budget to 
continue? And what is going to be the shortfall here?
    General Gioconda. Sir, my honest straightforward answer is 
no.
    There are two problems in the complex that cause me to lose 
sleep. First, is the people and the sense of changing over. 
Many people are at the retirement age.The DOE hasn't hired new 
people for quite a few years, and that is of concern, both from the 
Federal structure, and for the contractors. There are all sorts of 
stories about recruiting fairs that one lab gave and no one showed up.
    Quite frankly, there are fewer Q-qualified, if you will, Q-
cleared people that are studying the hard sciences that we 
recruit from for the labs or in technical areas for the plants.
    The second problem is the infrastructure. The 
infrastructure is old; it is antiquated, it needs to be 
refurbished. Especially given the fact that we are refurbishing 
50 percent of the stockpile soon. And frankly, sir, the things 
that have stopped me from doing stockpile stewardship have been 
surprises in starting up the complex.
    The complex has not once started up gracefully in any 
program that we have had. But coming to you with a wish list a 
mile long, that is not integrated, is not the way to go, so you 
don't see a large infrastructure improvement program in 2001. 
What we are trying to do is get an integrated infrastructure 
improvement plan. The reorganization of the budget will allow 
us to start on a capital improvement program through the 
complex that is reasonable and prudent and able to fit into a 
reasonable budget structure. That is what is needed and we are 
working on it. But it is so far not ready.
    Mr. Visclosky. But you have capital investment plan?
    General Gioconda. Yes, sir, some. It is very limited, and 
if you go around to all of the facilities as I have done, each 
of them have their ``City upon the Hill'' plan. What they would 
like to look at. But over time, that is the place where money 
has come from. If we had a problem in the stockpile, that is 
where the money was taken from to do the issues on the 
stockpile. If we had a problem somewhere else--something blew 
up or something didn't work right--that was the area that was 
mined. And over time, sir, that is catching up to the complex.

                      RETAINING SKILLED WORKFORCE

    Mr. Visclosky. So is there a plan in place as far as the 
employees?
    General Gioconda. Yes, sir. What we are doing is, we have 
taken the Chiles Commission report and have developed a Chiles 
Commission action plan, if you will. And each of the programs 
and each of our facilities have submitted their view of the 
Chiles Commission, how to get the technical and science 
technology people employed, brought into the organization. And 
now we are busy linking that, not only integrating it, but also 
DOD has the same problem, so we are trying to link the two 
programs together. And that program--frankly, that report is 
last to the Congress because we haven't taken the integration 
step. We are working on that right now. We hope to have it to 
you within a month.

                         PIT PRODUCTION RESTART

    Mr. Visclosky. What is the Department's current plan as far 
as restart of the pit production facility to produce more than 
50 pits a year?
    General Gioconda. What we have done, the first thing was 
basically to try to capture the technology. As you know, when 
we shut down Rocky Flats, we needed to recapture the 
technology, and we have done that. We have produced four 
demonstration pits, if you will, at Los Alamos. Now, what we 
are doing is organizing to produce a certifiable pit, and we 
are on target to do that for 2001; and then we hope to produce 
a stockpile pit that goes into the stockpile by the 2004 time 
frame.
    The only requirement we have right now for a pit from the 
DOD is one W88 pit per year, because we destructively test one 
pit a year in our enhanced surveillance. And when we shut down 
Rocky Flats, the W88 program is the program we impacted; we 
didn't build enough spares. So that is what we are working on.
    At the same time, we are doing enhanced surveillance of 
pits and the aging of plutonium, which is the million-dollar 
question. That information is also due in 2003. A third part 
is, we are doing the long-lead planning for a production plant 
capability beyond 2050, should we need it. Quite frankly, if we 
go to a large production of pits, I would like to take that out 
of the lab structure and put--my words--make it a ``blue coat'' 
facility rather than a ``white coat'' facility. I would like it 
production oriented with production experts in there.
    So going much beyond 2020 is when I want to make sure that 
there is a production mentality more than what we have today.

                         INFRASTRUCTURE BUDGET

    Mr. Visclosky. General, if I could get back to the plants 
and recapitalization.
    General Gioconda. Yes, sir.
    Mr. Visclosky. You are developing a recapitalization plan 
now; you have a budget request in place, but you are redoing 
the plan. Is part of the restructuring of that plan trying to 
be realistic about what the moneys may look like?
    General Gioconda. Yes, sir, I believe that we need to pay 
more attention to the infrastructure of the complex.
    Mr. Visclosky. I agree with you.
    General Gioconda. Because if you look at all the stories 
that you read about, it is all infrastructure related.
    We had an accident at Y-12 that is related to an antiquated 
infrastructure. When we looked at it initially, I asked the 
question, we have a 0.5 percent reinvestment program, and the 
industry standard--just as the industrystandard for heavy metal 
work, is 2.4 percent. So we are already going in the hole, and we have 
been going in the hole for quite a while. And I believe we are on the 
edge of that catching up to us if we don't do anything about it.
    No program--capital investment program that is in the 
budget that is before you, is redundant. Those are not all that 
must be done--but I am not prepared to tell you what is enough 
until we have an integrated plan.

                     ADDITIONAL FUNDING PRIORITIES

    Mr. Visclosky. The Chairman has cautioned at each hearing 
that our allocation is probably going to be the same as what we 
had last year, so clearly no representation can be made that we 
are going to be flush. But I assume if there was a plus-up, 
there would be things that could be done that would make sense 
on a permanent basis.
    General Gioconda. Sir, if you ask me the question, where 
would I spend my next dollar if I had one more dollar, my one 
more dollar would be a split between people and infrastructure. 
Those are the two things that are needed. I think my science is 
on the right track, but those two things would say to me, I 
want to be ready, I don't want to turn over to the person who 
follows me or 10 years downstream something that we haven't 
looked forward to.
    Mr. Visclosky. I have some more questions, but we have two 
colleagues here.
    Mr. Frelinghuysen?

                             RUDMAN REPORT

    Mr. Frelinghuysen. Thank you. I apologize for being late, 
hopping from hearing to hearing.
    General Habiger, good luck to you, I don't have any 
specific questions but when I read the Rudman report; all I can 
say is, I am glad you are there and hopefully getting things 
under control. I mean, I really feel in my heart that while 
many of our constituents don't even know the labs exist, that 
we have done irreparable harm, and you are in the process of 
repairing whatever needs to be repaired. And I give you a lot 
of credit for whatever you are doing.
    I am sure it is a positive thing, so I just want you to 
know that even though I am not asking you any questions, we are 
supportive of the work that you are doing, and I hope it 
continues for a long time. It is very important.
    General Habiger. Thank you, sir.
    Mr. Frelinghuysen. Perhaps it is because I traveled with 
Ms. Gottemoeller that I have a few questions for you, Rose.

   DEFENSE NUCLEAR NONPROLIFERATION ACTIVITIES IN INDIA AND PAKISTAN

    I don't believe there has been any discussion today on arms 
control as the focus has been on Russia. I will get to Russia 
in a few minutes, but it seems to me with the President having 
spent some time in India, and he is on his way to Pakistan, and 
the headline today in the Washington Times is ``Clinton 
Blisters Pakistan, Calls India Great,'' I am not sure what that 
portends for his visit to Pakistan.
    What are we doing, what are you doing to take a look at 
what is going on in India and Pakistan? Almost everything we 
hear, this is the most dangerous place in the world, where we 
have the potential for a nuclear catastrophe second to none.
    The Russian situation may be improving, and you have told 
us and showed us how we are doing and participating in that. 
But what is going on relative to India and Pakistan if you 
would just briefly enlighten us?
    Ms. Gottemoeller. I would be delighted to do so, Mr. 
Frelinghuysen.
    You have seen the remarks of the President to the Indian 
parliament yesterday. We will continue to press them on the 
nonproliferation issues and work with them. He underscored that 
these are decisions that the Indian Government and ultimately 
the Pakistani Government need to make, but we believe they need 
to think very hard about whether their security will be 
improved by proceeding down the road and whether they will not 
be, in fact, straining and stressing their budget, their 
resource base, at a time when they have many social programs to 
be concerned about and perhaps conventional armed forces to be 
concerned about, too, in terms of where they want to take those 
in future years.
    So the President has really underscored the message that it 
is their decision to make, but it is a weighty decision and one 
they must go into with eyes certainly open.
    As far as the----
    Mr. Frelinghuysen. Do we have people on the ground in India 
and Pakistan, and are these DOE people? I am sure we have 
Intelligence people, but--since this is a closed hearing, I am 
sure we have Intelligence, but do we have DOE people there?
    Ms. Gottemoeller. I wanted to tell you some of the 
activities we at DOE have begun with the Indians.
    When Secretary Richardson was there in the fall, he pressed 
them quite hard about beginning to work with us on CTBT 
monitoring, as the Indians have indicated publicly their 
willingness to sign the CTBT, and he drew them into the 
technical aspects of it, as well as the fissile material cutoff 
treaty. We want to develop a community of interest with the 
technical communities on their side with thetechnical 
specialists and scientists so they begin to feel some of the 
responsibilities of international nonproliferation regimes and the 
requirements that they should begin to lift themselves. They need to go 
some heavy lifting in this regard.
    As a technical agency, we were willing to work with them on 
seismic monitoring and again preparing for the fissile----
    Mr. Frelinghuysen. You use ``were,'' or ``are''? Is this 
purely diplomatic at the moment, or do we actually have 
individuals in there?
    Ms. Gottemoeller. We do actually have a DOE representative 
at the embassy in New Delhi, Ms. Joan Rolfing. She is working 
with them. I would say we are working to get this kind of 
cooperation developed on a government-to-government basis and 
have pressed the Indian Government to enable us to work on a 
government-to-government basis.
    So far what they have allowed is what we call so-called 
``second track activities.'' They have been willing to let us 
work with their institutes, NGOs and research areas, but they 
haven't wanted to bring it to the government-to-government 
level yet.
    We will continue to press them. It is important to engage 
their scientists in this community of interest on 
nonproliferation policy regimes and planning on an 
international level.

                BUDGET FOR INDIA AND PAKISTAN ACTIVITIES

    Mr. Frelinghuysen. This committee deals with resources and 
obviously policy is critical. But are we actually spending 
money relative to what is going on in India and Pakistan in 
terms of your department?
    Ms. Gottemoeller. Yes, sir. We have a modest budget; I 
would have to get you the exact break-out.
    [The information follows:]

                           India and Pakistan

    In Fiscal Year 2000, the Department will spend 
approximately $1 million on India and Pakistan nonproliferation 
issues, and the Department plans to spend at least that much 
again in FY 2001.

                           India and pakistan

    Mr. Frelinghuysen. You have given us the highlights of the 
new spending, Nuclear Cities and IPP and all these things on 
the Russian front, but in reality the time bomb may actually 
be, you know, closer to go off in India and Pakistan than 
perhaps it would be in Russia.
    Ms. Gottemoeller. Well, they are a lot farther away from 
having deployment of a very big nuclear arsenal, which is what 
we face.
    Mr. Frelinghuysen. You don't need much if you are cheek-by-
jowl with your neighbors. I am not talking about something 
humongous; I am talking about something that is nuclear, but 
not an intercontinental ballistic missile. Just a small missile 
will do potentially some damage.
    I am wondering whether we are in there on the ground.
    Ms. Gottemoeller. Yes, sir.
    One thing I would like to mention is our work through the 
Cooperative Monitoring Center at Sandia; that is where our 
extensive work has gone on over the years. We have brought 
Indians and Pakistanis to Albuquerque and got them working 
together on monitoring technologies, again technical approaches 
to these problems, but how can they work together to monitor 
what is going on in the Kashmir issue and monitor in a 
nonsensitive way each other's activities. We have had a great 
deal of nitty-gritty work going on which is appropriate to 
DOE's role as a technical organization.

                   SPENT FUEL PROGRAM IN NORTH KOREA

    Mr. Frelinghuysen. Keep us posted.
    Before I go to Mr. Edwards--North Korea, what's the current 
status of their spent fuel program? Sometimes around here we 
sort of tend to forget they are still a rogue nation, and maybe 
it is appropriate we hold them pretty close, but they are 
pretty separate from us in many ways.
    What is the status of that program and what sort of 
reassurances can you give us that things are actually 
proceeding according to the objectives that were laid out and 
agreed to?
    Ms. Gottemoeller. Mr. Frelinghuysen, I appreciate the 
opportunity to talk about some of our activities outside of 
Russia, because DOE is on the front lines in a number of areas 
around the world. South Asia is one. But North Korea, I can say 
from the DOE perspective, we have been able to move forward 
steadily with them on the canning of the spent fuel rods from 
the Yongbyon reactor.
    There are 8,000 spent fuel rods that we have cannisterized 
over the last several years. That project is nearly completed 
at the present time. We are finishing up with some broken rods 
that were in the bottom of the fuel pool there.
    Mr. Frelinghuysen. The current date for completion is in 
the near future?
    Ms. Gottemoeller. Very near future.
    Mr. Frelinghuysen. And what is the total cost of the 
project?
    Ms. Gottemoeller. The total cost for that project?
    Mr. Lambert. Year to date is approximately $30 million.
    Mr. Frelinghuysen. Could you identify yourself for the 
record?
    Mr. Lambert. Jim Lambert.
    Ms. Gottemoeller. Jim is my Budget Director.
    It is approximately $30 million to date. I expect we will 
be making an announcement this summer about the final status. I 
should stress that all the fuel rods, intact fuel rods, have 
been cannisterized and placed in a lock-down system that 
permits the IAEA to extend safeguards over them.
    Mr. Frelinghuysen. We will have a continuing role after 
this program is completed?
    Ms. Gottemoeller. Yes, eventually the fuel rods will be 
moved out of the country.
    Mr. Frelinghuysen. And to where?
    Ms. Gottemoeller. That is a good question, sir.
    Mr. Frelinghuysen. There are all sorts of questions that 
drive me absolutely crazy here. The thought we might be taking 
them--we can't even deal with our problems; are you suggesting 
they might be coming over here?
    Ms. Gottemoeller. No, sir, I am not suggesting that.
    Mr. Frelinghuysen. Isn't there a place maybe like 
Kazakhstan where we can put this?
    Ms. Gottemoeller. We suspect the first movement out of the 
country; and it is linked to construction of the light water 
reactors in 2005, so we have planning time. There are planning 
options to consider.
    Mr. Frelinghuysen. Thank you.
    Mr. Edwards.

                  Groundwater Contamination at Pantex

    Mr. Edwards. Thank you, Mr. Chairman. General Gioconda, at 
the Pantex plant we have groundwater contamination.
    General Gioconda. Yes, sir, frankly, we knew the reporting 
of the levels was done; however, it was not highlighted as the 
rules say it is supposed to. The State also picked up the same 
measurement or worse measurement.
    We have taken soil samples. It was picked up in the normal 
review of documentation, and then it was reported widely at 
that point.
    What the Secretary has done is initiate a review of what 
broke in the process, but more importantly, what the situation 
is. We have environment, safety and health experts on the 
ground with the team from DOE defense programs. Also, our 
environmental management people are on the ground right now.
    The good news is, we are going to dig some more wells to 
check and see if it is spreading. We did some initial 
measurements in the beginning of March on neighboring 
properties, and those measurements have been transmitted to the 
owners. So we are working with the local people there to be 
sure we stay on top of this, but right now it looks like we 
have got it contained. We are still trying to figure out what 
broke in our reporting structure.
    I was asked the question by Congressman Thornberry. It 
looks like no one was covering up anything. It was reported; it 
just was not picked up.

                Extent of The Groundwater Contamination

    Mr. Edwards. How wide an area of groundwater has been 
contaminated.
    General Gioconda. It is within the confines of the Pantex 
plant itself; and how far, we are trying to determine that 
right now----
    Mr. Edwards. Okay.
    General Gioconda [continuing]. By additional wells.
    Mr. Edwards. Much of this is public. This is a classified 
hearing, but how much is public back in Amarillo? It is not in 
my district; I don't read their newspapers.
    General Gioconda. Virtually everything I told you and much, 
much more has been released. There have been public hearings 
where DOE officials have gone down there and answered all the 
questions of the people. It is a very, very open process.
    Nothing has been classified in this matter whatsoever, that 
I know of. If it has been kept from me--all the questions were 
answered in the public hearings. There has been a communication 
with the cities back and forth. It is a very open process so 
far.

                   Cause of Groundwater Contamination

    Mr. Edwards. Do we know how the groundwater was 
contaminated?
    General Gioconda. Sir, it was a cleaning solution that was 
used; and it went to a burn area where it would be allowed to 
evaporate or we would actually burn it. That is where it must 
have seeped into the ground at some point.
    That is about the best layman's description--from a history 
major--that they described for me, how it got there and what 
else--we are still looking at the records, but it looked like 
it came into the burn area where it was supposed to evaporate 
or be burned.

                    Date When Contamination Occurred

    Mr. Edwards. How long ago do we think that happened?
    General Gioconda. At least 10 years ago they stopped using 
that material. So it is quite a time ago.
    Mr. Edwards. It could have been contaminated quite a while?
    General Gioconda. Yes, sir.
    Mr. Edwards. That is amazing to me, Mr. Chairman, about the 
hearing yesterday on Paducah, Kentucky; and today. It is not 
that I expect perfection, but in an area of all areas where 
people have to trust the government to protect the safety and 
well-being of themselves and their families, is this area just 
too complex, and important for the average citizen to know just 
what to recommend?
    It seems to me that trust has been broken, not just 
pointing at anyone here, but over a series of Administrations 
that trust has been broken when it comes to protection of 
families from exposure to nuclear material. I just don't 
understand between yesterday and today how it has taken so 
long--and in the case of Paducah, it took a whistleblower, not 
the Department of Energy--to bring this problem to the front. 
Somewhere in this process--not just this morning, but we have 
to figure out why the system has been broken.
    There is a pattern now, Paducah and Pantex and gosh knows 
where else, we have families perhaps exposed to contamination.
    But I appreciate your focus on this issue, and in the 
months ahead I hope we can learn more about how the DOE that 
has been given the trust by this government and the American 
people, how did it not have a process in place that could see 
that problems are occurring in the area of nuclear 
contamination that exposes our families.
    General Gioconda. Sir, I would caution against comparing 
the two, because in Paducah a whistleblower brought in the 
information. We are finding these things out, there were over 
850 samples made, the wells drilled and it was detected. And it 
was the first time it was ever detected even though it has been 
looked for over many, many years, and the alert--the one event 
that happened, the alert was reported. It just wasn't picked up 
in the process.
    So it was a screw-up; I am not denying that. But it was 
detected by the contractor and the DOE oversight, which 
corrected it. So the system of backup, if you will, did work. 
It just worked late, and that is a key to this.
    We knew that this was a problem. They knew that this 
material was in the ground and they were keeping track of it 
through those wells. The wells were there basically to monitor 
making sure it stayed confined to the area we thought it was 
in.
    Mr. Edwards. They had known about the material. I am glad 
we have a system for checking the groundwater, but after it 
started contaminating the water, it is awfully late, like 
putting the toothpaste back in the tube now.
    You are saying our system worked in terms of we knew this 
material has been placed in the ground, we knew it for years?
    General Gioconda. Yes, and we were looking for it. The 
samples and so on, we knew, we were trying to be alert to those 
things and be alert how far it was spreading. We knew it was in 
the soil in the burn area.
    Mr. Edwards. How long had we known that?
    General Gioconda. I would have to look that up.
    Mr. Edwards. Ballpark: 2 years, 8 years, 5 years, any 
ballpark estimate?
    General Gioconda. We have known some 10 years.
    Mr. Edwards. Ten or 15 years?
    General Gioconda. That is right.
    Mr. Edwards. The decision was made not to do it.
    General Gioconda. We were looking at the fact, would it 
spread, did it spread; and we were trying to make sure it 
stayed in the contained area. What surprised everyone, it was 
the first time in all the monitoring that it occurred in that 
area; and it only occurred in one well of the many wells that 
are dug there.

                            Cost of Clean Up

    Mr. Edwards. What would it have cost 5 or 10 years ago to 
actually clean up that area?
    General Gioconda. Some cleanup was done of the burn area, 
but it went into the soil deep enough where they did everything 
they could. That is why we are trying to determine how much and 
how far it has spread because it may not be as widespread as 
you would think. There was action to clean the burn area.
    Mr. Edwards. Just didn't get everything?
    General Gioconda. It went into the aquifer.
    Mr. Edwards. This is into a aquifer?
    General Gioconda. Yes, sir. It goes over several States, 
sir, this aquifer.
    Mr. Edwards. Okay.
    General Gioconda. All the TCE is--what we are talking about 
was remediated as part of Pantex's environmental restoration 
program. That was already part of the program. But in all these 
cases of cleanup, they knew how far it went; it could only go 
so far in cleaning up the soil, if you will.

                    Groundwater Remediation Efforts

    Mr. Edwards. This is my last question, Mr. Chairman.
    If it is already in the aquifer, does it mean much when you 
say earlier it is contained within the site if this is a 
multistate aquifer? What will keep it out? It is not like you 
can build a wall in the aquifer. What is to keep the 
contaminated water from spreading throughout the area?
    General Gioconda. That is why the environmental management 
team is on site. There are several processes, I am not expert 
on, that can be taken--everywhere from putting another chemical 
in, basically to remediate it, to basicallyputting a well in to 
shoot it up to the surface and purify it as it goes through.
    If you can confine it to a particular area, that is a 
possibility. I want to be sure you understand, also, that in 
the Pantex drinking water itself, it was not detected. But we 
are still looking and making sure it is not detected outside 
the area.
    A lot of activity is focused on cleaning this up. So, I 
would caution not to compare the two incidents because there 
are a lot of different strains that are much different.
    Mr. Edwards. I hope you are correct.
    Mr. Frelinghuysen. Mr. Latham.
    Mr. Latham. Thank you, Mr. Chairman. Coming in and seeing 
this device you shoved over to me and not knowing what it is--
--
    General Gioconda. It is a safety device, so you are in good 
shape.
    Mr. Frelinghuysen. It is a corn monitor.
    Mr. Latham. Does it make ethanol or something?
    Mr. Frelinghuysen. Stand by.

                      SECURITY CULTURE AT THE LABS

    Mr. Latham. General Habiger, I would like to go to some of 
the security issues that have, in the past, brought so much 
adverse publicity and comment. I think the biggest problem that 
became very apparent last year came in the culture at the labs, 
a bunch of academics sitting down with colleagues from other 
countries discussing things that maybe they should not be 
discussing. I am curious as to what kind of resistance you are 
finding in that culture. Are the people wanting to change, or 
is it more difficult than what you anticipated?
    General Habiger. Congressman Latham, as I looked at this 
problem of security at our Department of Energy facilities, 
there are two aspects. One is the physical aspects of gates and 
guards and cyber security, and the area your folks are 
interested in. But we had lost our focus on security; the Cold 
War is over, why worry about security?
    That was a mistake. Now we are regaining that focus. We 
have a security awareness program. We are trying to get 
people--and we have made significant progress in my view--to 
think about security like safety. If you have a safety problem 
in your laboratory, you are going to shut down the operation 
until you get it fixed. The same applies to security. That 
culture is changing.
    I have discovered a lot about scientists I didn't know 
about until I got this job. Number one, they have big egos, and 
they should because they are very, very smart, especially 
nuclear physicists; two, they take great pride and umbrage in 
their ability to communicate with colleagues all over the 
world.

                 FOREIGN VISITS AND ASSIGNMENTS PROGRAM

    Now, we had a wake-up call. We have gone to great lengths 
to institute, thanks to support of the folks here in Congress, 
a very robust Foreign Visitors and Assignments program, so when 
we get foreign visitors at our facilities, we run them through 
an indices check. That is something my colleague, Ed Curran, is 
working on in the counterintelligence side of the house.
    I have an organization that is developing this capability, 
and we will have a system--a state-of-the-art system up and 
running on the 1st of June. We are continuing to operate under 
the old system, but on June 1 we will have an automated system 
that will help us significantly.
    We really didn't have a whole lot in the way of badges for 
these foreign visitors when they came to our facilities. In our 
nuclear laboratories we had a lot of controls. In our Tier 2 
labs, like Brookhaven or Argonne East near Chicago, foreign 
visitors didn't wear badges that identified them as foreign 
visitors with the name of country, a different color badge.
    We are going to force foreign visitors, if you will, sir, 
when they come to our labs where we do any amount of classified 
work, to be identified as such. I will tell you that scientists 
at those labs don't like that idea, but that is the clout I 
have being a czar.
    Mr. Latham. Why?
    General Habiger. Why, because it impinges on academic 
freedoms.
    Now, is this something that will be a show-stopper? No, it 
is not.

                         IMPORTANCE OF SECURITY

    Mr. Latham. The general culture though, do you think people 
are becoming more aware? Is there any way to get through to 
these people the importance of security?
    General Habiger. Yes, sir, there is. If you look at our 
Tier 1 labs--Lawrence Livermore, Sandia and Los Alamos--they 
understand in no uncertain terms we have had a wake-up call, 
and they have to toe the line more significantly than what we 
had before we had our wake-up call.
    Our Tier 2 laboratories, where we are doing some classified 
work, a lot of academic work, there is some resistance because 
this is new for them, these new procedures we are putting in 
place.
    I am satisfied, sir, that the culture is changing.
    General Gioconda. If I may add, the three weapons labs 
report to me, and I could echo what the General is saying. They 
are very aware of what they are doing. There have been some 
cultural changes in how you deal with some of the things we are 
doing, but they have the message very clearly.

                      FY 2000 SUPPLEMENTAL REQUEST

    Mr. Latham. I hope so.
    It is interesting, you have a $8 million supplemental 
request. Did you request this prior--in the budget proposal or 
to OMB last year, and it wasn't part of the budget requestby 
OMB?
    General Habiger. Well, no, and this is a sore point. If you 
give me just a minute I will express myself very candidly.
    Mr. Latham. Please do.
    General Habiger. I had been in the job less than a month 
when we sent over a fiscal year 2000 supplemental for $65 
million to clean up the security problems that had been 
identified by the Rudman report and Cox Commission report. That 
went over on the 13th of July, $65 million.
    We received a total of $10 million out of that request for 
$65 million.
    Mr. Latham. From OMB?
    General Habiger. No, sir, this is as it worked through the 
Hill here.
    Mr. Latham. Okay.
    General Habiger. Jeanne Wilson and I traded conversation on 
this a couple times. Of that $10 million, $7 million was 
viable, $3 million was for things I would not have spent the 
money on because they were not directly related to our problem.
    So we asked for $65 million, we got $7 million. This 
additional $8 million will bring us up to $15 million. As you 
well know, and I am a realist, the clock goes on and we are 
halfway through the fiscal year, so could I use an additional 
$55 million today? No. I could use a lot more than the $8 
million, but I will take the $8 million and run with it and put 
it to good use.

                            Declassification

    Mr. Latham. One additional question, as far as 
declassification. I see in your testimony that in your review 
you have discovered declassified documents containing 
restricted data and formerly restricted data.
    How much has been out there for other people to look at 
before you had this review? Are there significant secrets that 
have been declassified?
    General Habiger. Sir, the information that has been 
declassified--I have had an opportunity to actually look at 
some of the documents that were declassified--we are talking 
about generally historical kinds of information, information on 
the 1950s and 1960s.
    Now, for someone as sophisticated as the United States or 
Russia or China, not very relevant; but for a Pakistani or 
Indian or North Korean, probably relevant.
    Now, I am not trying to make excuses, but none of the 
inadvertent declassification was done by Department of Energy 
people. They were done by other agencies within the government.
    Mr. Latham. Who else has access?
    General Habiger. Well, Department of Defense, Department of 
State, we have gone on an ambitious, rigorous, aggressive 
retraining program. We have retrained an additional 1,000 
people in the Department of Defense, Department of State and 
other agencies in the government; and we are going to be 
training an additional 500 people for those other agencies.
    We are the watchdog, sir, and we have got a team of unsung 
heroes out in Maryland, College Park, doing great work.
    Mr. Latham. Are you able to trace which department 
declassified each part?
    General Habiger. Yes, sir.
    Mr. Latham. Thank you.

                 Russian Spent Nuclear Fuel Repository

    Mr. Frelinghuysen. I am afraid we will not give you a 
break. Mr. Latham may leave, but I have a few questions until 
the ranking member comes back. And he will have some questions. 
I have some questions.
    To Mrs. Gottemoeller, the press recently reported that 
Russia has drafted an ambitious proposal to earn $21 billion 
over the next 10 years--this is what I call in the unmitigated 
gall category, over the next 10 years--by importing 20,000 tons 
of spent nuclear fuel from Asia and European countries for 
storage and eventual reprocessing in Siberia.
    Are you familiar with this proposal, and how does this 
proposal reconcile with the current efforts of the U.S. to 
negotiate a moratorium on future plutonium production in 
Russia?
    Ms. Gottemoeller. Sir, there are actually several proposals 
out there which we are aware in the government.
    I want to begin by stating that the USG is not supporting 
or working with the Russians on any of those proposals.
    Mr. Frelinghuysen. We know they are desperate for cash.
    Ms. Gottemoeller. We know they are interested, and indeed 
the press in Russia, as well as here in the United States, has 
reported on some of these proposals over the past 6 months. The 
Russians have a great deal of work to do on their side in that 
they must change their national legislation before they could 
proceed to develop any of these ideas. Their current national 
legislation prohibits the return of spent fuel to Russia, 
foreign spent fuel to Russia for storage or treatment.
    Mr. Frelinghuysen. Are they known for obeying their own 
laws?
    Ms. Gottemoeller. In this case, yes, they have a rather 
strong environmental movement that has been a significant 
watchdog in this regard. But the Russian Government is 
currently looking at changing that legislation, so we are in a 
wait-and-see mode as to whether they actually proceed forward 
to develop any of these ideas, because they have to make a 
significant change in their law.

               MORATORIUM ON FUTURE PLUTONIUM PRODUCTION

    Mr. Frelinghuysen. What about this proposal reconciling 
with our efforts to negotiate a moratorium on future plutonium 
production?
    Ms. Gottemoeller. What we are trying to do with the 
Russians is to block the current hole in our cooperation with 
them on production of weapons-usable nuclear materials. We have 
concentrated over the past decade on understanding their 
defense nuclear materials plutonium and highly enriched 
uranium, but we have not wrestled with the problem of their 
reprocessing 2 metric tons of plutonium a year from their 
civilian fuel cycle.
    The Russians have agreed they are willing to proceed 
forward with a long-term moratorium, a minimum of 20 years and 
could be longer to halt this production; and they have also 
agreed that their goal is to develop technologies that would in 
the future result in plutonium being consumed by a process 
rather than reproduced by a process.
    That is also a goal of efforts that we have under way, for 
example, in plutonium disposition; current reprocessing results 
in production of further plutonium, but in the future it is 
technologically possible, we believe, to develop new fuel cycle 
technologies that would result in the consumption of plutonium. 
That is one of the reasons we are interested in working with 
them on a research program to develop these kinds of 
proliferation-resistant technologies dependent on their 
willingness to halt cooperation with Iran.
    Mr. Frelinghuysen. So I can understand this as a layperson, 
this proposal they have outlined may not be legal under their 
own laws, but if in fact they pass laws and they go ahead with 
it, will it affect our negotiations process?
    Ms. Gottemoeller. Well, we would not in any way agree to 
proceed forward with them on a proposal that included any kind 
of reprocessing; and so we are dead serious about this 
moratorium on reprocessing, and we are glad that they have 
finally taken the big step to recognize that it is time to call 
a halt to reprocessing as well.

                RUSSIAN GEOLOGIC DISPOSAL OF SPENT FUEL

    Mr. Frelinghuysen. This question may have been asked, but 
it is such a good one, I can't help but ask again: You are 
proposing to provide funding to Russia for geologic disposal of 
spent nuclear fuel; is that right?
    Ms. Gottemoeller. It is a research program to look a some 
of the technologies. The Secretary of Energy, Mr. Richardson, 
had a very successful conference in Denver in October of this 
year, an international conference to which we invited a number 
of countries to look at geologic repository technologies. And 
so we have essentially invited the Russians to join us in 
further research on that subject, as we have been interested in 
international research on this area across the board.
    It is an important follow-on to the Secretary's conference 
in October, in one sense; in another sense, it supports our 
overall initiative to move forward with the Russians in looking 
at other ways to address our nuclear waste problems than 
reprocessing.
    Mr. Frelinghuysen. In Russia, political science may affect 
sound science the same way we are having problems coming up 
with our disposal--meeting our responsibilities, wouldn't you 
say?
    Ms. Gottemoeller. Sir, I think it is inevitable there are 
going to be many factors in future Russian Government decisions 
in this regard.
    I mentioned the fact they have quite an active 
environmental community which has had quite a bit to say about 
their efforts to change their laws on international spent fuel 
storage. So, yes, I think it is inevitable, those kinds of 
arguments will play a big role.
    Mr. Frelinghuysen. We are going to take a brief recess 
because I don't know what happened to the ranking member. We 
both hope to be back.
    Thank you.
    [Recess.]
    Mr. Frelinghuysen [presiding]. We would like to reconvene. 
The ranking member and I apologize for the delay. We did not 
know there would be two votes; one was held for much too long.
    To the ranking member, the floor is yours.

                  NAVAL REACTORS ACTIVITIES IN RUSSIA

    Mr. Visclosky. Could I ask what the Office of Naval 
Reactors is doing in Russia at this point in time? Are they 
undertaking any projects, any activities?
    Ms. Gottemoeller. Not that I know of, sir.
    General Gioconda. No, sir, they don't report to either of 
us. They are another agency of the NNSA. He is a four-star, 
too. I know my position.
    Mr. Visclosky. So to the best of your knowledge, the office 
is not involved in Russia today?
    Ms. Gottemoeller. The Office of Naval Reactors, to the best 
of my knowledge, is not involved in Russia.
    Mr. Visclosky. Under either of your jurisdictions?
    General Gioconda. Yes, sir.

                 MPC&A ACTIVITIES WITH THE RUSSIAN NAVY

    Mr. Visclosky. Under the initiative, I assume part of the 
$15 million is going to go to the Russian facilities as far as 
naval reactors.
    Ms. Gottemoeller. Part of the $15 million----
    Mr. Visclosky. $15 million to implement the MPC&A?
    Ms. Gottemoeller. Yes, Sir, that is correct. Yes, we have 
actually had a very successful collaboration with the Russian 
navy, not on any of their naval reactor or operational programs 
in any way, shape or form, but they have had a very difficult 
situation with regard to the secure storage of the fuels for 
their ice breaker fleet and also for their submarine fleet. So 
we have basically been building central storage facilities, 
secure storage facilities, with them, first of all in the 
Northern Fleet area--that was completed in September.
    We are also working on a central storage facility in the 
Far Eastern Fleet as well, which should be completed this 
spring. So it is again very bread-and-butter material 
protection work, building secure facilities and putting fences 
around them.
    Mr. Visclosky. This is for the used fuel?
    Ms. Gottemoeller. No sir, it is for fresh fuel. It is for 
fuel that is used in their submarines and in their ice 
breakers. And because it is fresh fuel, it is more of a direct 
proliferation threat. It doesn't in other words, have to be 
reprocessed to get weapons-usable material; it is directly 
weapons-usable.
    Mr. Visclosky. Under the new initiative, will you be 
involved as far as the reactor compartments in used fuel?
    Ms. Gottemoeller. At this time, sir, we have not proceeded 
on a proposal that the Russians have made to us to cut up 
general purpose submarines. We are still looking at that 
problem with the Russians. We have a study going on with the 
Department of Defense to look at the breadth of that problem 
and try to determine whether there are any national security 
threats there to the United States, at which point we may come 
to the Congress and discuss with you the possibility of 
cooperation in disposing of general purpose submarines. But at 
the present time, we have no proposal in that regard.

                         NUNN-LUGAR ACTIVITIES

    Mr. Visclosky. With Nunn-Lugar, we are doing weapons; we 
are not doing subs under Nunn-Lugar, as I understand it.
    Ms. Gottemoeller. The Department of Defense is working with 
the Russians to cut up the strategic strike submarines, the 
large ballistic-missile-launching submarines. That is a very 
successful program. They have really picked up the pace, and 
this year are starting to cut up the Typhoons, the biggest of 
their submarines. That is very successful program.
    Mr. Visclosky. That is being undertaken with DOD dollars?
    Ms. Gottemoeller. Correct, yes, sir.
    Mr. Visclosky. What would be new about the initiative in 
the FY 2001 Budget Proposal?
    Ms. Gottemoeller. The work that we have done so far with 
the navy has built up a great deal of trust on the Russian 
navy's part, and they are willing to let us into more and more 
sensitive sites, particularly weapons-handling facilities. We 
experienced with them in the last year a real close-to-the-bone 
sense of their crisis with regard to materials inside their 
overall complex.
    [DELETED]
    Again, sir, that is sensitive, classified information.
    Mr. Visclosky. So the difference in distinction between 
Nunn-Lugar and what you are doing is security as opposed to the 
cut-up of the subs and the weapons themselves?
    Ms. Gottemoeller. The Russians have been working with DOD 
now on cutting up the submarines, yes, that is correct, and we 
have been working on materials protection.
    I should take note of the fact that we have a good working 
partnership with the Department of Defense because they are 
purchasing perimeter fencing to use at warhead sites throughout 
the complex that belongs to the Ministry of Defense. We have 
been working with just the navy so far. We have a good working 
partnership with them, that if we can make use of their 
perimeter fence kits in our work, then we do so, and we 
cooperate with them very closely.

                  OFFICE OF NAVAL REACTORS ACTIVITIES

    Mr. Visclosky. Would you anticipate, as you proceed, that 
the Office of Naval Reactors is going to be involved in any 
way?
    Ms. Gottemoeller. I don't suspect so, sir. They are fully 
focused on their domestic mission.
    Mr. Visclosky. Would either of you have any information as 
to the progress they have made on their direct energy 
conversion reactors?
    Ms. Gottemoeller. No, sir, I am sorry, I am not aware of 
that.
    Mr. Visclosky. Thank you, Mr. Chairman.
    General Gioconda. Sir, I will be sure to go back and ask 
Admiral Bowman and make sure he comes out to give your staff 
the data.
    Mr. Visclosky. Thank you.

                INITIATIVES FOR PROLIFERATION PREVENTION

    Mr. Frelinghuysen. Just a few brief questions and then we 
will conclude.
    On the IPP, Initiatives for Proliferation Prevention,how 
much funding in the IPP program is used for scientists in Russia or the 
Newly Independent States who work on chemical or biological weapons? I 
know you have mentioned the 6,000, I guess they are physicists, on the 
nuclear side. What are we doing on the weapons of mass destruction 
side, biological and chemical?
    Ms. Gottemoeller. Chemical and Biological? Mr. 
Frelinghuysen, I am afraid I don't have that information at my 
fingertips, but I can get you that information.
    Mr. Frelinghusyen. It is something that I think the members 
of the committee have a continuing interest in.
    [The information follows:]

             Initiatives for Proliferation Prevention (IPP)

    Since its inception, the Initiatives for Proliferation 
Prevention program has engaged approximately 7,200 NIS 
scientists and engineers, approximately 645 of which have been 
scientists and engineers engaged in completed or ongoing 
chemical and biological projects. Regarding funding of the 
scientists and engineers engaged in chemical and biological 
projects, a total of $13.2 million of IPP has been spent to 
date. By the end of FY 2000, approximately $3.3 million will 
have been spent and approximately $3.6 million in FY 2001.

                        SECURITY CENTER AT LANL

    Mr. Frelinghuysen. On the nonproliferation and 
verification, research, R&D, the security center under 
construction at Los Alamos, what is its status very briefly; 
and will an environmental impact assessment be issued for the 
facility, particularly in light of biological proliferation and 
terrorism missions?
    Ms. Gottemoeller. It is my understanding, sir, that the 
environmental assessment has already been completed for that 
facility, yes. They are moving forward now to prepare the site 
for actual construction. So all the paperwork has been done at 
this point. We are currently in final approval states for the 
design process and the real construction will begin in the next 
fiscal year in 2002.

                     EXPORT CONTROL BUDGET REQUEST

    Mr. Frelinghuysen. And, lastly, export control operations, 
your fiscal year budget reflects approximately a $400,000 
increase in funding due to the rising number of export 
obligations.
    That whole area is of particular interest to me. I do get 
people in my office asking me about this and that. I am not 
sure exactly what goes on, but can you provide us with the 
number of export applications you received and processed? Any 
general comments about that responsibility that you would like 
to briefly share with us?
    Ms. Gottemoeller. Yes, sir, I think it is important to 
note, in consonance with General Habiger's work, that we have 
taken very seriously the necessity of working with our labs to 
train them on export control requirements for technologies that 
may flow through the DOE complex and get into the hands of 
foreigners. So we have been very, very careful in working with 
our labs on this in the past year; and furthermore, a part of 
the funding that we are requesting in the coming year would be 
used for further lab interactions and training, particularly 
for training activities
    [The information follows:]

                      Export Control Applications

    In FY 1999, we received and processed 3,560 export control 
applications. In FY 2000, we anticipate an increase of 
approximately 10 percent over FY 1999, in the number of 
applications received and processed.

                        EXPORT CONTROL TRAINING

    Mr. Frelinghuysen. So is it fair to say that the training 
is uniform and consistent across all the labs?
    Ms. Gottemoeller. We are working to make it that way. We 
have been concentrating on the weapons labs quite heavily. We 
want to make sure that the same kinds of training are available 
to all of our lab facilities.
    Mr. Frelinghuysen. Thank you. Anything else?

                   LIVERMORE AND LOS ALAMOS CONTRACTS

    Mr. Visclosky. Just if you would for a moment, Mr. 
Chairman.
    Is there any preliminary indication you can give us as to 
the Department's thoughts on opening up the Livermore and Los 
Alamos contracts to competition?
    General Gioconda. Yes, sir. What the Secretary has said 
privately is that he wants us to look at options, what would be 
his options, and to study that. And I am on the hook to report 
back to him on opening the whole University of California 
contract tocompetition.
    He hasn't made a decision one way or the other, but he has 
asked for options, the pluses and minuses, and I am due back to 
him midyear to do that.
    Mr. Visclosky. General, in our earlier discussion about 
plans----
    General Gioconda. Sir, if I may, he doesn't have to make 
that commitment. It is a 2002 contract, but he wants to look at 
the options and review what his options are.

                 RETAINING AND RECRUITING SKILLED STAFF

    Mr. Visclosky. Earlier in our discussion about plans, we 
talked about people. I assume you have a similar problem as far 
as the labs, bringing people in?
    General Gioconda. Yes, sir. That was one of the things I 
was referring to. Los Alamos gave a job fair where there used 
to be hundreds of post-docs showing up for these job fairs. 
What happened was, no one showed up; then after an intensive 
recruiting effort, only about 30.
    One of the issues that we have addressed in our budget, we 
are asking for the lab directed research and developments funds 
to go up from 4 percent to 6 percent, back to where it was 
prior to last year. The reason is, we are looking at an impact 
there on the post-doc people. You put your new people on those 
types of projects to test their mettle, to get them excited 
about the new technologies and all of that.
    That has had a dramatic effect on the recruiting and 
retention rates at each of the labs. We have had some cutbacks 
in the programs, and we have always had--not had to worry about 
them because the retention rate is such that we are losing 
about 300 people per lab per year.
    We are only replacing about 40 percent of the technical 
talent every year, and sooner or later that becomes a very big 
problem if you are not hiring at one end, you are not retaining 
in the middle, and you are aging out at the other end. That is 
why I mentioned people and infrastructure being the two things 
that would keep--should keep me awake every night.
    Mr. Visclosky. Obviously, there are a lot of conflicts with 
all of our schedules today and everybody on the subcommittee 
has an interest, but I do find it interesting that Mr. 
Frelinghuysen and myself are both on the Defense Subcommittee, 
too, and we happen to be the last two standing here.
    General Gioconda. Sir, I am on loan from the Defense 
Department.
    Mr. Visclosky. I will keep that in mind. I wish you 
weren't.
    I guess if I could just editorialize for about 60 seconds, 
I do realize you are in acting capacity. Your predecessor--and 
of course, you have problems at the labs, too--talked about the 
labs a great deal. I was struck by your admission to Mr. 
Edwards that you are not a rocket scientist, you are a history 
major, but that you lie awake at night worrying about 
infrastructure and people. And the fact is, I guess, if I have 
a disappointment on the Defense Subcommittee and this 
subcommittee, it is every year you look at the real property, 
you look at infrastructure, you look at those issues that 
aren't--like I say, they aren't glamorous; we just have not met 
our responsibilities. It is a very serious problem.
    General Gioconda. Sir, they are related, too. If you don't 
have a world-class organization, world-class people won't come 
there. They are related in your recruiting and what you are 
asking them to work on.
    We have exciting science to work on, but you have to have 
the whole package for people, because we are in stiff 
competition for the best and brightest minds out there. We have 
to entice them with those types of things because the pay scale 
is not comparable for what the economy is giving these people 
these days.
    Mr. Visclosky. I was happy you mentioned it. I just am 
concerned that we will then have a permanent director and then 
we will not necessarily start all over, but it always seems 
like it is not at the top of people's agendas. I am happy it is 
at yours.
    General Gioconda. Sir, it is; and below me, the people that 
are behind me are working on that right now. That is one of the 
first things that we will bring in to the new director, not 
only the deputy administrator, but also the administrator of 
the NNSA, when he gets on board and confirmed.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. This line of questions is excellent. I 
think it is important that you share with us any statistics 
relative to recruitment and retention. I mean, you are not 
alone in that. These days, there is a lot of competition out 
there in the private sector. People could certainly do far 
better.
    But your work is important. All of us are grateful for what 
you do each and every day. You still are standing. As a history 
major, I would like to bring this meeting to adjournment and 
say on behalf of Chairman Packard and all the committee 
members, thank you very much.
    [The questions and answers for the record follow:]
    Offset Folios 597 to 1089/1600 Insert here

<SKIP PAGES = 493>



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Gioconda, Brig. Gen. T. F........................................   403
Gottemoeller, Rose...............................................   403
Habiger, E. E....................................................   403
Huntoon, Dr. C. L................................................     1
Itkin, Dr. Ivan..................................................     1


                               I N D E X

                              ----------                              

                   Office of Environmental Management

                                                                   Page
Advisory Board Funding...........................................   233
Alpha-Particle Immuno-Therapy....................................   336
Appropriations and Obligations...................................   243
Atlas Site in Moab, Utah.........................................   128
Biography-Dr. Carolyn L. Huntoon.................................    53
Brookhaven National Laboratory Cleanup...........................     4
Burlington Plant, Iowa...........................................   142
Cleanup at Paducah, Kentucky.....................................    78
Closure projects.................................................   259
Combining Cleanup Efforts........................................    90
Consolidated Incinerator Facility................................   177
Contaminated Plumes..............................................84, 85
Contamination across the Complex.................................    94
Contract termination costs.......................................   189
Contractor Travel.........................................108, 109, 238
Cost Benefit Analysis for New Disposal Facility at Oak Ridge.....   101
Defense Facilities Closure Projects..............................   259
DNFSB Recommendation 2000-1......................................   332
Environment, Safety and Health Costs.............................   240
Environmental Management Advisory Board Recommendations..........   190
EPA Groundwater Standard.........................................   375
Foreign Research Reactor Spent Nuclear Fuel......................   172
Funding Shortfalls...............................................    77
FUSRAP (Formerly Utilized Sites Remedial Action Program).......341, 343
Gaseous Diffusion Plants.........................................    79
Ground Water Plumes..............................................    79
Hanford...................................................143, 146, 149
Hanford enterprise companies.....................................   146
Hanford Tanks....................................................   337
Hanford Privatization Approach...................................     3
High Flux Beam Reactor (HFBR)....................................   379
Highly Enriched Uranium Blend Down Facility......................   177
Historically Black Colleges and Universities.....................   235
Idaho............................................................   138
Environmental Liability Costs....................................   111
Inspector General Recommendation.................................    99
Inventory of materials...........................................   290
Iowa Army Ammunition Plant.......................................   142
Laboratory Directed Research and Development.....................   239
Land Transfer at Los Alamos......................................   122
Lawsuit Settlement/Citizens Monitoring and Technical Assessment 
  Fund.........................................................265, 289
Liability Costs..................................................   111
Long Term Stewardship............................................   183
Los Alamos National Laboratory Land Transfer.....................   127
Low Level Waste..................................................   137
Low-Level and Mixed Radioactive Wastes....................345, 348, 374
Management Improvements..........................................     4
Materials in Inventory.........................................290, 302
Melt and dilute technology.......................................   171
Nevada...........................................................   153
Nuclear Nonproliferation in the Former Soviet Union..............    95
Nuclear Weapon Parts in Landfills................................    81
Oak Ridge........................................................   162
Office of River Protection.......................................   152
Onsite Storage...................................................   107
Opening Statement of Chairman Packard............................     1
Opening Statement of Dr. Carolyn Huntoon.........................     2
Opening Statement of Dr. Ivan Itkin..............................    54
Outyear Funding Requirement......................................   377
Paducah Cleanup Achievements.....................................    84
Paducah Cleanup Schedule.........................................    89
Paducah Cleanup..................................................78, 82
Paducah Contaminated Plumes......................................91, 92
Paducah DUF6 Nuclear Cleanup.....................................    90
Paducah Employment Levels........................................   180
Paducah Future Predicts..........................................    90
Paducah Landfills................................................80, 88
Paducah Management and Oversight.................................93, 94
Paducah Oversight Investigation..................................    81
Paducah Worker Health and Safety.................................    84
Performance measures.............................................   120
Portsmouth and Oak Ridge.........................................    82
Privatization..................................................109, 112
Privatization Contract...........................................   107
Privatization Projects...........................................   113
Program Taxes....................................................   254
Radiation Protection Standards...................................   376
Rocky Flats..........................................164, 165, 166, 167
Rocky Flats Environmental Technology Site......................339, 340
Safeguards and Security..........................................   242
Savannah River.......................................168, 171, 174, 178
Scoring Differences..............................................   107
Scoring of Vitrification Privatization Funds...................334, 335
Separations Process Research Unit and Knolls Atomic Power Lab....   303
Statement-Oral-Dr. Carolyn L. Huntoon............................     2
Statement-Written-Dr. Carolyn L. Huntoon.........................     6
Statement-Written-Dr. Ivan Itkin.................................    58
Termination Costs of Contracts...................................   189
Travel Costs.....................................................   109
U.S. Nuclear Waste Technical Review Board........................   378
UF6 Conversion Plants............................................   331
University Research in Robotics..................................   344
Uranium Enrichment D&D Fund....................................179, 180
Uranium/thorium reimbursements...................................   182
Waste Isolation Pilot Plant (WIPP)........................130, 133, 136
Waste Management Responsibilities Transferred to Generators......   262
Worker Health and Safety.........................................    92

            Office of Civilian Radioactive Waste Management

Accelerator Transmutation of Waste (ATW).......................329, 330
Alternative Approaches to Financing and Managing the Program.....   310
Biography-Dr. Ivan Itkin.........................................    57
Budget Request...................................................   304
Co-management....................................................    98
Community College System of Nevada.............................317, 318
Contract Recompetition.........................................313, 314
Contractor Travel................................................   327
Defense Contribution to the Nuclear Waste Fund..................97, 319
Defense Nuclear Waste Disposal.................................319, 320
Deposits into Nuclear Waste Fund.................................   307
Funding Peaks during Construction................................   308
Funding Requirements through Repository Opening..................   309
Funding Shortfalls...............................................    77
FY 2001 Activities...............................................    55
Groundwater Standard...........................................325, 375
Impact of Level Funding..........................................    77
Level Funding....................................................    86
Life Cycle Costs.................................................   306
Milestones of Opening Permanent Repository.......................   311
Nuclear Waste and Defense Contributions..........................    96
Nuclear Waste Fund Balance.......................................    87
Nuclear Waste Fund...............................................   307
Nuclear Waste Technical Review Board...........................378, 381
Outyear Funding.................................................87, 377
Oversight Funding................................................    96
Performance Measures.......................................55, 120, 321
Quality Assurance Program........................................   326
Radiation Protection Standards.................................323, 376
Recompetition of the M&O Contract................................    95
Russian Federation...............................................    97
Russian Initiative...............................................   322
Russian Institutes...............................................    99
S. 1287 Nuclear Waste Policy Amendments Act of 2000..............   305
State and Local Government Funding.............................315, 316
Statement-Oral-Dr. Ivan Itkin....................................    54
Statement-Written-Dr. Ivan Itkin.................................    58
Total System Life Cycle Cost.....................................   306
Viability Assessment Costs.......................................    87
Yucca Mountain...................................................55, 85
Yucca Mountain Costs.............................................    87
Yucca Mountain Milestones........................................    88

                    Atomic Energy Defense Activities

30 Day Stockpile Review..........................................   404
Accelerated Strategic Computing Initiative................518, 520, 522
Accelerator Production of Tritium................................   803
Accident Investigations..........................................   693
Arms Control.....................................................   584
Atlas Facility...................................................   506
Atomic Museum....................................................   538
Aviation Services Costs..........................................   537
AVLIS Program....................................................   534
B61-11...........................................................   823
Biography-Brigader General Thomas F. Gioconda....................   432
Biography-General Eugene E. Habiger (USAF, Retired)..............   463
Brain Drain Problem..............................................   817
Budget Categories................................................   829
Campaigns........................................................   405
Classification/Declassification..................................   623
Construction Pilot Program.......................................   406
Construction Projects............................................   406
Contract Recompetition...........................................   478
Contractor Employee Reduction by Site............................   791
Contractor Employment by Site....................................   737
Contractor Employment............................................   533
Contractor Travel..............................................530, 603
Core Conversion Project..........................................   464
Critical Infrastructure Protection.............................641, 652
Cyber Security Crosscut..........................................   617
Cyber Security.............................475, 512, 613, 616, 806, 807
Cyber Threats....................................................   811
Cyber-Security Personnel.........................................   812
Cyber-Security Upgrades..........................................   613
Declassification Initiative....................................621, 625
Declassification Review..........................................   624
Declassification.................................................   490
Defense Nuclear Facilities Safety Board..........................   835
Defense Nuclear Nonproliferation Activities in India and P482, 483, 484
Direct Energy Conversion Nuclear Reactors........................   833
Directed Stockpile Work..........................................   405
Dual Revalidation..............................................500, 818
Economic Development Initiatives.................................   748
Emergency Operations.............................................   637
Energy Grid Concerns.............................................   814
Environment, Safety and Health Employees & Contractors...........   687
Environment, Safety and Health Employees & Contractors...........   689
Environment, Safety, and Health Crosscut Funding.................   679
Export Control Budget Request....................................   496
Export Control Operations........................................   588
Export Control Training..........................................   496
Fissile Materials Disposition..................................439, 589
Foreign Visits and Assignments Program...........................   489
FY 2000 Supplemental Request.....................................   404
General Accounting Office Recommendations........................   719
General Accounting Office Report...............................436, 465
Groundwater Contamination at Pantex..................485, 486, 487, 488
HAZMAT Spill Center..............................................   640
Health Studies By Site...........................................   655
HEU Proliferation Risk...........................................   465
Human Resources..................................................   601
Independent Oversight and Performance Assurance Reports..........   721
India and Pakistan........................................482, 483, 484
Inertial Confinement Fusion....................................523, 524
Infrastructure............................................405, 481, 824
In-house Research................................................   508
Initiatives for Proliferation Prevention.......................439, 561
Initiatives for Proliferation Prevention.........................   495
Inspector General reports........................................   539
Integrated Cyber-Security Management Plan........................   614
Internal Security Problems.......................................   809
International Nuclear Safety...................................466, 595
International Security...........................................   586
Kansas City Budget...............................................   820
Laboratory Cyber Security Activities.............................   514
Laboratory Directed Research and Development....504, 505, 527, 528, 605
Livermore and Los Alamos Contracts.............................496, 828
Long-term Russian programs.......................................   547
M&O Contractors in Washington....................................   601
Make-Or-Buy Program..............................................   542
Marshall Islands.................................................   681
Materials, Protection, Control and Accounting..................436, 550
Moratorium on Foreign Visitors...................................   830
MOX Fuel.........................................................   802
MPC&A Activities with the Russian Navy...........................   493
National Ignition Facility................................406, 474, 525
National Nuclear Security Administration Defense Nuclear 
  Nonproliferation...............................................   543
Naval Reactors Activities........................................   495
Naval Reactors Work in Russia....................................   832
Non-nuclear Facilities...........................................   683
Nonproliferation and Verification, Research and Developmen563, 567, 568
Nonproliferation research and development needs..................   571
North Korea....................................................484, 586
Nuclear Cities Initiative......................................438, 553
Nuclear Material Accounting System in Russia.....................   476
Nuclear Material Transportation Route............................   831
Nuclear Weapon Disassembly.......................................   805
Nuclear Weapons Safety Devices...................................   407
Nuclear Weapons Safety in Russia.................................   477
Nunn-Lugar Activities............................................   494
Oil exporting countries..........................................   543
OSHA Memorandum of Understanding.................................   682
Outsourcing at LANL..............................................   541
Pantex Groundwater Contamination...............................485, 502
Performance Measures.............................................   509
Physical and Computer Security...................................   610
Pit Production Restart....................................480, 532, 822
Plutonium Disposition Funding..................................467, 468
Plutonium Registry...............................................   606
Portsmouth and Paducah Activities................................   801
Portsmouth and Paducah Employment................................   797
Portsmouth and Paducah Funding...................................   795
Portsmouth and Paducah Workers Enhanced Benefits...............799, 800
Production Plant Contracts.......................................   499
Program Direction Requests.......................................   474
Proliferation Resistant Reactors.................................   436
Recapitalization Budget..........................................   479
Recompeting Weapon Production Plant Contracts....................   478
Reduced Enrichment Research and Test Reactor...................573, 574
Regional nonproliferation activities.............................   584
Reimbursable Work................................................   536
Reportable Incidents.............................................   697
Research and development funding in nonproliferation.............   568
Retaining Skilled Workers.......................406, 480, 497, 813, 826
Rudman Report....................................................   482
Russia/Newly Independent States..................................   564
Russian Contributions to DOE Nonproliferation Efforts............   469
Russian Cooperation with the U.S.................................   473
Russian Cost Sharing.............................................   468
Russian funding provided by the U.S..............................   564
Russian Geologic Disposal of Spent Fuel..........................   492
Russian Highly Enriched Uranium..................................   592
Russian Long-Term Nonproliferation Program................435, 473, 547
Russian Moratorium on Plutonium Separation from Civil Spent Fuel.   436
Russian Navy.....................................................   493
Russian Nuclear Infrastructure Proposal..........................   436
Russian Nuclear Materials........................................   476
Russian Nuclear Weapons Safety...................................   477
Russian Plutonium Disposition and Storage............468, 477, 492, 589
Russian RERTR Program Support Activity...........................   579
Russian Spent Nuclear Fuel Repository............................   491
Russian Taxes....................................................   437
Russian Weapon Facilities Access.................................   437
Russian-Iranian Relations........................................   473
Safeguard and Security Costs.....................................   608
Safeguards and Security Crosscut.................................   620
Safeguards and Security Oversight................................   719
Safety Locks.....................................................   619
Security and Emergency Operations FY 2001 Budget Amendment.......   609
Security and Emergency Operations Staff..........................   454
Security and Emergency Operations Staffing Levels..............653, 654
Security Breakdowns..............................................   808
Security Center at Los Alamos National Laboratory................   495
Security Clearances..............................................   629
Security Culture at the Labs...................................488, 489
Security Investigations..........................................   636
Security Reforms.................................................   607
Seismic Center...................................................   606
Separated Plutonium Storage in Russia............................   477
Severance Benefits and Associated Costs..........................   725
Soviet-Designed Reactors.........................................   595
Spent Fuel Program in North Korea................................   484
Statement-Oral-Brigader General Thomas F. Gioconda...............   403
Statement-Oral-Dr. Rose Gottemoeller.............................   435
Statement-Oral-General Eugene E. Habiger.........................   454
Statement-Written-Brigader General Thomas F. Gioconda............   409
Statement-Written-Dr. Rose Gottemoeller..........................   441
Statement-Written-General Eugene E. Habiger......................   456
Stewardship Program Accomplishments..............................   407
Stockpile Certification..........................................   819
Strategic Planning...............................................   544
Surplus Facilities...............................................   503
Surplus Weapons-Usable Fissile Materials.........................   593
Threat Assessment Guidance.......................................   611
Threat Assessment................................................   618
Total Cost of Executing Section 3161 by Year and Site............   730
Transfer of Nuclear Secrets......................................   612
Tritium Program................................................408, 516
U.S. versus Russia Stockpile.....................................   501
Underground Nuclear Testing......................................   507
Unneeded Materials at Kansas City................................   540
Use of Direct Program Funds......................................   729
Visitors to Russia...............................................   545
Work Force Transition and Economic Development Funding...........   743
Worker and Community Transition..................................   747
Y-12 Plant Maintenance...........................................   539

                Defense Nuclear Facilities Safety Board

Budget Request...................................................   933
Annual Report....................................................   893


</pre></body></html>
